<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2020</title>
<body><pre>[Senate Hearing 116-]
[From the U.S. Government Publishing Office]



 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2020

                              ----------                              


                         THURSDAY, MAY 2, 2019

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:02 a.m. in room SD-138, Dirksen 
Senate Office Building, Hon. Shelly Moore Capito (chairman) 
presiding.
    Present: Senators Capito, Murkowski, Hoeven, Hyde-Smith, 
Lankford, Tester, Shaheen, Leahy, and Baldwin.

                    DEPARTMENT OF HOMELAND SECURITY

STATEMENT OF KEVIN MCALEENAN, ACTING SECRETARY
ACCOMPANIED BY CHIP FULGHUM, ACTING UNDER SECRETARY FOR MANAGEMENT


            OPENING STATEMENT OF SENATOR SHELLY MOORE CAPITO


    Senator Capito. I would like to welcome everyone, and I 
call this hearing of the subcommittee on Homeland Security to 
order. This is the subcommittee's third hearing of the fiscal 
year 2020 budget cycle and we are pleased to be joined by the 
new Acting Secretary of Homeland Security, Kevin McAleenan. 
Give it to me again?
    Mr. McAleenan. McAleenan.
    Senator Capito. McAleenan. Mr. McAleenan has been in this 
job as an acting capacity for just over three weeks. Prior to 
taking over this challenging task Mr. McAleenan was doing an 
outstanding job, and we have known each other and spoken with 
each other many times, serving as a head of one of Department 
of Homeland Security's most critical components, the United 
States Custom and Border Protection.
    Given the ongoing humanitarian crisis at our Southwest 
border, I am sure Mr. McAleenan has done his best over the last 
three weeks to become an expert on the complex missions and 
budgets of the other 13 components that make up the Department 
of Homeland Security. While quickly getting up to speed on all 
of that is going to be a nearly impossible task, I am certain 
Mr. McAleenan has done it as well as anybody could.
    We are pleased that he is accompanied by the Department's 
Acting Undersecretary for Management Chip Fulghum, whose 
service to the department over the past 7 years and to the 
Nation through a military and civilian career spanning 35 
years, has been outstanding. Mr. Fulghum will soon be retiring 
from government and I would like to offer this subcommittee's 
sincere appreciation and congratulations for your service. 
Thank you.
    I am glad to be joined today by our subcommittee's Ranking 
Member Senator Tester, and Senator Shaheen as well. We continue 
to consider the fiscal year 2020 budget request and look 
forward to receiving further insight today.
    The fiscal year 2019 bill, which we recently enacted on a 
broad bipartisan basis, included several significant 
investments. It provided for the largest ever single investment 
in physical barriers along the border. It provided the largest 
ever level funding for immigration enforcement and detention. 
It provided hundreds of millions of dollars to address the 
growing humanitarian needs at the border. It funded the first 
heavy icebreaker to be built by the United States since the 
70s; Senator Murkowski is very happy about that. It accelerated 
the deployment of the new aviation security equipment that will 
keep us safer and make airport lines shorter. It provided 
funding to help States safeguard our elections against cyber 
threats, provided more than 12 billion for the Disaster Relief 
Fund, and included funding for a pay raise for nearly every 
employee of the department.
    But I am probably most proud of the investment that our 
bill made in the department's efforts to combat the opioid and 
methamphetamine crisis. My State of West Virginia is perhaps 
the state that is most acutely affected by this challenge, and 
so we stand to benefit the most. Our bill included $615 million 
for equipment at the ports of entry that will significantly 
increase the number of vehicles that are being screened as they 
cross the border. The bill also included funding for 600 new 
customs officers at our ports of entry's; resources to 
significantly enhance ICE's ability to investigate the drug 
trade on the dark web; funding to increase ICE investigative 
staff in Appalachia and other regions affected by the drug 
crisis; and funding for opioid detection research.
    These are real investments that will make a significant 
difference and we plan to continue to work with you to make 
sure these investments are put to good use.
    We are holding this hearing in the wake of yesterday's 
request for supplemental appropriations to address the security 
and humanitarian crisis at the Southwest border. I know that 
the number of apprehensions of illegal border crossers 
continues to climb. Customs and Border Protection took more 
than 100,000 individuals into custody in the month of March, 
and we expect that number to be dramatically higher for April. 
Despite some who tried to call this a manufactured crisis, 
these are undeniably historic numbers.
    Yesterday's request included a $1.1 billion for the 
Department of Homeland Security to help address this crisis. It 
suggested additional resources that may be needed to humanely 
process and detain those who are crossing our border illegally, 
and to support the men and women of the Department of Homeland 
Security as they surge to address this crisis.
    We look forward to speaking with you today and working 
together in the coming days to better understand the specific 
justifications for this request. While additional resources are 
certainly needed in the short term, I think it is important for 
us to remember that we cannot just appropriate our way out of 
this crisis. The loopholes in our immigration laws are being 
exploited by criminal cartels and allowing undocumented 
immigrants to flood into our country. Instead of closing the 
loopholes, we are spending billions of dollars every year just 
within the department to deal with the consequences, and this 
is unsustainable. It is not good for the United States, and it 
is not good for those legitimately seeking safety or prosperity 
in the United States.
    While the ongoing humanitarian crisis at the Southwest 
border has rightly received a great deal of attention in recent 
weeks and months, the subcommittee has not lost sight of the 
department's many other critical missions. Counterterrorism, 
trade enforcement, opioid and drug interdiction, human 
trafficking, prevention, maritime security, airline security, 
presidential protection, cybersecurity, infrastructure 
protection, emergency management, continuity of government, 
immigration services, law enforcement training countering 
weapons of mass destruction, and state and local information 
sharing, just to name a few.
    We are fortunate to have one of the country's top border 
security experts before us today and we look forward to hearing 
from him about that topic, but I hope we will remember that the 
role this subcommittee plays in enabling and scrutinizing all 
of the missions of the department. Given all of the 
department's critical needs, I am again disappointed that many 
of the parts of this budget request are not grounded in 
reality. The request offers critical investments by assuming 
that the appropriate committees of Congress will authorize new 
revenue.
    It also assumes that the appropriate committees of Congress 
will restructure FEMA grants. It also proposes that the Coast 
Guard shipbuilding is funded in a way that could force the 
government to break pre-existing contracts, and it fails to 
annualize the pay raise Congress provided for the department's 
employees.
    These imaginary offsets allow the department to propose 
spending money it basically does not have. Congress is not 
afforded that luxury when it comes to appropriation bills. 
While the practice of digging budgetary holes and expecting 
Congress to fill them may prevent the department from making 
tough choices at the time that the budget is presented, it 
actually reduces the department's influence over the final 
outcome.
    Secretary McAleenan, thank you for appearing before us 
today. We will make sure you and your team keep us up-to-date 
on what resources you need to continue the good work that you 
are doing.
    Members of the subcommittee and our witnesses should be 
aware that the Senate is scheduled to hold three votes 
beginning at 10:30 today. We may have to pause the hearing, but 
we will reconvene the hearing after the votes are concluded to 
ensure all members have a chance for questioning.
    The plan would be to wait until we have two or three 
minutes in the first vote, then we will probably recess and 
come back.
    With that, I now turn to our distinguished Ranking Member 
Senator Tester for any opening remarks that he would have.
    [The statement follows:]
            Prepared Statement Senator Shelley Moore Capito
    Welcome. I call this hearing of the Subcommittee on Homeland 
Security to order. This is the Subcommittee's third hearing of the 
fiscal year 2020 budget cycle, and we are pleased to be joined by the 
new Acting Secretary of Homeland Security Kevin McAleenan.
    Mr. McAleenan has been in this job in an acting capacity for just 
over 3 weeks now. Prior to taking on this very challenging task, Mr. 
McAleenan was doing an outstanding job serving as the head of one of 
the Department of Homeland Security's most critical components, Customs 
and Border Protection. Given the ongoing humanitarian crisis at our 
southwest border, I am sure Mr. McAleenan has done his best over the 
last three weeks to become an expert on the complex missions and 
budgets of the other thirteen components that make up the Department of 
Homeland Security. While quickly getting up to speed on all that is 
going on at the Department is a nearly impossible task, I am certain 
Mr. McAleenan has done it as well as anyone could.
    We are pleased he is accompanied by the Department's Acting Under 
Secretary for Management Chip Fulghum, whose service to the Department 
over the past 7 years--and to the nation through a military and 
civilian career spanning nearly 35 years--has been outstanding. Mr. 
Fulghum will soon be retiring from government, and I would like to 
offer this Subcommittee's appreciation and congratulations for his 
service.
    I am glad to be joined by the Subcommittee's Ranking Member, 
Senator Tester. We continue to consider the fiscal year 2020 budget 
request and look forward to receiving further insight today from Mr. 
McAleenan. We are also pleased and honored to be joined by the Vice 
Chairman of the Full Appropriations Committee, Senator Leahy, who 
brings a great deal of experience and insight to our Committee and to 
this Subcommittee.
    The fiscal year 2019 bill, which we recently enacted on a broad 
bipartisan basis, included several significant investments.

  --It provided for the largest-ever single investment in physical 
        barriers along the border.

  --It provided the largest-ever level of funding for immigration 
        enforcement and detention.

  --It provided hundreds of millions of dollars to address humanitarian 
        needs at the border.

  --It funded the first heavy icebreaker to be built by the United 
        States since the 1970s.

  --It accelerated the deployment of new aviation security equipment 
        that will keep us safer and make airport lines shorter.

  --It provided funding to help states safeguard our elections against 
        cyber threats.

  --It provided more than $12 billion for the Disaster Relief Fund.

  --And it included funding for a pay raise for nearly every employee 
        of the Department.

    But I am probably most proud of the investment our bill made in the 
Department's efforts to combat the opioid and methamphetamine crisis. 
My state of West Virginia is perhaps the state that is most acutely 
affected by this challenge, and so we stand to benefit most. Our bill 
included--$615 million for equipment at ports of entry that will 
significantly increase the number of vehicles that are screened as they 
cross our border, funding for 600 new customs officers at our ports of 
entry, resources to significantly enhance ICE's ability to investigate 
the drug trade on the ``dark web,'' funding to increase ICE 
investigative staffing in Appalachia and other regions affected by the 
drug crisis, and funding for opioid detection research.
    These are real investments that will make a significant difference, 
and we plan to continue to work with you to make sure these investments 
are put to good use.
    We are holding this hearing in the wake of yesterday's request for 
supplemental appropriations to address the security and humanitarian 
crisis at our southwest border.
    I know that the number of apprehensions of illegal border crossers 
continues to climb. Customs and Border Protection took more than 
100,000 individuals into custody in the month of March, and we expect 
that number to be dramatically higher for April. Despite some who have 
tried to call this a ``manufactured crisis,'' these are undeniably 
historic numbers.
    Yesterday's request included an additional $1.1 billion dollars for 
the Department of Homeland Security to help address this crisis. It 
suggested additional resources that may be needed to humanely process 
and detain those who are crossing our border illegally and to support 
the men and women of the Department of Homeland Security as they surge 
to address the crisis. We look forward to speaking with you today and 
working together in the coming days to better understand the specific 
justifications for this request.
    While additional resources are certainly needed in the short term, 
I think it is important for us to remember that we cannot just 
appropriate our way out of this crisis. The loopholes in our 
immigration laws are being exploited by criminal cartels and allowing 
undocumented immigrants to flood into our country.
    Instead of closing the loopholes, we are spending billions of 
dollars every year--just within the Department of Homeland Security--to 
deal with the consequences. This is unsustainable. It is not good for 
the United States, and it is not good for those legitimately seeking 
safety or prosperity in the United States.
    While the ongoing security and humanitarian crisis at the southwest 
border has rightfully received a great deal of attention in recent 
weeks and months, this Subcommittee has not lost sight of the 
Department's many other critical missions--counter terrorism, trade 
enforcement, opioid and other drug interdiction, human trafficking 
prevention, maritime security, airline security, Presidential 
protection, cybersecurity, infrastructure protection, emergency 
management, continuity of government, immigration services, law 
enforcement training, countering weapons of mass destruction, and state 
and local information sharing--just to name a few.
    We are fortunate to have one of our country's top border security 
experts before us today--and we look forward to hearing from him about 
that topic.
    But I hope we will remember the role this Subcommittee plays in 
enabling and scrutinizing all of the missions of the Department.
    Given all of the Department's critical needs, I am again 
disappointed that many parts of this budget request are not grounded in 
reality. The request offsets critical investments by--assuming that the 
appropriate committees of Congress will authorize new revenue, assuming 
that the appropriate committees of Congress will restructure FEMA 
grants, proposing Coast Guard shipbuilding funds in a way that could 
force the government to break contracts, and failing to annualize the 
pay raise Congress provided for the Department's employees.
    These imaginary offsets allow the Department to propose spending 
money it doesn't have. Congress is not afforded that luxury when it 
enacts appropriations bills. While the practice of digging budgetary 
holes and expecting Congress to fill them may prevent the Department 
from making tough choices at the time that the budget is presented, it 
actually reduces the Department's influence over the final outcome.
    Mr. McAleenan--thank you for appearing before us today. We will 
make sure you and your team keep us up to date on what resources you 
need to continue the good work you are doing.

    Senator Capito. I will now turn to our distinguished 
Ranking Member, Senator Tester, and then Vice Chairman Leahy 
for any opening remarks they may have before asking our witness 
to proceed with his testimony.
    Then, we will allow each Senator, in order of arrival, five 
to seven minutes for any statements or questions they may have.
    Thank you. Senator Tester.

                    STATEMENT OF SENATOR JON TESTER

    Senator Tester. Yes, thank you Chairman Capito and good 
morning Secretary McAleenan and Undersecretary Fulghum and I 
welcome to the hearing on the DHS budget request for 2020.
    I want to thank you for taking on the new role as Acting 
Secretary, it is the toughest job in town, and please extend my 
appreciation to the 240,000 people who work every day with the 
goal of keeping this country safe.
    We have seen a recent purge in officials serving in 
leadership positions at the department. DHS employees and 
American people deserve a Homeland Security Department with 
leaders they know would not be kicked out due to knee-jerk 
reactions or political decisions fueled by extreme. Ideologues. 
Nearly half the department's leadership positions our filled 
with acting officials, and with all due respect to the 
dedicated officials that serve in those jobs, including 
yourselves, the vacuum of leadership at DHS that this creates 
will only serve to harm morale and perhaps worse, leave us in a 
more vulnerable situation as a Nation.
    With regard to the southern border, I recently visited the 
Rio Grande Valley to get a firsthand look at the increasingly 
desperate situation. I met with law enforcement, landowners, 
agricultural producers to discuss the challenges that they face 
and determine what resources that they need to secure the 
border in a safe, effective and cost-effective way.
    We made significant progress in February, as the chairman 
pointed out, with the passage of the fiscal year 2019 DHS 
Appropriations Act. It provided an additional $414 million in 
humanitarian assistance, $564 million to procure counter drug 
technology for our ports of entry, $100 million for border 
technology, $127 million for additional air and marine assets 
and 600 million--and funds for 600 additional customs officers. 
But as you stated in your testimony, the humanitarian situation 
on the border is rapidly overwhelming the ability of the 
Federal Government to respond.
    Just yesterday, we were served an emergency supplemental 
totaling $4.5 billion, of which $1.1 billion is requested for 
DHS. We will want to hear more about that request as we move 
forward today.
    We also cannot lose sight of the fact that the DHS is made 
up of 14 major components, all with the mission to protect this 
country, land, air, sea, and cyberspace, but under this 
administration, an expensive tax payer funded wall and 
immigration process dominates the conversation and resources.
    Cybersecurity for instance is a growing threat, we all 
agree with that, and the new battleground for many nations that 
want to do us harm. Domestic terrorism arrests are on the rise, 
terrorists continue to find new ways to target aviation, 
strategic requirements in Antarctic require additional Coast 
Guard resources, and communities need to be more resilient 
through investments in mitigation.
    Unfortunately, the department's fiscal year 2020 budget 
request would only increase funding for border security and 
immigration enforcement by 20 percent, while cutting funds for 
the rest of the department by 8 percent. This creates an 
unfortunate imbalance. The request for the border wall alone 
represents 10 percent of the total DHS budget. A wall that will 
not address the complexity of the humanitarian crisis that is 
occurring on our border today.
    The budget eliminates TSA Viper teams and ends funding for 
law enforcement, enforcement support. The Coast Guard's capital 
budget would be cut by $1 billion. Cyber security funding is 
flat despite a red blinking light warning from the Director of 
National Intelligence. The Science and Technology director's R 
and D funding would be cut by 40 percent, making it hard to 
develop technologies to stay ahead of terrorist groups. FEMA 
preparedness grants and state and local training would be 
reduced by 20 percent even though these threats are more 
diverse than ever.
    And finally, the budget relies on a faulty assumption that 
an unauthorized increase in aviation security fees will be 
enacted to offset $600 million in budget authority. Again, all 
of this while the administration wants to spend another $8.6 
billion on a wall that is not going to help the evolving 
humanitarian crisis on the southern border.
    Look, I look forward to discussing some of these issues 
with you today.
    Finally, on the matter that is very important to Montana, I 
want to thank the CBP for a quick response and work with me to 
cut through the bureaucracy to ensure that uninterrupted import 
of hemp seeds for American growers be available this planting 
season, which was intended by our recently passed farm bill.
    I want to thank you Mr. Secretary, for appearing before 
this committee. I want to thank you for your commitment to the 
security of this country. I think you are a good man. We need 
to make sure you have the resources in the right places for you 
to be able to do your job.
    Thank you, Madam chair.
    Senator Capito. Thank you. I would like to ask the ranking 
member of the full Committee if he would like to make an 
opening statement.

                 STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. I would Madam chair and thank you very much 
for the courtesy.
    One, I am glad to see Acting Secretary McAleenan here. We 
have known each other for a long time, and I appreciate the 
time he spent in my office discussing the problems we are 
facing.
    We all know our southern border experiencing a humanitarian 
crisis deserves our attention. We all know that we want secure 
borders, we want an immigration system that works. But we are 
seeing higher asylum seekers and migrants, families, 
unaccompanied children, fleeing for their lives arriving at our 
border creating significant strains on our ability to treat all 
of them humanely and with due process. But a serious crisis 
demands serious solutions.
    Mr. McAleenan, I generally believe you are here in good 
faith to discuss serious legitimate solutions to the 
humanitarian crisis and that sort of a feeling both Republicans 
and Democrats feel about you. I do question the President's 
seriousness. Faced with this real crisis he responds with 
little more than Twitter and rhetoric to rally his base. Many 
of his ideas have gone from retaliation to downright 
lawlessness. We all know what the President thinks of asylum 
seekers and immigrants. He has demeaned the attempts of these 
vulnerable human beings to obtain refuge in our country, as a 
big fat con job. He says this of families, women and children, 
who are fleeing violence and dangers most of our citizens could 
not comprehend that have taken a perilous journey north in the 
hopes for a better life. They are tired, they are desperate, 
and they are asking for our help.
    Like Senator Tester I have gone down there on the border, I 
have seen. I will never forget going in one of the places, one 
of the big cages we have for children, cages. Here is--usually 
you go to a playground with young kids, the cacophony of sound 
is amazing. Dead silence. They are all there, sort of huddled 
together. I caught the eye of one youngster, I smiled, and he 
started to smile back, and then he put his head down as though 
we are not supposed to do this.
    I think the President should try to work with Congress to 
find bipartisan solutions. There are Republicans and Democrats 
who want real solutions, not take steps to make it worse. The 
President threatened to close the border, which in addition to 
wreaking havoc on our economy, would have only pushed more 
asylum-seekers to cross between ports. He has threatened to cut 
off aid to Central America. That aid is humanitarian aid to 
help schools, help hospitals, help food aimed at alleviating 
the conditions that caused the people to flee in the first 
place. He has put obstacles in front of asylum seekers crossing 
at legal points of entries and then vilifies them if they try 
to cross another way. He declared the migrant's rights 
specifically, migrants had no rights to claim asylum between 
the ports, even though the law says exactly the opposite.
    And the President's singular focus in building the wall 
does nothing to address the influx of asylum-seekers, most of 
whom turn themselves into border patrol once they reach U.S. 
soil, and then are escorted through gates in the fence. 
Ultimately the pattern of this President has been to defy our 
laws, threaten extreme measures, promote policies that do 
nothing but exacerbate the crisis we are faced with. That is 
not serious leadership.
    So, I envy you not, Mr. Acting Secretary, you have a tough 
job in front of you. It is made more difficult by a President 
who does not understand these complex issues, more interested 
in his press coverage on a friendly network than actually 
governing.
    I am willing to work with on you sensible, smart and 
serious ideas, issues facing our country, the department 
deserves no less. Republicans and Democrats want to work with 
you, we just hope the President does not get in the way.
    Thank you, Madam chair.
    Senator Capito. Now I recognize Mr. McAleenan. Thank you 
for being here.

               SUMMARY STATEMENT OF HON. KEVIN MCALEENAN

    Mr. McAleenan. Good morning Chairwoman Capito, Ranking 
Member Tester, full committee Ranking Member Leahy, 
distinguished members of the committee. I appreciate the 
opportunity to appear before you today. It is really a sincere 
honor to serve as the Acting Secretary and to represent the 
dedicated men and women of the Department of Homeland Security 
(DHS).
    In my view DHS has the most compelling mission in 
government, to safeguard the American people, our homeland, and 
our values. As Acting Secretary, I intend to work very closely 
with this committee and serve as an advocate for the department 
to ensure our people have the resources they need to carry out 
our critical missions, the many missions that the chairwoman 
outlined, on behalf of the American people.
    Today I have the privilege of presenting to you the 
President's Fiscal Year 2020 Budget for the Department of 
Homeland Security. The President's 2020 budget request would 
strengthen the security--through enhanced border security, 
immigration enforcement, cybersecurity, transportation 
security, counterterrorism, and resilience to disasters.
    With regard to border security, as you all mentioned, we 
are in the midst of an ongoing security and humanitarian crisis 
at our Southwest border. The department, at the request of our 
front-line officers and agents, needs additional resources to 
respond. In March, U.S. Customs and Border Protection (CBP) 
apprehended and encountered more than 103,000 migrants crossing 
without legal status, the most in 1 month for more than a 
decade. And two days in the last month, we had more than 5,000 
people cross our border without authorization in one 24-hour 
period.
    Simply put, our system is full, and we are well beyond our 
capacity. This means that any new waves of vulnerable 
populations arriving are only exacerbating the already urgent 
humanitarian security crisis here at our border. We do not have 
the room to hold them, we do not have the authority to remove 
them, and they are not likely to be allowed to remain in the 
country at the end of their immigration proceedings.
    Through supplemental request and emergency declaration, we 
will work to do everything to address the immediate and dire 
humanitarian crisis that we can, deploying medical teams from 
the U.S. Coast Guard, and receiving help from the U.S. 
Departments of Defense and Health and Human Services' (HHS) 
Public Health Service Commission Corps. And we have redeployed 
DHS assets, including CBP officers from ports of entry, just to 
help the Border Patrol with the humanitarian crisis they are 
facing. But it is not enough.
    The problem we face is unprecedented and challenging, and 
we need both sustained investment and additional emergency 
support at the Southwest border to manage this humanitarian and 
security crisis.
    The President's budget requests $523 million to address the 
humanitarian crisis. This money will allow us to provide better 
care for those whom we come into contact with through 
apprehension, as well as detention, and eventually removal.
    To address the border security crisis, it requests $5 
billion in funding for the construction of approximately 200 
miles of new border wall system. This is a proven deterrent 
that will enhance our ability to identify and apprehend those 
entering our Nation illegally. It also calls for an additional 
750 Border Patrol agents, 273 Customs and Border protection 
officers, and more than 1660, ICE front-line and support 
personnel.
    The budget requests will make much-needed upgrades to our 
sensors, our surveillance systems, and our command and control 
on our aircraft, to help our men and women combat criminals who 
are profiting from the suffering of humans. I hear weekly from 
our operators on the border that these upgrades are badly 
needed in the fight against transnational criminal 
organizations, and human smugglers.
    Although our 2020 budget will help address a crisis, we 
will need additional funding sooner. Given the scale of what we 
are facing we will exhaust our resources before the end of this 
fiscal year, which is why yesterday the administration sent a 
supplemental funding request to Congress. The request includes 
$1.1 billion for the Department of Homeland Security and would 
provide almost $400 million for humanitarian assistance, 
including for temporary and semi-permanent migrant processing 
facilities at the southern border where families and children 
will receive timely and appropriate medical attention, food, 
and temporary shelter prior to being transferred to more 
appropriate locations; $530 million for border operations to 
include surge personnel expenses, as well as increased 
transportation and detention capacity; and $178 million for 
operations and support costs, including pay and retention 
incentives for critical operational personnel and for 
information technology (IT) support and upgrades to alleviate 
the stress on overtaxed IT systems and to improve our 
processing.
    The supplemental request is part one. Part two will be the 
administration's legislative proposal targeted at addressing 
the key vulnerabilities in our legal framework that are 
inviting the crisis, and to address the aspects of our laws 
that invite families and children to make this dangerous 
journey in the hands of smugglers.
    As I am sure you are aware, DHS is not the only agency 
involved in the humanitarian crisis unfolding daily at our 
southern border. Our partners at the Department of Health and 
Human Services are also on the brink of running out of 
resources. The administration's supplemental request addresses 
critical humanitarian requirements and will help ensure that 
the crisis is managed in an operationally effective, humane, 
and safe manner, especially for unaccompanied children arriving 
at our border.
    But, even as we face challenging border security and 
humanitarian issues, DHS is always a multi-mission department, 
and we will not lose momentum across any of our numerous 
efforts, including cybersecurity, securing the 2020 elections, 
the upcoming hurricane season, or any of the multiple areas 
that the American people rely on from our department to protect 
them.
    The President's budget also requests $1.3 billion to assess 
evolving cybersecurity risks, and to protect Federal government 
information in critical infrastructure. It supports the launch 
of project Protect 2020, a new initiative designed to get all 
states to a baseline level of election infrastructure 
cybersecurity well before the National elections of 2020, 
building on success in the 2018 process.
    Although DHS does not control state and local election 
infrastructure and does not think we should, we can provide 
much-needed technical assistance and support to willing 
partners.
    Our air travel system also needs to evolve and improve to 
support aviation security. Additional transportation security 
officers will uphold security effectiveness and stay ahead of 
increasing cost and security demands at airports nationwide. 
The $3.3 billion for Transportation Security Administration 
(TSA) includes funding for an additional 700 screeners and 350 
computed tomography units to help identify aviation security 
threats in baggage.
    For Federal Emergency Management Agency (FEMA), the budget 
provides a significant increase in the Disaster Relief Fund, 
which begins implementation of the new requirements of the 
Disaster Recovery Reform Act and funds critical operational 
positions identified after the 2017 Hurricane Season After-
Action Report.
    For the U.S. Coast Guard, the budget continues to fund the 
offshore patrol cutter, the cornerstone of the fleet, and 
advances the Polar Security Cutter program.
    I want to close by reiterating that the strength of DHS is 
in its people, and I would be remiss if I did not mention the 
tremendous dedication that our front-line officers and agents 
confronting this crisis are demonstrating every day. Despite 
the challenges they face, our men and women have continued to 
act to stop criminals and to help those in need. They are truly 
an inspiration.
    I would also just like to thank you, Madam chairwoman, for 
acknowledging Chip Fulghum's service to the Department of 
Homeland Security and our Nation. I am honored to sit next to 
him at this table. He has been a wealth of information and a 
tremendous resource for the department during his service, and 
I wish him well at his next endeavor.
    I should note that this is his second to last business day, 
and that he has volunteered to sit next to me to help answer 
your questions at this hearing. So, thank you very much, Chip. 
I appreciate that immensely.
    I look forward to taking your questions today and having a 
good dialogue about the budget request. Thank you.
    [The statement follows:]
                Prepared Statement of Kevin K. McAleenan
    It is a privilege to appear before you today to discuss the 
Department of Homeland Security's (DHS) essential missions and to 
present the President's fiscal year 2020 Budget for the Department.
    DHS is comprised of 14 major components employing more than 240,000 
men and women dedicated to the mission of ensuring the safety and 
security of our great nation. I want to start by thanking the men and 
women of the Department of Homeland Security for their extraordinary 
service to our nation. The men and women of DHS are exceptional and 
dedicated professionals who are on watch 24 hours a day, 365 days a 
year. Their mission is to protect Americans from threats by land, sea, 
air, and in cyberspace, while also promoting our nation's economic 
prosperity. They work tirelessly to strengthen the safety and security 
of our nation from persistent and emerging dangers, including 
terrorists, transnational criminal organizations, rogue nation-states, 
and natural disasters.
    Although our mission statement is simple, the mission itself is 
extremely complex. The Department's reach is global; spanning more than 
7,450 miles of U.S. border and 95,000 miles of coastline to 4.5 million 
square miles of U.S. Exclusive Economic Zone (EEZ) and regions of the 
high seas known for smuggling operations. Our reach continues into the 
cyber world where nefarious actors attack U.S. financial, 
technological, and electoral interests. The Department is also 
responsible for the security of our traveling public and movement of 
goods through international trade. It is our dedicated personnel who 
not only achieve DHS's global reach, they also create efficient and 
effective operations 24 hours a day. I am proud to lead and represent 
the dedicated men and women of DHS as they are America's frontline 
defense.
    The fiscal year 2020 President's Budget for DHS requests $51.7 
billion in net discretionary funding and an additional $19.4 billion 
for the Disaster Relief Fund (DRF) supporting response to and recovery 
from major disasters. The President's Budget proposes to strengthen the 
security of our nation through enhanced border security, immigration 
enforcement, cyber security, transportation security, resilience to 
disasters, and senior leadership protection.
    Highlighting some of the Department's accomplishments provides a 
mere glimpse of the threats to our nation's security. At the completion 
of fiscal year 2018, Customs and Border Protection encountered more 
than 683,000 illegal migrants and inadmissibles, Homeland Security 
Investigations made more than 34,000 criminal arrests, of which 4,300 
were gang-related; and law enforcement agents and the United States 
Coast Guard (USCG) seized more than one million pounds of illegal 
drugs. Keeping our traveling public safe is another vitally important 
job for DHS. For example, in fiscal year 2018 the Transportation 
Security Administration (TSA) screened more than 800 million aviation 
passengers while preventing almost 4,200 firearms from being carried 
onto aircraft.
    In 2018, the United States endured significant natural disasters 
such as Hurricanes Michael and Florence and the deadliest wildfires in 
California's modern history including the one that obliterated the town 
of Paradise. Preserving life and reclamation efforts, FEMA obligated 
more than $9.2 billion in Public Assistance, including funding to clear 
debris, rebuild roads, schools, libraries, and other public facilities, 
and provided more than $1 billion in Individual Assistance to 
survivors. These are just a few examples of how our men and women 
deliver on a daily basis for the American people.
    Security of our Nation's borders remains a primary focus of the 
Administration and the Department, and doing more with less is an 
unacceptable method for achieving mission goals. This situation on the 
border with unprecedented numbers of families and children represents 
an acute and worsening crisis. CBP encountered nearly 40,000 children 
in the month of April alone. Our immigration system is not equipped to 
accommodate the significant change in migration patterns from one 
largely composed of single adults from Mexico to one comprised mainly 
of families and unaccompanied children from non-contiguous countries. 
Previous patterns-- somewhat predictable in composition and predicated 
on seasonal variations--are no longer the norm. Unlawful migration 
through the U.S. southern border has increased by over 60 percent from 
the previous year. In addition, the speed with which illegal migrants 
are transiting through Mexico to reach our southern border is 
frustrating our best efforts to respond quickly and keep pace with the 
overwhelming numbers of migrants arriving at the southern border.
    The migration flow and the resulting humanitarian crisis is now 
even more dire and is rapidly overwhelming the ability of the Federal 
Government to respond. In February, U.S. Customs and Border Protection 
(CBP) encountered over 76,000 illegal border crossers and inadmissible 
aliens, and in March that number exceeded 100,000--the highest monthly 
level in more than a decade. Despite heroic efforts, the Nation's 
ability to humanely and compassionately care for vulnerable populations 
and expeditiously process and detain those who should not be admitted 
is being stressed to the breaking point. Unaccompanied children and 
families are crowded into U.S. Border Patrol stations that were never 
intended as long-term shelters. U.S. Border Patrol personnel no longer 
have the ability to identify, process, and transport all of those 
apprehended at the border to safe and secure facilities designed to 
house them, but have instead been increasingly pressed into service to 
provide critical humanitarian, medical support, and transportation 
services for this uniquely vulnerable population.
    The Southwest Border still lacks a permanent wall and persistent 
domain awareness in vulnerable areas. The fiscal year 2020 Budget 
requests $8.6 billion in DHS and DoD funding for the construction of 
approximately 300 miles of new border wall system. A border wall is a 
proven deterrent that enhances U.S. Customs and Border Protection's 
(CBP) ability to apprehend those entering our Nation illegally; it is 
foundational to any strategy of achieving operational control of the 
Southwest Border.
    Domain awareness complements a permanent wall through actionable 
intelligence. The current crisis at the border demands persistent 
awareness to allow our agents to respond rapidly and effectively to any 
incursion, and achieving this level of awareness requires a commitment 
to the procurement and sustainment of technology. The President's 
Budget requests upgrades to sensors such as the Remote Video 
Surveillance System (RVSS) and associated command and control (C2) 
systems, continued procurement of the Multi-Role Enforcement Aircraft, 
and UH- 60 Blackhawk Helicopter upgrades. Through continued domain 
awareness and border wall construction, DHS increases its chances of 
mission success of ensuring that our Nation's Southwest Border and our 
citizens are secure.
    Border security in itself is not enough. We must continue to 
address those who already have entered our country illegally. We must 
further immigration enforcement. The U.S. Immigration and Customs 
Enforcement's (ICE) average daily population (ADP) forecasting model 
reinforces a budget increase to 54,000 beds. This increase allows ICE 
to handle continued migration flows, enhance enforcement activity 
within our borders, and remove those who have entered illegally and are 
presenting a danger to our communities. The President's Budget 
maintains safe and secure facilities for 2,500 families.
    For lower-risk apprehended aliens, funding is requested to expand 
the Alternatives to Detention (ATD) program to 120,000 daily 
participants. The ATD program supervises certain individuals using a 
combination of personal visits and monitoring technology, allowing 
individuals to remain in their communities while their cases are 
processed. Additionally, the Transportation and Removal Program 
requires additional resources in fiscal year 2020 to ensure the safe 
and secure transportation of aliens who are either subject to Final 
Orders of Removal or require transfer within the United States.
    Investment in our most critical resource, human capital, remains a 
high priority for me. Funding is included in the request for 750 
additional Border Patrol Agents, 273 CBP Officers, and more than 1,660 
ICE frontline and support personnel. Retaining our personnel is a 
priority, and the Department continues to look for affordable and 
effective retention measures, especially for our Border Patrol Agents.
    The fiscal year 2020 Budget also requests increased resources for 
international trade and travel requirements. In 2018, the President 
signed the National Security Presidential Memorandum establishing the 
National Vetting Center (NVC). The NVC utilizes law enforcement and 
classified data to better identify potential threats to the homeland. 
It brings together different streams of information and intelligence 
into a single process for adjudicating applications for travel to the 
U.S. Through this technology, CBP can now receive near-real time 
responses from Intelligence Community partners for more than 35,000 
ESTA applications each day.
    Our nation's defense continues beyond the physical borders and into 
the high seas. It is the USCG that stands as our phalanx to those who 
threaten our maritime interests. Since 1790, the USCG has performed its 
vital mission of saving those in peril while promoting our national 
security and economic prosperity in a complex and evolving maritime 
environment. The fiscal year 2020 Budget is committed to maintaining 
USCG readiness levels and continued modernization with new and more 
capable assets. The President's Budget includes more than $1.1 billion 
for recapitalization of Coast Guard resources including, but not 
limited to, the genesis of the third Offshore Patrol Cutter, 
procurement of two Fast Response Cutters, funding to continue efforts 
toward constructing the nation's first Polar Security Cutter, and 
aircraft sensor modernization. Additionally, this budget includes 
funding for a 3.1 percent pay raise for our military personnel.
    Continuing efforts to improve public transportation resiliency, DHS 
is steadfast in addressing areas of vulnerability. Although heavily 
fortified, the public air-travel system must evolve with changing 
threats. TSA is an intelligence-driven, national security organization 
employing risk- based security principles to actively combat evolving 
threats to our critical transportation infrastructure.
    TSA continues to experience airline passenger volume growth at 
airport checkpoints nationwide. Additional Transportation Security 
Officers (TSO) are needed to uphold security effectiveness and 
compliance, keep screening times on pace with volume growth, and stay 
ahead of increasing costs and security demands at airports nationwide. 
The $3.3 billion requested for the Screening Workforce adds 1,028 
screener positions for a total of more than 46,600 TSOs, the highest 
level in history. The request proposes a $1.00 increase in the 9/11 
passenger security fee in order to cover a greater share of the costs 
of aviation security. This is a minimal fee increase and should be 
considered seriously by Congress. The budget also funds an additional 
320 computed tomography (CT) units. The CT units are used in airport 
screening lanes to effectively detect smaller and more artfully 
concealed threats within carry-on bags.
    DHS continues to improve its collective efforts in cybersecurity 
with the recent creation of the Cybersecurity and Infrastructure 
Security Agency (CISA). In passing the Cybersecurity and Infrastructure 
Security Agency Act of 2018, Congress recognized that the role played 
by CISA has never been more important. Requiring collaboration between 
both government and private-sector organizations, CISA is charged with 
protecting the nation's critical infrastructure from physical and cyber 
threats. Through this mission, DHS is focused on improving our digital 
defense as cybersecurity threats continue to grow in scope and 
severity.
    To assess evolving cybersecurity risks and protect Federal 
Government information systems and critical infrastructure, the fiscal 
year 2020 President's Budget includes more than $1.3 billion for 
Federal Network Protection (FNP) and Infrastructure Security. Included 
in FNP are the Continuous Diagnostics and Mitigation, the National 
Cybersecurity Protection System--known operationally as EINSTEIN-and 
Federal Network Resilience. These systems in conjunction with the 
National Cybersecurity and Communications Integration Center (NCCIC) 
provide the technological foundation to secure and defend the Federal 
Government's civilian information technology infrastructure against 
advanced cyber threats.
    The resiliency mission is carried even further through the Federal 
Emergency Management Agency (FEMA). Its mission reduces loss of life 
and property and protects the nation from all hazards by leading and 
supporting the nation in a risk-based, comprehensive emergency 
management system. Before, during, and after disasters, FEMA focuses on 
supporting and empowering disaster survivors by increasing their 
capacity to take effective and practical steps to help themselves, 
their families, and their communities. The better prepared that 
citizens are to assist themselves and others in times of need, the 
stronger our nation will be in the event of future emergencies.
    Therefore, the fiscal year 2020 President's Budget requests 
increased funding for programs that support FEMA's three primary 
strategic goals of: building a culture of preparedness, increasing 
catastrophic disaster readiness, and reducing FEMA complexity. 
Requested funds support the implementation of FEMA Integration Teams 
(FIT) who develop relationships with state emergency management 
offices, enhancing the coordinated state and Federal response. The 
budget also includes funding for the fiscal year 2020 Disaster Relief 
Fund in support of disaster declarations for hurricanes Harvey, Irma, 
and Maria, and for the California wildfires. Communications between 
first responders is vitally important for immediate real-time 
information sharing during all threats, hazards, or incidents. Thus, I 
am committed to ensuring that our first responders can communicate 
effectively and the request for CISA includes $167.3 million for 
emergency communications towards this effort.
    I greatly appreciate the Congress authorizing the Countering 
Weapons of Mass Destruction Office (CWMD) last year. CWMD leads 
provides the subject matter expertise and helps to equip the 
Department's field operators so they may effectively defend against 
weapons of mass destruction, including potential terrorist use of WMD. 
The President's Budget continues to enable our efforts to develop a 
robust and technologically advanced analytic capability combating 
chemical, biological, radiological, and nuclear threats to the homeland 
and our interests. Additionally, funding is requested for the Radiation 
Portal Monitor Replacement Program (RPM RP) supporting CBP's 
operational effectiveness at the Nation's land, sea, and air ports of 
entry. Ensuring the effective and safe movement of goods through our 
ports, the RPM technology provides the cost-effective capability to 
scan cargo for radiological and nuclear threats without an adverse 
impact to the flow of commerce.
    The U.S. Secret Service carries out the unique and integrated 
missions of protecting senior leadership and investigating threats to 
the nation's financial system. Best known for protecting the President, 
the Vice President, their immediate families, visiting heads of state, 
and other designated individuals, the Secret Service also protects the 
White House Complex, the Vice- President's Residence, foreign 
diplomatic missions, and other designated buildings. Further, it 
coordinates security at designated National Special Security Events 
such as the State of the Union Address. Vitally important to our 
economic way of life, the Secret Service protects our financial 
infrastructure by investigating counterfeiting, crimes related to 
financial securities of the United States, identity theft, and computer 
fraud. The President's Budget includes $33.4 million to hire additional 
Special Agents, Uniform Division Officers, and administrative, 
professional, and technical personnel to achieve an end strength of 
7,777, the highest in Secret Service history. The 2020 Presidential 
Election is only 18 months away, and the Budget includes almost $151 
million to ensure that the 2020 Presidential Campaign is adequately 
resourced for the protection of major candidates, nominees, their 
spouses, and nominating conventions.
    Finally, since our founding, DHS agencies have operated in 
temporary spaces and in offices scattered throughout D.C. metropolitan 
area. This has made it difficult for 240,000 employees to operate as 
``one'' Department. But starting in April 2019, we have a new base of 
operations. After many years, we have finally moved onto the St. 
Elizabeths Campus in Southeast Washington, D.C.; the home of the new 
DHS Headquarters. The fiscal year 2020 budget requests $224 million 
ensuring momentum into this first class facility. St. Elizabeths will 
become the primary hub of a more focused, more unified, more effective, 
Department of Homeland Security. We have this Committee to thank for 
the historic move, and I look forward to welcoming all of you to visit.
    I continue to be amazed by the professionalism, dedication, and 
conviction that the DHS employees exhibit on a daily basis. Their 
resolve and devotion to the homeland security mission is on display 
daily, and the security of our nation depends on Congress properly 
resourcing the very people charged with safeguarding the American 
people, our Homeland, and our values.
    The fiscal year 2020 President's Budget requests the necessary 
funding for the Department of Homeland Security to carry out its wide-
ranging, day-to-day mission. We are challenged everyday with crises 
spanning Southwest Border security to daily cyber-attacks, and I call 
on Congress to assure the security of our Nation by providing the 
proper funding required to do our jobs.
    Thank you for the opportunity to appear before you and discuss the 
Department's fiscal year 2020 Budget submission. I look forward to 
taking your questions.

                           HUMAN TRAFFICKING

    Senator Capito. Thank you very much. Yesterday we received 
a request from OMB on the supplemental. I shared with you that 
in my airport I was in front of a gentleman who told me he was 
on his way to Tucson, Arizona, and his son is a border agent. 
And I said, ``Well how is he doing?'' He is frustrated because 
he is taking care of children and he is not doing his front-
line duty, and he is frustrated. That was a totally unsolicited 
comment from me if I had not prefaced it with anything.
    For some context, could you explain exactly how human 
smugglers are exploiting our generous asylum laws in ways we 
did not contemplate when the laws were first created?
    Mr. McAleenan. Absolutely Senator. So, this smuggling 
process has evolved and become more complex and differentiated 
over the last several years. We have seen in the last 5 years, 
since the first crisis with families and children coming to our 
border, 68,000 children, 68,000 families in 2014. We are now 
seeing that level of families almost in 1 month.
    What has happened is that smugglers have made clear in 
their advertisements, these are storefront type operations in 
the western highlands of Guatemala for instance, that if you 
come to the U.S. border now and bring a child, they are not 
going to be able to detain you through your process and to 
remove you effectively; you will be allowed to stay.
    That is what we are hearing in our interviews of people 
crossing. That is what they are expressing when we bring media 
down and when we have members of Congress interact with 
families crossing.
    There are difficult conditions in Central America for sure, 
but what we see is the smugglers taking advantage of those 
conditions and advertising that this is the time to go to the 
United States, and then exploiting them by charging $5,000 to 
$7,000 per person to make the journey and to cross our border.
    Senator Capito. In light of that, last year we provided 
$400 million to address some of the humanitarian aspects of the 
crisis, and you have asked for more in the supplemental, and 
then more for next year.
    Have these resources depleted; are they gone? What are you 
going to do if you do not get the supplemental? How do you 
handle that issue?
    Mr. McAleenan. That is a significant challenge, Senator. 
When we asked for the supplemental funding last year, it was a 
request that we developed during the budget dialogue and 
negotiations we asked for about $800 million. That was with the 
traffic level at 60,000 per month. As you noted, we had 103,000 
in March, and we see that sustaining day-to-day in April.
    So really our request was for a lower number of crossings, 
first and foremost, and for a set of requirements that we 
understood at the time in January. Those requirements have 
expanded. And it is everything from facilities, medical care, 
transportation, food, and really, the ability to help our 
agents get back to the border and manage the border security 
aspects by supporting them with contract personnel to provide 
that care and custody support, so they can do their law 
enforcement mission.
    It is a whole variety of requirements, and we can talk 
about what we have done with the fiscal year 2019 funding, 
which was very helpful, but also why we need this additional 
funding to increase our capacity.

                    INTERIOR IMMIGRATION ENFORCEMENT

    Senator Capito. All right, thank you. I am going to move to 
something else, I know we are going to have time for other 
questions.
    On ICE interior enforcement, it is my understanding that 
most of the individuals you are detaining as a result of 
interior enforcement have committed crimes and they are often 
serious ones. But, because ICE has sent personnel down to the 
border to assist with managing this current surge, enforcement 
data suggests this may be impacting our interior immigration 
enforcement, which is down nearly 10 percent.
    Can you help me understand what is happening here and how 
this is impacting your ICE workforce?
    Mr. McAleenan. Thank you, Senator. I think this is an 
important area. Just to clarify, 75 percent of all people who 
come into U.S. Immigration and Customs Enforcement (ICE) 
detention are recent border entrants who have been apprehended 
by CBP at the border. That is the bulk of the people whom they 
are encountering.
    The other 25 percent are from interior enforcement, and 
within that 25 percent, 9 out 10 have a criminal record. They 
are very much focusing on the safety of communities and 
identifying and detaining and removing those people who present 
a threat.
    Senator Capito. Those resources that are trying to get to 
the 90 percent of the 25 percent, of the resources there, in 
terms of agents deployed to the border, which as I understand 
that is what has happened to that workforce. Is that correct?
    What is happening then to the interior enforcement aspect 
of it? It is obviously dwindling; the numbers show that. Is 
that correct?
    Mr. McAleenan. This is an integrated system, so any 
redeployment has consequences to other aspects of the mission. 
We have needed to deploy ICE personnel to the border to work 
alongside Border Patrol agents to process both adults and 
families that are arriving, and to transport children to HHS. 
That does affect their ability to conduct fugitive operations 
in major cities around the country as well as to protect 
communities in their field offices away from the border. So 
that is absolutely a concern.
    Senator Capito. Very quickly on the ICE beds now, there are 
50,000 that are occupied, correct? Right now, approximately. 
How does that break down? How many of those are average stay, 
long, short?
    Mr. McAleenan. Sure, so briefly, and there are two 
different aspects to this. Again that intake is about 15 
percent from the border, and 25 percent from the interior. On 
an average day, because it takes longer to finish a case on an 
interior arrest than a border arrest, the balance of the 
population is about 60/40 from the border versus from interior 
operation.
    Senator Capito. 60 from the border, 40 from the interior?
    Mr. McAleenan. Correct. And again, those interior arrests 
and the people in custody, 9 out of 10 have a criminal record.
    Senator Capito. Right.
    Senator Leahy.

                           BORDER WALL SYSTEM

    Senator Leahy. Thank you both very much. I am concerned 
when I see the President is requesting $8.6 billion U.S. 
taxpayer's money in fiscal year 2020 for his wall. That is in 
addition to $8.1 billion he says he is going to take away from 
our troops, our military troops, and from proven counterdrug 
programs to national emergency declaration.
    The wall, of course, does nothing to address the migrant 
population you are encountering every day, and you have 
discussed especially, those seeking asylum either come in a 
port of entry or they are escorted through a door in the border 
fence.
    Would it not be better to spend money on technology 
equipment, personnel, to find dangerous drugs, as well as 
processing people in facilities to care for those who are 
fleeing violence from their countries?
    Mr. McAleenan. Thank you for the question, Senator. I think 
we need investments in both. We are facing both a border 
security and humanitarian challenge. The investments in a 
border wall system to provide the ability to deny access to the 
United States in areas where we have high traffic, where we 
have population centers on both sides of the border, it is 
extraordinarily important.
    That is for people trying to evade capture: the 17,000 
criminals whom CBP arrested last year, the 800 gang members, 
and also of course, the drug smugglers who are increasingly 
exploiting with hard narcotics areas between ports of entry.
    But for the humanitarian side, we would love to do that at 
ports of entry. We want people to present lawfully, in a safe 
manner, at ports of entry. We have unprecedented efforts 
underway to process asylum-seekers at ports of entry, 
tremendous growth, 100-percent increase over last year. Last 
year was 120-percent increase over the year before.
    But yes, we need investments in both. The humanitarian 
effort to take care of the vulnerable families and children, 
but also the border security investments that will help us deny 
access to the United States for criminals and smugglers.

                 PARDONS FOR UNLAWFUL CONDUCT AT BORDER

    Senator Leahy. Well we should talk more about that because 
I do not want it to be an either/or, but I do not want to spend 
money on symbolism when we need money on substance.
    Incidentally, multiple reports indicate the President told 
you and other DHS personnel in Calexico, California, he would 
offer pardons for any illegal conduct denying entry to 
migrants.
    When you were asked about this incident you stated you have 
never been asked to do anything unlawful by the President, and 
I take you at your word, but the reports do not allege he 
specifically directed you to engage in illegal conduct.
    So, if we could clarify this, because there have been so 
many reports. Has the President ever discussed offering pardons 
or any other protection if you, or other DHS personnel, were to 
be punished for engaging in unlawful or inappropriate conduct 
at the border?
    Mr. McAleenan. Senator, respectfully I have had the 
opportunity to answer this question multiple times in the media 
and elsewhere. Again, I have not been asked to do anything 
unlawful by the President of the United States or anyone else 
in the administration. We would not allow our men and women to 
be asked to do that either as leaders.
    Senator Leahy. I understand that. Was there any offer made 
that if you did something unlawfully you would be getting a 
pardon?
    Mr. McAleenan. Not--No, Senator. That is not the context of 
a conversation. And really, in this role, I am not going to be 
comfortable speaking about conversations with the President on 
any matters, including border security.

                TRUSTED TRAVELER VETTING CENTER: VERMONT

    Senator Leahy. Let me ask you another question, this may be 
parochial. Last month DHS abruptly announced it would be 
shutting the Trusted Traveler Vetting Center located in Wilson, 
Vermont, employs 40 CBP staff, going to remove that to Sterling 
Virginia. It would not just be the shocking manner in which 
they have handled this, this is a place where I remember being 
there once after we had a 20 inch snow fall and there was some 
people from your department that said, ``Well what do you do in 
a snowfall like that?'' And they said, ``Well we come to 
work''. How do you get to work? Well, I drive my car; I come to 
work.
    Now Sterling Virginia, or D.C. had 3 inches of snow and it 
closes the whole place down. So, there is very few satisfactory 
options for these people. I do not know if you have been to 
Vermont but offering 40 employees a chance on just a few weeks' 
notice to apply somewhere else, does not make much sense.
    They functioned very well for 18 years, so what are you--
why the sudden need? What flexibility are you giving them? What 
kind of commitments are you making to them? It just seems like 
okay you have been doing this job perfectly, exemplary for 
years and years, okay boom, you are gone. That is not the real 
world.
    Mr. McAleenan. Well, certainly you have to manage any shift 
in facilities and personnel appropriately. We have to give 
people notice. We have to give them options and opportunities.
    Senator Leahy. Five weeks is not much notice.
    Mr. McAleenan Well, I will look into that, Senator. You 
raised that with me, and I am going to follow up with CBP on 
this issue. Because frankly, consolidating assets at our 
national targeting center to do that vetting mission 
effectively is an appropriate step, but we want to make sure 
that we are appropriately treating our officers and, ideally, 
augmenting the ports of entry in your state, not just the 
vetting aspects of our mission.
    So, we will try to do both. We will try to do it 
effectively, and we will take care of our people, who you are 
absolutely right, are dedicated and coming to work no matter 
what, including significant snowfall.
    Senator Leahy. Please keep in touch with me because every 
report I get, their work has been exemplary, they do not find 
reasons to not show up. And I know that is not the case in 
every single place of our government, certainly not down here 
if you get a snowfall.
    Thank you, Madam chair, I appreciate the courtesy and I 
appreciate Senator Tester's courtesy.
    Senator Capito. Senator Tester.
    Senator Tester. I will yield to Senator Shaheen.
    Senator Capito. Yes, Senator Shaheen.

                           DRUG INTERDICTION

    Senator Shaheen. Well, thank you very much Madam chair. 
Thank you, Senator Tester.
    Secretary McAleenan, thank you for taking on what is a very 
difficult job at this challenging time in our country's 
history. And Mr. Fulghum we very much appreciate your service 
to the country as well.
    I think you are aware Secretary McAleenan, that New 
Hampshire like West Virginia, has been very hard hit by the 
opioid epidemic. We continue to have one of the highest 
overdose death rates in the country, particularly from 
fentanyl, where we, I think, have the unfortunate distinction 
of having the highest overdose death rate from fentanyl related 
drugs.
    Can you talk about what is being done in this budget to 
address the interdiction of drugs? It is my understanding that 
most of those drugs come in through the southern border, not at 
land routes but through ports of entry. Can you talk about what 
is in this budget that would help address interdiction of drugs 
at ports of entry?
    Mr. McAleenan. Thank you, Senator, and absolutely. The 
Department of Homeland Security asked that CBP, ICE and 
Homeland Security Investigations (HSI) investigators remain 
very focused on the opioid crisis and on interdicting and 
investigating and prosecuting those who would smuggle drugs 
that affect our communities and very significantly in both of 
your, the chairwoman's state and in New Hampshire.
    As you noted, there are two main vectors for synthetic 
opioids, fentanyl is the most deadly coming into the country. 
It comes through mail and express consignment in insignificant 
proportion, and we do have key investments that we have applied 
from this committee that I will explain, as well as through the 
southern border. Both at ports of entry and increasingly 
between ports of entry, but ports of entry provide most of our 
seizures, as you noted.
    The investments in fiscal year 2019 that give us the 
technology we need to transform our processes on the southern 
border are going to make a huge impact. We are going to be able 
to go from 2 percent of personally owned vehicles where most of 
these drugs are hidden, to 40 percent being scanned by 
technology. And with our targeting, intelligence, and risk 
assessment, that is going to be a huge game changer for us.
    In the cargo environment, we are going from 16 to 17 
percent, to 70 percent by 2021, of vehicles being scanned. That 
is going to enhance our security posture and highlight the need 
for additional special agents at HSI to help investigate and 
prosecute those cases.
    In the mail environment, not only are we getting data now 
from China and other key sources of origin of synthetic 
opioids, but we are using that to target shipments, make 
seizures, and then follow that through with HSI and with the 
U.S. Postal Inspection Service to take out pill presses and 
those who are distributing drugs in the United States.
    We have had a tremendous amount of success last year; 5,000 
pounds of fentanyl seized by CBP and ICE combined, and we are 
going to continue to focus on this area.
    The investments in 2020 will continue to help balance out 
our nonintrusive inspection fleet, including our northern 
border efforts and our mail and express consignment capability. 
And I will say that the border security investments for the 
wall system, for additional agents, and for surveillance 
technology, will help us with hard narcotics as well. We are 
seeing that in increasing percentages at the border. Thank you.

                     SEPARATION OF MIGRANT CHILDREN

    Senator Shaheen. Great, well thank you and hopefully we can 
continue to make sure those resources are available in this 
next budget cycle.
    I have been disturbed, as I know many of my constituents 
and people across this country have been, by the separation of 
migrant children from their parents. There is a January report 
from the Office of the Inspector General (OIG) at DHS that 
found that the total number of children separated from their 
parents by DHS is unknown and may be in the order of thousands 
more than originally determined.
    A Federal judge ruled last week that the Government now has 
6 months to identify the other children that are separated from 
their parents at the border. Can you talk about--update us on 
this and what the department is doing to identify those 
children and reunite them with their parents or family members?
    Mr. McAleenan. Thank you Senator, so what I can explain is 
what we are doing now, and how that looked before the zero-
tolerance initiative last year.
    What we are doing now is we see almost 1,600 families per 
day crossing the border in March. We have fewer than two 
children who that are separated from a parent or guardian. 
Those are cases where it is for the welfare of the child: a 
communicable disease issue, a parent who has to be rushed to 
the emergency room, a criminal history that presents a risk to 
that child, or a specific indication of abuse or an unsafe 
situation.
    Senator Shaheen. I do not want to interrupt you, but what I 
am trying to get to is what has been identified by the OIG, 
which is, how many children do we know who have been separated 
and we do not know where they are, or where their parents are. 
Do we have any kind of a number around how many of those 
children there are, because that I understand, is what has not 
been clear?
    Mr. McAleenan. Sure. I described our current practice, 
which is governed by an executive order and a court order, 
because it is consistent with what we were doing up until May 
of 2018 as well, for that six-week period of zero-tolerance.
    So, really, I do not know the basis for the HHS Inspector 
General (IG) suggestion that there are thousands of children 
who could have been separated and unidentified. Again, this was 
an extraordinarily rare circumstance before zero-tolerance; it 
is an extraordinarily rare circumstance now.
    And we have accounted for all parents and children 
separated during zero-tolerance when their parents were 
prosecuted. So, we provided that information; it has been 
reported transparently to the Missile Court by Health and Human 
Services and Department of Justice (DOJ).
    Senator Shaheen. Well then, why would the judge have ruled 
that the Government has six months to identify the other 
children?
    Mr. McAleenan. Because he has expanded the time parameters 
of the analysis for HHS. So, they have to go back before the 
start of that case and look at additional separations.
    Again, my belief and strong understanding is that those 
will be tracked in a smaller number than suggested by the HHS 
IG and specifically for those kind of circumstances where there 
is a risk to the safety of the child that I outlined.
    Senator Shaheen. I am out of time, but just to be clear, 
what I hear you telling me is that the department has reunited 
all the children that you are aware of that were separated with 
a family member or with their parents. And that right now we 
have no other children that you are aware of that have been 
separated?
    Mr. McAleenan. Not precisely, Senator. I refer to the 
filings in the Missile Court that very clearly express the 
numbers and their status that have been reunited.
    What is happening again, on a day-to-day basis, is there 
will be separations from a parent or guardian for the safety of 
the child, and those children will not necessarily be reunited.
    Senator Shaheen. I am not asking you about that though. I 
am asking you about previous separations and how many children 
are in the system that we are aware of that have been 
separated, and we do not know what their current status is. And 
I understand you to say that you do not know?
    Mr. McAleenan. No, I am saying it is a very small number as 
provided to the court in the Missile Court filings, and they 
will be updating it as you noted, as per the judge's 
requirements.
    Senator Shaheen. And what was the number in the court 
filings?
    Mr. McAleenan. It is around a dozen who are still remaining 
to identify a parent. There are several who are not going to be 
reunited at the parent's selection or because of a risk 
presented to the child. This is all expressed in the data 
submitted to the court. And I commend the committee to read 
that.
    Senator Shaheen. Thank you. Madam--Mr. Chairman.
    Senator Hoeven [presiding]. Senator Tester.
    Senator Tester. Thank you Mr. Chairman. Although I will 
tell you I think the previous chairman was much better looking 
than you.
    [Laughter.]
    Senator Hoeven. I would tend to agree with you on that.

                       FUNDING: HUMANITARIAN AID

    Senator Tester. Absolutely. I thought you might.
    Look, Mr. Secretary, I appreciate you being here once 
again, both of you. On March 28 your predecessor Secretary 
Nielsen sent Congress a letter requesting immediate assistance 
from Congress. There were no details provided on specifics.
    Yesterday we were sent a supplemental $4.5 billion you 
talked about in your opening statement, and $1.1 billion for 
DHS with an additional--with that request is an additional $400 
million within that $1.1 billion for humanitarian activities. 
This is on top of $414 million that Congress provided just two 
and a half months ago for humanitarian support.
    So, can you tell me how that $414 million that was provided 
two and a half months ago, has been spent?
    Mr. McAleenan. More than $225 million have been spent by 
CBP on humanitarian missions so far this fiscal year. A lot of 
that is increasing right now as they have established some 
soft-sided processing facilities in El Paso and Donna and will 
grow as they apply additional funding to the medical contract 
to extend professional medical care to additional stations and 
sectors along the border. And, of course, a lot of it is food 
and care and processing, so that is spent on a monthly basis as 
additional families and children come through the system.
    Senator Tester. So quick math, that leaves about $180 
million of that on top of this. So, you need $580 million to 
get to the end of the fiscal year at current rates?
    Mr. McAleenan. It is identified for spending, but, yes, we 
are still in the middle of the fiscal year so that will be 
spent as we continue on.
    Senator Tester. How does this impact the budget for 2020, 
because we are increasing it pretty significantly?
    Mr. McAleenan. Right. Sure. So, the budget for 2020, again, 
was submitted while we were still addressing the rising 
conditions and requirements of the border for family and 
humanitarian care. So, it is a little bit in between in terms 
of the timing. What the supplemental does is kind of 
rationalizes the 2019 and 2020 budgets and current needs.
    Senator Tester. I got it, but the number that came from you 
from the President's office on humanitarian aid, does that 
number need to be increased?
    Mr. McAleenan. Yes, but by the amount in the supplemental.
    Senator Tester. Okay, but not more than that for 2020?
    Mr. McAleenan. Correct.
    Senator Tester. Okay. The department has received $242 
million of a total of a $601 million anticipated from the 
Treasury Forfeiture Fund for wall construction. It took $242 
million from the Forfeiture Fund for wall construction. This is 
part of the President's end run around the legislative process, 
it did not get to what he wanted in a bipartisan conference 
committee.
    I would argue that these dollars first, should be the first 
dollars out when used, particularly when you are asking for a 
supplemental, the first dollars out for humanitarian crisis. If 
you want to respond to that you can, but I just think it is 
kind of crazy that there is a significant sum of money there 
that could be utilized for that right now with just a transfer 
authority.
    Mr. McAleenan. Thank you, Senator. I would just offer that 
we are trying to apply all available sources of funding to both 
the border security and the humanitarian crisis that we are 
facing.

                    BORDER SECURITY IMPROVEMENT PLAN

    Senator Tester. So, during fiscal year 2018 DHS 
appropriations included a requirement that DHS submit a risk-
based plan for improving border security. It mandated the plan 
address several elements, including detailed implementation, 
schedule with estimates for planning future obligations and 
identification of plan location, quantities and types of 
resources, such as fencing and technology, a description of the 
methodology analysis used for select resources for deployment, 
to include analysis of alternatives, staffing requirements, 
performance metrics.
    And I am concerned about the extent to which DHS's 2018 
plan fails to address these elements. It does not include 
alternative analysis comparing technology to physical barriers, 
including costs and performance trade-offs. It does not include 
the information on the effects of infrastructure deployment on 
communities and property owners. And by the way you would well 
know, I was on the border, I met with some of those property 
owners. I have incredible concerns; I would be going crazy if 
this happened on my farm. And there are no details on 
environmental impacts of border barriers as required by the 
legislation.
    First, I would hope you would commit to completing those 
requirements. Is that a possibility?
    Mr. McAleenan. That is absolutely something we want to work 
with the committee and your team on. We have improved the 
report from 2017 to 2018; we will improve it from 2018 to 2019. 
And I can go through some of the elements that you raised and 
how we are addressing them.
    Senator Tester. Let's just get to the one that is the most 
important one, because this is where most of the money is going 
to be going. Technology has come a long way over the last 
decade. I met with tech companies that have sat in my office 
and believes they can do a much better job than a physical 
barrier with technology. And the technology can be changed by 
the way, as per how the threat changes to our border, at a much 
cheaper, and I am talking much cheaper, you have the numbers, 
you know. It is literally pennies on the dollar. And I believe 
that a comprehensive and independent study of that needs to be 
completed before we spend $25 billion on a physical barrier.
    I have just got to tell you that I have been in a lot of 
cases, I was on a school board once when people were doing 
stuff that just did not seem right and I was talking, and 
nobody would listen. And guess what, a few years later they 
found out that I was right.
    I am not saying I am absolutely right here, but if we do 
not do the study, we do not know. So, can I get any sort of 
commitment that we will get this study done before we start 
dropping billions of dollars on a wall, that is a wall, that is 
a wall, that is a wall. As the former governor of Montana once 
said, build a 30-foot wall, they will buy a 35-foot ladder.
    Mr. McAleenan. Thank you, Senator. I can assure you, that 
first of all, we are listening. I as well as the leadership of 
CBP, am listing to you and your concerns, and we will be 
responding throughout the process.
    There has been significant analysis of alternatives that 
are embedded in the requirements that are submitted in the 
Border Security Improvement Plan. I think, we are not asking 
for a wall in all areas of the border. In many areas, the 
technology you outlined, and really, we appreciate this 
committee's support for innovative technology development, 
which would allow us to extend our surveillance capability at 
cheaper prices than anticipated with greater effect over the 
developments the last several years.
    We are asking for the wall itself in areas not just so that 
we can identify traffic, but so that we can stop it, and 
control it, and get our agents to the interdiction point. It 
comes from the experts on the ground.
    Senator Tester. I have got it. I am way, way over time, but 
I will tell you this, when we talk about drugs, I told you this 
yesterday, when we talk about drugs, I can see it. I can see 
it. There is probably a benefit as long as we have the 
technology at the ports.
    When we are talking immigration, I think we are creating 
problems here that we're going to regret. And I do not envy 
those farmers, land that is worth $65-$75,000 an acre, 
incredibly high value river bottom land; they are going to lose 
their land. And my guess is we are not going to pay them $65-
$75,000 bucks. I do not see how we get it through Congress to 
do that. And so, they are just going to be SOL.
    So, and it does not solve the problem. Let's talk about 
removing forage from riverbanks; let's talk about putting 
technology up to give your guys, your folks on the border, a 
chance to be able to interdict these folks. And so that they 
know when they come across the border, they are not going to 
have $1.1 million acres to be able to set foot on and claim 
asylum, or whatever else they want to claim.
    I will be back, but thank you.
    Mr. McAleenan. Thank you.

                        BORDER WALL CONSTRUCTION

    Senator Hoeven. First, Secretary McAleenan I want to thank 
you for your work as--well throughout DHS, your career in DHS 
and for leading customs and border protection, appreciate the 
work you have done.
    I chaired this subcommittee, Congress before last, got a 
chance to work with you and have seen your work over a long 
period of time and appreciate it, you are a professional. And 
of course, now you have a tough task, but I have great 
confidence in you and how dedicated you are, your 
professionalism, and career and experience you have had. And 
so, I know that you are doing everything you can to lead DHS 
and address the challenges that we face. So, thank you for that 
and appreciate the work you do.
    Take me for a minute through where we are in terms of 
constructing a wall, both in terms of what has been 
constructed, what we can anticipate will be constructed and 
what time frame, and how you are ensuring that there is 
transparency and accountability as we do it.
    Mr. McAleenan. Thank you, Senator. We are making great 
progress. The fiscal year 2017 funding, $330 million or so, 
supported 40 miles of replacement wall that is essentially 
constructed. Less than 2 years after it was received for a 
project of this kind, that is very quick.
    Senator Hoeven. 2017 money, 40 miles; that is essentially 
done.
    Mr. McAleenan. Yes, that is in the ground, built providing 
capability for our agents, in the sectors.
    The fiscal year 2018 funding, that is under construction 
right now. We have multiple projects underway, in the Rio 
Grande Valley in El Paso. And we are going to continue to 
expand, over the course of this year, with additional starts. 
This is all being done very carefully.
    Senator Hoeven. My understanding is about 75 miles have 
been contracted for or bid, and you have 12 or so left to bid. 
Is that right, for the 2018 money?
    Mr. McAleenan. That is right on target. Yes, Senator.
    Senator Hoeven. That would encompass all of the 2018 money?
    Mr. McAleenan. Yes. And again, this is done with the 
contracting process through the Army Corps of Engineers. It is 
a competitive bidding process. We are getting outstanding 
construction companies that are responding, delivering on time, 
and at budget. So, we are having very good results from this 
procurement approach and process.
    In fiscal year 2019, we are aggressively putting those 
projects into the planning, design, and advertising and 
contracting phase. We are expecting to start several of those 
this calendar year, which is very quick, from receiving the 
money to starting the project. We are looking at the 9 to 11-
month timeframe from appropriations to project start, which I 
think is very impressive. It is being done very professionally 
by the wall team at CBP as well as in concert with the Army 
Corps of Engineers.
    Senator Hoeven. I would ask that you make sure that you 
direct the Corps, who is your agent in this construction 
project, that they be as transparent and accountable as they 
can. And make it as clear to my office and others as to exactly 
what has been done, the status of the bids, and the status of 
the bidding process going forward as open and transparent as 
possible. Would you commit to do that?
    Mr. McAleenan. I would absolutely commit to that. General 
Semonite and his team at the Corps have been tremendous 
partners for us. I would meet with them regularly, and we are 
absolutely doing this in a transparent manner. We will continue 
to report to the committee on it.

                            BORDER CROSSING

    Senator Hoeven. Yes, and I have had the same conversation 
with General Semonite as well.
    If you would, take me through your recommendations in 
simplest form, as to how we address the current flow of 
undocumented aliens coming across the border and make sure that 
we can adjudicate them and handle them in a proper way. So that 
we have control, so that we get control of our border.
    In simplest form, what are the basic recommendations of the 
things that we need to do, things you have to have, to get the 
job done?
    Mr. McAleenan. I guess first and foremost, Senator, is 
addressing the situation with family units crossing the border; 
57,000 crossed as families last month. They are crossing as 
families, bringing children because they know that we are only 
allowed to hold them for 20 days in immigration detention, 21 
days, and that is not long enough to complete an immigration 
hearing with due process.
    So very simply, we would like to go back to the 
understanding that the approach we applied during the Obama 
administration to hold families in appropriate settings, family 
residential centers, during an expeditious and fair immigration 
proceeding. And we need a statutory change to affect that 
because of a court order that came in late 2015 and changed 
this dynamic at the border. That is for the families.
    For the unaccompanied children, we want to eliminate the 
double standard. This double standard means that children from 
Mexico and Canada can be repatriated, but not children arriving 
from farther away. That means that young children are being put 
in the hands of smugglers coming all the way to our border with 
the promise that they will be allowed to stay, even if they do 
not have an immigration claim or a valid asylum claim.
    We need to change that dynamic and work with the 
governments in Central America to be able to repatriate 
children as well.
    And lastly, we need to tighten the asylum process so that 
the results of the credible fear standard at the front end of 
the process, and the actual asylum hearing that an immigration 
judge conducts, are more aligned. To have 85 percent passing 
the credible fear bar and only 10 percent getting asylum at the 
end of the process shows that there is a huge gap. And when it 
takes 2 years or more to complete, that means that people are 
here building lives and really staying without lawful status in 
a way that does not promote the integrity of the system.
    Those are the three simple changes that we are working on 
that we would like to work with this Congress on.

                     ASYLUM LAW, TIME AND DETENTION

    Senator Hoeven. Yes, and you and I toured some of those 
facilities a number of years back. How long a time, two 
questions; what can you do on the front end to better discern 
somebody who has credible fear and needs asylum; what can you 
do now on the front end.
    And second, how long a period, how many days do you need to 
be able to detain family units in order to fully adjudicate 
them?
    Mr. McAleenan. So, two things there. We are working to 
ensure that our asylum officers and that all of the entities, 
our immigration officers involved in the process, are applying 
the asylum law effectively. That is through good training, 
through a good understanding of the conditions in the countries 
where people are coming from, and, of course, through applying 
Attorney General rulings effectively. So, all of that is going 
into place right now.
    In terms of the time and detention, very important. We are 
not looking for some indefinite period of detention. No one 
wants to detain families with children for a long period of 
time. In 2015, the average period was about 45 days for 
completing an immigration proceeding for a family unit with 
appropriate due process and access to counsel.
    That is what we would like to go back to, not having a hard 
end point on the detention but doing it as quickly as we can in 
a fair and expeditious manner.
    Senator Hoeven. Thank you Secretary McAleenan, appreciate 
it.
    Chairman back to you.
    Senator Capito [presiding]. Yes, back to me. Senator 
Baldwin, before you begin questions, my intentions are to have 
Senator Baldwin question and then we will recess until 11:20. I 
know it is inconvenient, but I know there are some other folks 
who want to come. Thank you.

                             DETENTION BEDS

    Senator Baldwin. Thank you Madam chair. I want to begin by 
saying how disappointed I am that once again the Department of 
Homeland Security's budget request includes the President's 
call for $5 billion for a border wall. A border wall that 
Congress has repeatedly rejected, as there are many smarter and 
more cost-effective ways to secure our border and reduce the 
flow of illicit drugs into our country. And I believe that DHS 
should be focused on those using taxpayer dollars wisely and 
smarter in securing our southern border and other ports of 
entry.
    Mr. Secretary, the fiscal year 2020 budget request, 
requests $2.7 billion for detention, an increase to support 
54,000 beds. You have testified that an influx of migrants at 
the border drives your request for additional beds, but I am 
also concerned that a driving factor in your request is that 
the Trump administration's decision, misguided in my opinion, 
to eliminate enforcement priorities, has the impact of focusing 
those limited resources on a broader array of people rather 
than more narrowly on those who commit serious crimes or pose 
real threats to our nation.
    In fiscal year 2018 and 2019, Congress provided funding for 
an average daily detention population well below the level 
requested by the administration. But time and time again DHS 
has ignored the limitation set in the appropriations bills and 
has overspent on detention, included by reprogramming funds for 
the Coast Guard and disaster relief and elsewhere.
    Mr. Secretary, will you commit to following the direction 
and intent of Congress and limiting detention beds within the 
bounds that we set without reprogramming funds that we have 
allocated for disaster relief, border security, and other key 
Department of Homeland Security functions?
    Mr. McAleenan. I will commit to working with this committee 
and continually updating you on our operational requirements.
    For ICE detention beds, again, I testified earlier that 
this is driven largely by recent border entrants. You 
mentioned, Senator, a policy change and whether that was 
helping to fill beds from the interior. It has not made a 
significant impact; 9 out of 10 people coming into ICE custody 
from the interior have a criminal record. That is very 
consistent with the levels before.
    What we have eliminated is a date stamp on somebody's 
ability to have the immigration laws enforced against them. So 
that people who are apprehended who crossed before 2014, or who 
had a final order issued before 2014, are still eligible for 
immigration enforcement. We think that is an appropriate step.

                       ALTERNATIVES TO DETENTION

    Senator Baldwin. As you work with this subcommittee, I 
would also appreciate further detail on the range of criminal 
offenses that you describe in that. I mean, in some cases being 
here undocumented has been considered the underlying offense. 
And so, I want to make sure that we are clear about what we are 
talking about.
    In contrast to the $2.7 billion requested for detention 
beds, the Department of Homeland Security budget seeks $209.9 
million for alternatives to detention that place low risk 
individuals under various forms of intensive supervision in the 
community, as opposed to physical detention.
    Data from ICE and other sources has shown that these 
programs are effective in ensuring compliance with immigration 
requirements while being substantially less expensive than 
detention. In the fiscal year 2019 omnibus Congress provided 
$275 million, a 46 percent funding increase for these programs.
    Mr. Secretary given the pressures you have described on the 
detention system, and the significantly increased investment 
Congress made in fiscal year 2019, why does your budget ask for 
so little, comparatively speaking, for alternatives to 
detention compared to detention beds, and does it not make more 
sense to pursue less costly and proven approaches with regard 
to lower risk individuals?
    Mr. McAleenan. I would just note Senator that our central 
problem right now in creating a system with integrity is the 
ability to actually effectuate orders of removal from an 
immigration judge. That is only done successfully when people 
are in detention by and large.
    Looking at our alternatives to detention to absconder (ATD) 
rates, we are looking at 25 to 30 percent of those on ATD 
absconding and not showing up for their hearings in 2018 and 
2019, year to date. It is an important part of the overall 
system to try to make sure that people attend their hearings 
and follow through on their lawful obligations in the process, 
but it is not as effective as holding people in custody through 
the end of their proceeding. And, frankly, the answers for 
those who do have valid asylum claims take much, much longer on 
a non-detained docket.
    So, I think both of those suggest that detaining people 
through the end of their proceedings is a more effective 
approach.

                 IMMIGRATION POLICY'S EFFECT OF FARMERS

    Senator Baldwin. Well, I look forward to receiving from you 
some of the background documents that you have offered and 
discussed, in backing up those budget requests.
    Two quick additional matters. Speak for a moment on dairy 
farming. And you may first say what does that have to do with 
my role of Secretary of the Department of Homeland Security. My 
home State of Wisconsin has been known as America's Dairyland. 
We have lost 1300 dairy farms, in excess of that, in the last 
couple of years. It is an industry in crisis in no small part 
because of the President's trade war, and the limited access 
that our dairy farmers currently have to critical export 
markets in Mexico. Ninety percent of the milk produced in 
Wisconsin goes into cheese; 25 percent of the exports of cheese 
from the United States are to Mexico.
    The strain that is being felt by dairy farmers is being 
compounded by immigration policy, too. Immigrant labor is 
critical to dairy farming, but these workers and their 
employers face increasing fear and uncertainty as the 
administration ramps up their anti-immigrant rhetoric. And the 
threats to close the border; they may be rhetoric, but they 
cause real, real harm.
    So, I want to ask you Mr. Secretary, do you understand the 
negative impacts that this administration and your department's 
rhetoric policies and actions are having on American 
agricultural generally. And if you have not already, please, 
speak with farmers about the harm that is occurring. And also, 
I urge you to speak with Secretary Perdue, if you have not 
already, about the harm that the President's immigration policy 
is causing to farmers.
    Have you done so yet?
    Mr. McAleenan. Yes, I have been involved in a number of 
meetings with the President and his Trade Cabinet, including 
Secretary Purdue, Ambassador Lighthizer, and Secretary Ross. 
All are very committed to protecting and supporting American 
farmers.
    Senator Baldwin. Well, 15 percent of the farms, dairy farms 
in Wisconsin have gone in the last 2 years; 15 percent of our 
dairy industry is gone. So, protecting prospectively is hugely 
urgent, but we have already seen a lot of harm.
    I have one last question with your indulgence, Madam chair.
    Senator Capito. It is a 10-minute vote.

                             CYBERSECURITY

    Senator Baldwin. Okay. According to the testimony from GAO 
before the house this week, DHS recommended 17 things to the 
attention of the Census Bureau to help address vulnerabilities 
in advance of the 2020 census. Some of these recommendations 
would make it easier for DHS to perform its domestic cyber 
defense mission. Unfortunately, the Bureau has only implemented 
three of the recommendations and lacks a formal process for 
tracking and completing these recommendations.
    I will take the answer for the record, in follow-up to this 
hearing, but what are you doing, or what are you able to do, to 
ensure that the Census Bureau is implementing and completing 
your recommendations in order to avoid sensitive American 
citizen data being compromised and/or exploited?
    [The information follows:]

    The Cybersecurity and Infrastructure Security Agency's (CISA) is 
intently engaged with, and committed to, assisting the U.S. Department 
of Commerce (DOC) and the Census Bureau effectively manage their 
cybersecurity risks associated with the upcoming 2020 Census.
    Communications and technical support between CISA and the Census 
Bureau occur regularly at various levels within the organizations.
    First, CISA participates in monthly meetings with the Census Bureau 
and the Government Accountability Office (GAO) regarding the Census 
Bureau's cybersecurity risks. In fact, CISA participated in the latest 
meeting on Tuesday, May 7, 2019. During these meetings, GAO has 
itemized Census Bureau's responses to CISA's recommendations and the 
full group discusses and reviews.
    Second, CISA is closely aligned with and participates in bi-weekly 
meetings with the Census Bureau's Chief Information Officer. These 
meetings focus on cybersecurity risk management issues and solutions in 
a more detailed nature.
    Third, CISA's technical teams meet regularly and coordinate closely 
with their counterparts at the Census Bureau. The Office of Management 
and Budget regularly participates in these meetings, as well. These 
technical engagements result in a continued collaboration of 
information to ensure the Census Bureau is implementing CISA's 
recommendations and advice.

    Senator Capito. Take the answer. Thank you, because there 
is two minutes remaining in the vote at this point. Since 
Senator Tester just arrived, I hate to do this to him, but I am 
going to recess for about 10 minutes while we finish this and 
do the next vote. Thank you.
    [Recessed.]
    Senator Capito. We will resume session. I thank you for the 
break. I understand you are under a bit of a time commitment so 
we will go right to Senator Lankford for questions. We do have 
some other Senators that will be joining us.

                      CHILD TRAFFICKING/SMUGGLING

    Senator Lankford. Thank you very much. Gentlemen thank you 
very much for what you are doing.
    Can I just run through a couple of questions here, back and 
forth? One is just on this issue about I am hearing of children 
being recycled across the border, coming across with multiple 
different adults at different time periods. Is that true; is 
that happening? Can you give me any details on that?
    Mr. McAleenan. Thank you, Senator. It is true; it is 
happening. We have had multiple cases, one out of Chicago and 
one out of Charleston on that issue. On Monday, we announced a 
dedicated effort with Homeland Security investigators deploying 
to both El Paso and Rio Grande Valley where most of our 
families are crossing.
    We are really focused on this issue. We have forensic 
interviewers. We are bringing rapid DNA capability in a pilot 
format to try to make sure that we are identifying those who do 
not have a parent or guardian relationship, and that we are 
able to see if a child has crossed twice with a different 
adult. That is the worst concern that we have: trafficking or 
child smuggling being involved in this process.
    We are also trying to identify those families that are 
presenting as a parent or guardian but are not actually, the 
parent or guardian, and the fraud issue that is intrinsic 
there.

           BORDER FENCING: RELIGIOUS FREEDOM RESTORATION ACT

    Senator Lankford. Some of the construction of some of the 
fencing at this point has raised my attention only on the issue 
of some of the waivers that are around us, especially around 
the Religious Freedom Restoration Act. That was put in place 
and stated it cannot be waived unless specifically waived in 
statute. There has been some conversation about whether it is 
being waived or not being waived, whether Religious Freedom 
Restoration Act is being waived for new construction, but it is 
not being explicitly, but it is refers to a previous waiver 
that was never really taken away from 2007 and 2008.
    What I am trying to get is clarity on, is there an attempt 
by DHS to try to waive the Religious Freedom Restoration Act in 
the construction of new fencing, or any construction?
    Mr. McAleenan. I will get back to you on that, Senator. Our 
waiver authority is carefully thought out; individual segments 
are prepared for each additional waiver at the secretary or 
acting secretary level.
    It has been upheld multiple times at multiple levels in the 
Federal courts, but I will take a look at that and get back to 
you on that.

                   BORDER SECURITY: DIVERSION TACTIC

    Senator Lankford. Thank you. I just do not see a need to 
try to do for new construction a waiver of the Religious 
Freedom Restoration Act. Why that would even need to be done to 
be able to take that on. I am trying to get additional 
clarification. I would like to be able to come through that.
    There has also been some dialogue to say when there is a 
large growth that comes through the border, let's say 100, 
obviously agents have to be able to move to that. There has 
been some dialogue to say there is a belief, or maybe an 
understanding, or may be factual evidence.
    I would like to get clarity on this, that when a large 
group comes through it demands a response from DHS authorities 
there, that cartels are then using that moment 5-10 miles away 
knowing that there is no one in that region because they all 
had to respond to a large group of families coming through, to 
be able to then try to be able to move either people, 
contraband, whatever it may be across the border.
    Are you seeing that?
    Mr. McAleenan. Yes, we are absolutely saying that there are 
numbers of documented incidences. We call the tactic that is 
employed ``diversion''.
    And just on the large group phenomenon, we had a group of 
424 earlier this week, which is the largest that we have ever 
seen. But what they do, the cartels control that whole access 
to the border. They will allow a large group to go through 
knowing that our agents in that area will have to respond, 
especially, if there is a humanitarian issue with small 
children. We had a news crew down two weeks ago. They saw a 
pregnant woman being aided by agents on the radio, and people 
calling out, ``we have runners; we have runners.'' The agents 
could not leave because she was complaining that she was 
thirsty and needed help.
    We had a news crew actually witness diversion in process. 
It is a tactic that the cartels use. It is a difficult one for 
us; it is why we are asking for support on both the border 
security and the humanitarian side.

                      ASYLUM, CREDIBLE FEAR CLAIMS

    Senator Lankford. Have you seen change in percentages or in 
technique of people asking for asylum or claiming credible 
fear? Has that changed in the past several months?
    Mr. McAleenan. It has changed in the past 7 years. Before 
2013, fewer than 1 percent of people apprehended by CBP made an 
asylum claim or claimed fear of return to their home country. 
That got as high as 30 percent last year. It is actually coming 
down because families believe they will be released regardless 
of the claim they make, because we are not able to hold them 
through their immigration proceedings.
    Senator Lankford. So, families are coming across the border 
being processed at that point and then being released. They are 
not even asking for asylum?
    Mr. McAleenan. In some cases, that is correct, and many 
still are asking for asylum.
    Senator Lankford. So, when you say the 30 percent number, 
what I am trying to figure out is if that 30 percent are asking 
for asylum even, or are you saying that 70 percent are not? 
Give me a guess here.
    Mr. McAleenan. That is correct. Yes, and again, that is for 
the CBP data. I am most familiar with that, you know, three 
weeks working on the rest of the department.
    So, an asylum claim can be made not just necessarily to CBP 
at the front end when they are apprehended at the border, and 
that number has gone from less than 1 percent to 30 percent 
last year, but also to ICE later in the process in detention, 
or to CIS, or on an affirmative basis to an immigration judge.
    So, what we need to look at is the entire volume of people 
requesting asylum. How many are actually claiming fear at the 
front end and then filing for asylum, which they have a year to 
do? That number is a big gap as well. So, I think to understand 
how this vulnerability in the system is being exploited, you 
have to look at that whole system.

                 BORDER CROSSINGS: NUMBER OF COUNTRIES

    Senator Lankford. And of the past couple of months, how 
many countries are crossing our border that you are 
apprehending?
    Mr. McAleenan. Every year, we have upwards of 125 
countries, more than 125 countries.
    Senator Lankford. Has that increased lately or has that 
stayed fairly static?
    Mr. McAleenan. It has increased over the past decade, for 
sure. We do have a phenomenon of people coming from the eastern 
hemisphere all the way landing in South America and making the 
land journey up to our border, again, claiming fear of return 
to their home country.
    Senator Lankford. Okay, thank you.
    Senator Capito. Thank you.
    Senator Hyde-Smith.

            LIGHT ENFORCEMENT HELICOPTERS: RECAPITALIZATION

    Senator Hyde-Smith. Thank you Madam Chairman very much. And 
Acting Secretary McAleenan first of all, I want to congratulate 
you on your new position and for your many years of service, 
and I look forward to the rest of your testimony.
    I greatly appreciate the leadership, the agility, the 
professionalism, and the resourcefulness of the Department of 
Homeland Security and all of its components, in particular, the 
Coast Guard and FEMA.
    Since February, more than half of the counties in 
Mississippi have been affected by tornadoes and severe flooding 
issues. And we certainly appreciate the President approving a 
major disaster declaration and look forward to continuing to 
work with FEMA to provide assistance to the Mississippians who 
have been affected by these disasters.
    I am a true fan of the Coast Guard, as we say, they punch 
well above their weight class. And despite limited resources 
and the broadening scope of responsibility, the Coast Guard is 
certainly dutiful in executing its diverse and challenging 
missions and demonstrating its dual functionality as both the 
military service and the law enforcement authority that is so 
important.
    The Coast Guard is out there of course, protecting our 
Nation's coast, ports, and waterways by; intercepting illegal 
immigrants, and disrupting drug trafficking before it reaches 
our coast. And as part of the DHS comprehensive security 
strategy, the Coast Guard's offensive capabilities establish a 
maritime border miles away from our shores.
    For example, as they continue to extend our Nation's 
physical borders, their national security cutters have been the 
most effective national security assets in protecting the 
Nation's coast and waterways from terrorism, human trafficking, 
drug smuggling and other maritime threats.
    These ships also proved to be superior command-and-control 
platforms during the response to Hurricane Maria in San Juan, 
and during the evacuation of the Joint Interagency Task Force 
South personnel in Key West for Hurricane Irma.
    As a result, in the fiscal year 2019 Consolidated 
Appropriations Act, Congress identified the need to 
recapitalize the fleet of 12 high endurance cutters, with the 
12 national security cutters, but the funding for the 12th 
national security cutter has not been provided yet.
    Coast Guard Cutter James recently seized 9 tons of cocaine 
and detained over 40 drug smugglers. Despite the success of the 
James and other NSCs, and that the Coast Guard seizes more 
drugs than all other Federal agencies combined, the Coast Guard 
is still only able to target a fraction of known smuggling in 
the SOUTHCOM theater.
    My home State of Mississippi has a long and storied 
shipbuilding tradition of which we are very proud, and I am 
particularly gratified that the Coast Guard recognizes our 
state's shipbuilding excellence and the strong work ethic that 
is well-established on the Mississippi Gulf Coast.
    Mississippians take pride in their contributions to the 
Department of Homeland Security missions and our national 
security interest. We are proud of the shipyards there, and one 
is constructing the new polar security cutter to aid in the 
security in the Arctic theater. And I look forward to ensuring 
that we provide these ships and other equipment that are.
    I think I still have a little time left.
    As the former Commissioner of Customs and Border 
Protection, you are well aware of the vital role CBP's Light 
Enforcement Helicopters have played supporting the department's 
overall border security mission. The LEH platform is truly the 
workhorse in the CBP fleet.
    Significant funding was included in fiscal year 2018 
appropriations to recapitalize CBP's Light Enforcement 
Helicopters fleet. A unique contract vehicle was utilized to 
purchase replacement aircraft, but the department is not moving 
forward with the recapitalizing the rest of the fleet, as would 
be most efficient.
    It is my understanding the holdup is due to a review 
process. Considering the added capability these aircraft would 
provide the CBP, when do you expect the department and CBP will 
proceed with the recapitalization of the LEH fleet?
    Mr. McAleenan. Thank you, Senator, first of all for 
acknowledging the critical roles of FEMA and the U.S. Coast 
Guard in our homeland security. For me, it is a sincere 
privilege having worked alongside those agencies for almost two 
decades to have the chance to support them in their resource 
needs in the new role.
    I also agree strongly with your comments on the importance 
of the national security cutter in the counter narcotics 
mission in the source and transit zone. At CBP, our marine 
patrol aircraft, the referrals that they made, if we did not 
have a cutter on the water a lot of that would not be 
interdicted. So, I could not agree more on their critical role 
in stopping cocaine headed toward our borders.
    In terms of the Light Enforcement Helicopter, I also agree 
strongly with your comments on how important their surveillance 
at the border is, and in supporting our border patrol agents on 
the ground, and in interdicting unlawful activity.
    I will get back to you with the timeframe of that review 
and that process of recapitalization of that critical aspect of 
our aviation surveillance capability. I appreciate very much 
your personal support and the committee's support for that.
    Senator Hyde-Smith. Thank you very much and that is just 
fine.
    Senator Capito. Thank you.
    Senator Murkowski.

                        U.S. COAST GUARD CUTTERS

    Senator Murkowski. Thank you Madam Chairman. Gentlemen 
thank you for being here to brief the committee and thank you 
for your leadership and your contributions.
    I am reminded we come into an Appropriations Committee 
here, Homeland Security, the breadth, the scope of what you are 
challenged to address on a daily basis. And so much discussion, 
so much focus, rightly so, on the southern border and what we 
need to do from a humanitarian perspective, from a drug 
enforcement perspective. It is just so considerable and 
frankly, it is oftentimes all-consuming.
    Those of us from the North are daily reminded that we have 
borders to the north as well. My colleague from Montana there 
is on one end, but I am in a part of the country where we look 
at an exposure on our northern fence, that fence that we use to 
have that was providing a close perimeter. You could pretty 
much see somebody coming and going if they were coming across 
the ice. Well, that has changed, and that northern fence has 
moved out and we are not as protected as we once were.
    So, the efforts to keep an eye on what is happening in the 
North, in the Arctic, is considerable and important. I 
appreciate my colleague referencing the polar security cutter. 
I thank the chairman and the ranking member for their dogged 
commitment to ensuring that the polar security cutter, the 
first polar class icebreaker that this Nation has built in over 
40 decades, is underway if you will, with a delivery hopefully, 
in 2024.
    So, recognizing the role that you all play in making sure 
that you have got eyes on all the time in the South, in the 
North, is critically important.
    I have a couple of questions with regards to not only the 
polar security cutter but also other assets that we have worked 
to put on the books for recapitalization. With the funding bill 
that we have in front of us we are looking at the fiscal year 
2020 budget requesting $35 million for long lead time materials 
for a second polar security cutter. So, with the first, $655 
million to fully fund the first polar security cutter, $20 
million for the long lead times for the second, that was what 
we just did in February.
    So now, we have got a situation where we are working to 
build out that commitment. And it was a good phone call to 
receive from the Commandant to hear him say the commitment here 
is this first polar security cutter designed through delivery 
with funding to help advance the second.
    We are now looking at the second here, but how does the 
department, or I guess, what does the department need to 
expedite the construction of the remaining fleet of the two 
heavy and three medium polar security cutters that we know are 
required based on that survey?
    And I am going to apologize to the chairman and the ranking 
because I feel like I am a little bit greedy here. We have 
worked so hard to get the one, but one polar security cutter is 
not a fleet. We know that the Polar Star is only going to be 
able to keep doing the breakout there in McMurdo for another 
couple of years, and we are going to be exposed once again.
    So, I am going to be aggressive; I am going to keep 
pushing; I am going to be helpful in every way that I possibly 
can to make sure that we are continuing this as a priority so 
that we can get the cost down in building these out.
    What more do you need?
    Mr. McAleenan. Thank you Senator. I look forward in this 
acting role, and I have already talked to my staff about taking 
a trip to Alaska to see the unique homeland security challenges 
that you face there.
    Senator Murkowski. We welcome you anytime.
    Mr. McAleenan. And, really, I was struck probably four or 5 
years ago, walking into the Commandant's office of the U.S. 
Coast Guard and seeing a big globe-shaped wall hanging. Of 
course, it was from looking down at the Arctic. That is how 
long the leadership of the Coast Guard has been focused on that 
aspect of our Homeland Security mission and border.
    I have talked, obviously, to Commandant Schultz about the 
polar security cutter, and how pleased we are that that program 
is advancing. I did ask him if the funding in 2020 is going to 
be enough to maintain the momentum. He says it is for the long 
lead items. We are committed to the program going forward, and 
it is absolutely a critical part of our Coast Guard fleet 
planning.
    So, we look forward to working with the committee going 
forward in the future on that.

                        SHORESIDE INFRASTRUCTURE

    Senator Murkowski. I appreciate that. Very quickly, here, 
we have again on the recapitalization side, as you know, we are 
seeing new assets coming to Alaska with the OPCs and the FRCs. 
We welcome them, but we also know that it is more than just 
getting the vessel, more than just getting the ship, it is the 
shoreside infrastructure.
    So, recognizing that these cutters are bigger than the ones 
they replaced, they are manned by larger crews, they are going 
to require upgrades to docks and housing and port facilities. I 
was just in Kodiak this weekend with Vice Admiral Fagan looking 
at the facilities there and what we need to do shoreside with 
the fuel dock, with housing, with the docks themselves.
    What I would like to know is what the plan is to ensure 
that we have adequate funding in place to build out the 
shoreside infrastructure that we are going to need to help 
support these new cutters that will be replacing the older 
ships.
    Mr. McAleenan. I understand that our plan does include the 
shoreside investments that we need. It is something that, 
frankly, with the chair and ranking member, the staff, I think 
we are getting better at for our capital investments: that 
entire logistics tail, that integrative support package, 
staffing, and facilities.
    Same thing on the CBP side with some of our Border Patrol 
facilities when we are hiring new agents, and the entire 
support staff. I do think that that is in the plan for the 
additional vessels, though, for the Coast Guard and the 
deployments to Alaska.

                       MILITARY FAMILIES: SUPPORT

    Senator Murkowski. Well, know that it is not just Alaska, 
it is systemwide, making sure that everything is in sync. And 
as I think about the infrastructure and just my ask to you 
there whether, again, it is the fuel dock that is needed, the 
longer piers, the housing, but it is also what we do to provide 
the support for the families.
    Time and time again I hear we do not have adequate support 
for child care facilities on any of our Coast Guard 
installations. And when you have small coastal towns that 
support our Coast Guard like we do, you have limited ability 
outside of the base there.
    So, these are things that I think we all look to; I know 
that we provided some additional support for those subsidies 
for child care. That was greatly, greatly welcomed. So, you 
just remind us again of the very important role that we have to 
help our Coast Guard men and women and their families. It is 
greatly appreciated. We never should have allowed them to be 
subject to that 35 day pause in their compensation. That was 
wrong for them.
    Thank you, Madam Chairman.
    Mr. McAleenan. Can I respond briefly Madam Chair?
    Senator Capito. Yes.
    Mr. McAleenan. I really appreciate you raising that, 
Senator. I was honored yesterday to join the Second Lady of the 
United States at an event for Coast Guard spouses, and discuss 
how important that family resilience is in helping spouses seek 
employment as they move to new stations.
    As CBP Commissioner, that resilience, that support to our 
families, especially when they work in remote locations, 
includes childcare, suicide prevention, and veterans' 
assistance. We really need to be strong in all these areas of 
the department. One of the things that I want to look at 
departmentwide is where the best practice is. How can we raise 
our game to a higher common denominator, and, especially for 
our military families, take very good care of them?
    Senator Murkowski. Well I thank you for that and I 
appreciate you raising the issue of employment for the military 
spouses. I have been asked to figure out how we can work to 
ensure that our military spouses, including our Coast Guard 
spouses, are not discriminated against when they go into these 
small communities and they are looking for employment, and as 
soon as the employer finds out that they are a Coast Guard 
spouse, there is lots of different reasons that they seem to 
find to not be able to hire them.
    So, we are there to help our veterans with hiring 
preferences and I think that this is something that we need to 
look to.
    Thank you, Madam chairman. I apologize for going over.

                       CYBERSERCURITY: ELECTIONS

    Senator Capito. No, that is fine. I did want to note that 
in the fiscal year 2019 budget we included $51 million for 
shoreside infrastructure in Alaska. So, heeding your wishes.
    I know you are leaving here shortly, and we appreciate your 
indulgence and your patience.
    I wanted to ask about the 2020 elections. We have come a 
long way with understanding, our vulnerabilities and closing 
the gaps in our election security. But I think that certainly 
we as members of the Senate, but also the general voting 
public, would like to find out from you how you are going to 
ensure the integrity of the 2020 elections from your 
department's viewpoint. Is this a top priority for you all in 
the Department of Homeland Security?
    Mr. McAleenan. It absolutely is a top priority. I think I 
am up to five different briefings and engagements with Chris 
Krebs, our Director of the Cybersecurity and Infrastructure 
Security Agency (CISA) as well as engaging, already in my 
second week, with some outside cyber experts to get some 
feedback from industry, banking, and state and local 
government, on how we are doing and on what areas we need to 
improve as a Department of Homeland Security. And it is very 
good to hear that we are on the right track. 2018, we were able 
to partner with 47 states and a number of key jurisdictions 
around the country. In 2020, our goal is to get all 50 states, 
all of the key jurisdictions, to provide that capacity 
building, guidance, and advice as they seek to secure all the 
different systems that they are working with and to perform 
penetration testing, a really active partnership across 
multiple jurisdictions.
    I have tremendous faith in Director Krebs and his team that 
they are laser focused on this. They are working across the 
interagency within the Federal Government and with our state 
and local partners to do this as effectively as we can. We are 
aware of the threat, and we intend to be positioned to prevent 
it.
    Senator Capito. Well, I encourage you to come back to us, 
if in fact more resources are needed, or you find something 
that you had not expected to find that may be useful in 
preventing some kind of intervention into our elections.
    Mr. McAleenan. That $23 million in the budget request 
specifically earmarked for this issue is very important to us.
    Senator Capito. Great.
    Senator Tester.
    Senator Tester. Thanks again Madam Chair.
    So last year, fiscal year 2019 there was $564 million put 
in for election security. Can you give me an idea on if any of 
that is left?
    Okay. Okay, so in this budget you and said there is how 
many dollars for election security?
    Mr. McAleenan. Twenty-three million, the first time it has 
been specifically called out since the prior CISA budget.
    Senator Tester. Okay, and the question here is because the 
Attorney General I believe, said that we need to work on 
hardening election infrastructure. The last two fiscal years 
Congress dedicated $30 million. Is that adequate for the threat 
that is out there? And I think the Mueller Report pointed out 
that the threat is pretty serious.
    Mr. McAleenan. Agree. And the Director of National 
Intelligence has highlighted this threat as well, and it has 
certainly been a key feature in my first three weeks in this 
role.
    So, from talking with the assistive leadership team, they 
do believe that the funding request in 2020 is adequate and is 
going to allow us to take the that steps we need for election 
security.

                    LAW ENFORCEMENT OFFICER PROGRAM

    Senator Tester. Okay, I am going to talk real briefly about 
LEO. I thank the chairman's flexibility on this. The LEO 
Program, Administer Murkowski said it was a very valuable 
program for TSA and for airports. I think it fills in some gaps 
that are out there that will be there if it goes away. I think 
the budget eliminates this program. Is that really smart as far 
as--and you can answer this Chip, we have not heard from you 
yet, at least I have not heard from you yet. Yes? But the truth 
is, is that really smart if we are going to really deal with 
security? I mean, remember 9/11.
    Mr. Fulghum. Yes, so I will tell you the rationale behind 
it is simply looking for more state and local help when it 
comes to that part of the law enforcement mission. And, to be 
frank with you, we made a tough choice there. Clearly there is 
a benefit; the VIPR (Visible Intermodal Prevention and 
Response) teams, which is what I believe you are referring to?
    Senator Tester. Yes. So, what you are saying, or what you 
just said, and do not let me put words in your mouth, is that 
it will now if we are going to have that support, it has got to 
be paid for by local law enforcement.
    Mr. Fulghum. So, we would look for more of that type of 
arrangement, yes sir.

                   NON-INTRUSIVE INSPECTION EQUIPMENT

    Senator Tester. So the problem is, is that I had local law 
enforcement come to my office yesterday, as a matter fact, and 
say, you know what we do not have enough money to do the job we 
have got now because there are other funds in the granting 
programs that are being cut; and want me to reinstate those. We 
are not going to get them all reinstated, is the problem.
    I would ask that you to take another look at this. I know 
it is a tough choice, but you know, air travel is so critical 
to our economic future.
    Real quick, and I think this is going to be my last one. 
Narcotics come through the ports, there are some that comes 
between the ports, but the vast majority comes through the 
ports. We are at about scans' 2 percent of passenger cars and 
we need to be much higher than that. I think commercial 
vehicles are a little higher than that.
    That means, the numbers reverse too, 98 percent of the cars 
coming through are coming through, and I just hope that 
somebody is smart enough to see it, and smell it, or hear it, 
or get an idea.
    I think we need to get to 100 percent scanning. I think it 
is important how much funding will be required to get there and 
what kind of a timeframe it is. And as Senator Murkowski 
pointed out, do not just forget about the southern border, 
because once we get the southern border bolted down the 
northern border is going to be next.
    So, what is it going to take to get 100 percent scanning at 
our ports?
    Mr. McAleenan. Thank you for the question, Senator. And, 
just to be clear, the investments requested in 2020 for 
continued recapitalization of all non-intrusive inspection 
equipment, many of those are dedicated to northern border ports 
of entry as well as seaports for the ongoing recapitalization.
    In terms of the investment in fiscal year 2019, there is a 
tremendous investment in security at ports of entry where we do 
have the most seizures of narcotics in our southern border. We 
are going to go from 2 percent of personally owned vehicles, 
which is really the highest threat vector. We see small 
shipments of polydrug loads, in really deep concealment.
    This technology is going to help us dramatically because we 
can keep the driver/passengers in the vehicle, but still get a 
very high-resolution image. We are going to go to 40 percent by 
2021. So that will include all of our risk-based assessments, 
our intelligence, our targeting, our officer intuition, and 
canines.
    Senator Tester. Is it possible to get there quicker if you 
had the resources?
    Mr. McAleenan. These are long lead items in terms of the 
purchasing and manufacturing of these devices.
    Senator Tester. But 40 is the best we can do, even if we 
just said here is the check you write it; you get the 
equipment?
    Mr. McAleenan. I believe so. We have multiple capable 
vendors, we have a very good procurement and deployment plan, 
and we have the individual issues at each port of entry 
infrastructure-wise on how we put this equipment in. But I 
think Todd Owen, leading our field ops team, is going to have a 
very robust plan to do that.
    Senator Tester. And just, as the last question, I promise, 
Madam chair, fiscal year 2019 funds were appropriated for 
outboard scanning for firearms, for money, for ammunition. Can 
you provide any sort of update on what has transpired since 
those dollars have been out?
    Mr. McAleenan. I will get you an update on that Senator. I 
do not have that as I sit here, but you are absolutely right 
this is a two-way threat. It is money and ammunition and 
firearms going southbound that is helping to fuel the 
transnational criminal organizations that are threatening 
Mexican citizens and bringing the scourge of drugs to our 
border.
    Senator Tester. You have got a tough job. I think it 
becomes easier if it becomes less politicized, but 
unfortunately, we are not there.
    Thank you.
    Senator Capito. Let me ask a clarifying comment on what 
Senator Tester was asking about on the drug issue. On the 
nonintrusive inspection, can you give those figures for the 
cargo? How many can you screen and what is your goal; what do 
you think you can get to in 2021?
    Mr. McAleenan. Yes, on the cargo trucks, where again we 
have a robust participation in our trusted trader program, 
about 50 percent of the cargo by value is in that program. We 
are scanning 16 to 17 percent of trucks. We are going to get 
that to 70 percent with the investments provided in the fiscal 
year 2019 budget by 2021.
    These are levels with our targeting, with our assessment up 
front, with our officers, with our canine, which you also 
invested in to help with our academy and to expand our canine 
teams. We are going to be in very good posture for interdicting 
hard narcotics at ports of entry.
    Senator Capito. Well that is good news. That is good news.
    Well this concludes today's hearing. Acting Secretary 
McAleenan we thank you for appearing before our subcommittee 
today.
    Mr. Fulghum, good luck. I am glad you spoke up there with 
Senator Tester. We certainly appreciate your service and wish 
you all the best.

                     ADDITIONAL COMMITTEE QUESTIONS

    The hearing record will remain open for two weeks from 
today. Senators may submit written questions for the record, we 
ask that the department respond to them within a reasonable 
amount of time.
          Questions Submitted by Senator Shelley Moore Capito
    Question.The budget request once again assumes a number of 
provisions that are not authorized or are otherwise not executable. 
This leaves significant holes--totaling more than $1 billion dollars--
in the Department's fiscal year 2020 budget request. Examples include 
$599 million dollars in TSA revenue from a passenger fee increase that 
has not been authorized; a restructuring of FEMA grants that has not 
been authorized; and under-funding Coast Guard ships in a way that may 
not be executable under existing contracts.
    If the authorizers fail to act by the time we mark up, will you 
provide us with suggestions about which programs should be cut to fill 
the holes your budget has created?
    Answer. The fiscal year 2020 President's Budget for the Department 
of Homeland Security (DHS) balances multiple competing priorities to 
provide the optimal mix of limited resources to secure the homeland 
from all threats and hazards. The provisions the Budget contains are 
critical pieces of the resource allocation process. DHS remains 
committed to working with the appropriators to develop a budget that 
best enables mission success.
    Question. What concrete steps are you taking to ensure the 
authorizers enact the legislation you have suggested?
    Answer. DHS responds to Congressional requests for technical 
drafting assistance and provides legislative language for 
Administration priorities. While lawmakers determine what proposals are 
taken up in Congress, DHS engages with Congressional leadership on 
legislative matters.
    In Calendar Year 2019, the DHS Office of Legislative Affairs has 
thus far transmitted legislative proposals to Congressional leadership 
and to appropriate Committees, including:

  --Federal Emergency Management Agency (FEMA): Preparedness Grants 
        Cost Share

  --FEMA: National Priorities Security Grant Program

  --FEMA: National Flood Insurance Program Affordability Proposal

  --Transportation Security Administration (TSA): Passenger Security 
        Fee

  --TSA: Exit Lane Staffing

  --U.S. Citizenship and Immigration Services: Immigration Services 
        Surcharge

  --U.S. Coast Guard: Oil Spill Liability Trust Fund Excise Tax

  --U.S. Customs and Border Protection (CBP): Electronic System for 
        Travel Authorization

  --CBP: Immigration Inspection User Fee

  --CBP: Customs User Fees

  --CBP: Electronic Visa Update System

  --U.S. Immigration and Customs Enforcement: Unlawful Employment of 
        Aliens Penalty Surcharge

  --Cybersecurity and Infrastructure Security Agency: Administrative 
        Subpoena Proposal

  --DHS Headquarters (HQ): Post-Katrina Emergency Management Reform Act 
        of 2006--repeal of sec. 692 & 695

  --DHS HQ: Corrections to title 14, United States Code

  --DHS HQ: Enhanced Hiring Act

    Question. Do you worry that using this practice year after year 
actually diminishes the Department's ability to influence final 
appropriations outcomes?
    Answer. The Department believes that the provisions contained in 
the fiscal year 2020 President's Budget for DHS should be strongly 
considered by Congress, which is why I continue to include them in our 
request.
    Question. In a February 28th Office of Inspector General report on 
election infrastructure, ``staff shortages'' and ``state and local 
officials historic mistrust of Federal government assistance restrict 
the Department's efforts to provide the services and assessments needed 
to secure the election infrastructure.''
    Do you concur with the Inspector General's findings?
    Answer. The Department concurred with all five recommendations and 
is working with OIG to close Recommendations 1-4 and has submitted a 
proposal to close Recommendation 5. The full report includes our 
response letter in Appendix B: https://www.oig.dhs.gov/sites/default/
files/assets/2019-03/OIG-19-24-Feb19.pdf.
    Question. Can you please identify any staff or resource shortages 
that are hindering the Department's efforts to coordinate the overall 
Federal effort to secure the Nation's election infrastructure?
    Answer. Throughout the 2018 election cycle and as we work to 
protect 2020, the security of our election infrastructure is a top 
priority and DHS continues to build and refine processes across the 
Homeland Security Enterprise, as we take a risk-based approach in 
addressing threats to the Homeland. In addition to the core team 
dedicated to coordinating Federal Government efforts, that support 
election officials with securing election infrastructure, there are 
hundreds of employees working on election security across the Nation on 
any given day. This includes our field-based staff, our technical 
experts who assess election infrastructure for vulnerabilities, and our 
incident responders. The Cybersecurity and Infrastructure Security 
Agency's (CISA) field personnel are critical to building relationships 
and awareness within the election community regarding the support and 
services CISA offers. Additionally, we are able to leverage other DHS 
field personnel, including those of the Office of Intelligence and 
Analysis, to augment CISA's support to election officials, including 
through the provision of intelligence and use of secure communications 
for classified information.
    CISA is resourced to reach state and local officials around the 
country and assist them with managing risk. We are achieving this 
objective in the near term with the resources already appropriated by 
Congress and would continue to do so with those identified within the 
President's fiscal year 2020 Budget. In 2018, DHS was able to meet all 
requests from election stakeholders for support and services prior to 
the 2018 general election. Moving forward, thanks to the additional 
funding provided by Congress, CISA will establish additional teams to 
support election officials, including risk and vulnerability 
assessments, and hunt and incident responses. In addition, based on 
feedback from the election community, CISA was able to develop a 
scalable, remote penetration testing service that is now available for 
all critical infrastructure partners.
    CISA personnel have been asked to prioritize engagements with the 
election subsector. CISA takes a risk-based approach to prioritizing 
and engaging state, local, tribal, and territorial governments and 
critical infrastructure owners and operators. While there are other 
priorities, election security remains a top tier effort of CISA and the 
Administration. For election infrastructure specifically, field staff 
were asked to maintain a cadence of meetings with their election 
stakeholders on a quarterly basis, or as necessary, and to maintain 
awareness of events, assessments, analysis, and engagements pertinent 
to the area. The remainder of the field-staffs' work time has been 
allocated to meet other national and regional priorities of CISA.
    Question. What additional steps do we need to take to ensure that 
the 2020 election is secure?
    Answer. CISA continues to work with state and local election 
officials and private sector partners across the country to build on 
our efforts in 2018 and protect the 2020 election. This includes 
building on the work we have done through the Election Infrastructure 
Subsector Government Coordinating Council and Election Infrastructure 
Subsector Coordinating Council to understand the scope and nature of 
the risks to election. CISA's goals for 2020 include promoting 
auditability as a security practice; improving the efficiency and 
effectiveness of audits; incentivizing the patching of election 
systems; and working with states to develop current and target 
cybersecurity profiles using the NIST Cybersecurity Framework.
    CISA will also continue to engage any political committee that 
wants our help. DHS offers these committees the same tools and 
resources that we offer state and local election officials. This 
includes training, cyber hygiene support, information sharing, and 
other resources.
    Question. I recently spoke with a Transportation Security Officer 
at Yeager Airport in Charleston, West Virginia and he told me that his 
son is a Border Patrol Agent working in the Tucson Sector. I asked the 
officer how his son was doing and he told me that his son is frustrated 
because he signed up to be a law enforcement officer, but he spends 
most of his time taking care of children.
    Can you quantify how much time Border Patrol Agents are spending 
dealing with the processing of, and care of migrants, rather than 
actually being on the front lines patrolling our borders?
    Answer. The total time Border Patrol agents spend processing, 
transporting and caring for those in United States Border Patrol (USBP) 
custody changes based on total cross border flow, total apprehensions 
and the demographics coming into our custody (Family Units, 
Unaccompanied Alien Children (UAC), Single Adults). In the busier 
locations, between 40%-60 percent of personnel are not able to perform 
border security duties due to the increase in responsibilities 
associated with humanitarian efforts.
    To demonstrate the total commitment of USBP personnel to the 
humanitarian crisis, we need to examine the totality of the situation.
    To demonstrate the current dynamic, a test period of May 12-18, 
2019, during the height of the migration crisis, was selected for 
review and comparison.

                        Average Southwest Border (SWB) statistics between May 12-18, 2019
----------------------------------------------------------------------------------------------------------------
            Care of Migrants                  Per Day Average          % Increase over last fiscal year 2018
----------------------------------------------------------------------------------------------------------------
Apprehensions...........................                    4,078                                           211%
Family Unit persons.....................                    2,548                                            806
Single Adults...........................                    1,185                                             46
UAC.....................................                      345                                             58
Persons in custody......................         17,105 seven-day                                              -
----------------------------------------------------------------------------------------------------------------


                            Last Year Average SWB statistics between May 12-18, 2018
----------------------------------------------------------------------------------------------------------------
                         Care of Migrants                                         per day average
----------------------------------------------------------------------------------------------------------------
Apprehensions....................................................                                          1,308
Family Unit persons..............................................                                            281
Single Adult.....................................................                                            809
UAC..............................................................                                            218
Persons in custody...............................................                         not previously tracked
----------------------------------------------------------------------------------------------------------------


    The highest flow sectors for fiscal year 2019 are the Rio Grande 
Valley (RGV), El Paso (EPT), and Yuma (YUM) Sectors. Up until May 18, 
2019, these three sectors accounted for approximately 70 percent of all 
USBP SWB apprehensions. As such, when discussing border dynamics at the 
macro level, the focus is on those sectors with the highest risk and 
flow.
    CBP detailed additional law enforcement personnel (USBP agents from 
the northern border and CBP Officers from the Office of Field 
Operations) to assist with the humanitarian crisis to the following 
sectors:

  --RGV: percent of sector staffing levels detailed in to assist

  --EPT: 15 percent of sector staffing levels detailed in to assist

  --YUM: 16 percent of sector staffing levels detailed in to assist

Southwest Border Sector Staffing:

    Statistics/Data: The below statistics were manually verified by the 
Sectors, during the timeframe provided (May 12-18, 2019).

RGV Sector Averages:

  --55.79 percent hours performing enforcement duties

          --125 USBP out-of-sector detailees, and there is 3.52 percent 
        increase assigned to enforcement support added

  --32.85 percent hours performing humanitarian support efforts 
        (processing, hospital watch, transportation, meal preparation, 
        security, etc.)

  --11.36 percent hours performing non-enforcement duties

  --14 percent staffing increase from personnel detailed into the 
        sector

     *Adding the additional non-organic detailed personnel to the 
sector staffing totals, approximately 46 percent of the sector's total 
staffing hours were committed to the humanitarian mission.

EPT Sector Averages:

  --56.89 percent hours performing enforcement duties

  --43.11 percent hours performing humanitarian support efforts 
        (processing, hospital watch, transportation, meal preparation, 
        security, etc.)

  --Sector placed non-enforcement (training, admin duties, etc.) hours 
        under enforcement time

  --15 percent staffing increase from personnel detailed into the 
        sector

     *Adding the additional non-organic detailed personnel to the 
sector staffing totals, approximately 58 percent of the sector's total 
staffing hours were committed to the humanitarian mission.

YUM Sector Averages:

  --60.49 percent hours performing enforcement duties

  --39.51 percent hours performing humanitarian support efforts 
        (processing, hospital watch, transportation, meal preparation, 
        security, etc.)

  --Sector placed non-enforcement (training, admin duties, etc.) hours 
        under enforcement time

  --16 percent staffing increase from personnel detailed into the 
        sector

     *Adding the additional non-organic detailed personnel to the 
sector staffing totals, approximately 55 percent of the sector's total 
staffing hours were committed to the humanitarian mission.

Laredo (LRT) Sector Averages:

  --42 percent hours performing enforcement duties

  --33 percent hours performing humanitarian support efforts 
        (processing, hospital watch, transportation, meal preparation, 
        security, etc.)

  --25 percent hours performing non-enforcement duties

San Diego (SDC) Sector Averages:

  --76.22 percent hours performing enforcement duties

  --23.78 percent hours performing humanitarian support efforts 
        (processing, hospital watch, transportation, meal preparation, 
        security, etc.)

  --Sector placed non-enforcement (training, admin duties, etc.) hours 
        under enforcement time

Del Rio (DRT) Sector Averages:

  --56.20 percent hours performing enforcement duties

  --21.40 percent hours performing humanitarian support efforts 
        (processing, hospital watch, transportation, meal preparation, 
        security, etc.)

  --22.40 percent hours performing non-enforcement duties

Tucson (TCA) Sector Averages:

  --88.18 percent hours performing enforcement duties

  --11.82 percent hours performing humanitarian support efforts 
        (processing, hospital watch, transportation, meal preparation, 
        security, etc.)

  --Sector placed non-enforcement (training, admin duties, etc.) hours 
        under enforcement time

        --A portion of these support hours are dedicated to support EPT 
        via transport, processing, hospital watch, and support RGV 
        virtual processing

El Centro (ELC) Sector Averages:

  --82.84 percent hours performing enforcement duties

  --17.15 percent hours performing humanitarian support efforts 
        (processing, hospital watch, transportation, meal preparation, 
        security, etc.)

  --Sector placed non-enforcement (training, admin duties, etc.) hours 
        under enforcement time

Big Bend (BBT) Sector Averages:

  --96.63 percent hours performing enforcement duties

  --3.36 percent hours performing humanitarian support (processing, 
        hospital watch, transportation, meal preparation, security, 
        etc.)

    Question. How has this change impacted our security posture?
    Answer. As the detailed information above shows, a large percentage 
of USBP personnel are now required to perform duties outside of the 
primary border security function. In the busier locations, between 40%-
60 percent of personnel are not able to perform border security duties 
due to the increase in responsibilities associated with humanitarian 
efforts.
    Question. Is CBP having trouble retaining its workforce when law 
enforcement officers are changing diapers or warming up food, rather 
than preventing illegal entries or catching smugglers?
    Answer. There is no data showing an increase in agents retiring or 
resigning from the U.S. Border Patrol based on detainee care 
assignments.
    Question. I am very proud that this our Subcommittee worked in 
fiscal year 2019 to fund the United States' first new heavy polar 
icebreaker since the 1970s. We got good news last week when the Coast 
Guard in partnership with the Navy awarded a construction contract for 
this important new ship.
     With the contract now awarded, what is the timeline for building 
the first ship, and when the first vessel will actually come into 
service? The remaining design and construction for the first ship will 
take years, correct?
    Answer. The contract delivery of the first ship is scheduled for 
2024 with contract incentives for earlier delivery. At this time, the 
Coast Guard is targeting late 2024 for the first Polar Security Cutter 
(PSC) to enter service.
    Question. Do you anticipate that funding for construction of the 
second icebreaker will not be needed until fiscal year 2021 at the 
earliest?
    Answer. Funding in fiscal year 2021 will be needed to continue 
production of PSCs on schedule. To acquire PSCs as cost efficiently as 
possible, additional funding in fiscal year 2020 could take advantage 
of possible economic order quantity purchases for long lead-time 
material and reduce schedule risk for material with significant lead 
times.
    Question. How much do you anticipate each ship will cost?
    Answer. The total contract value for detail design and construction 
of three PSCs is approximately $1.94 billion.
    Question. How many more icebreakers will be needed?
    Answer. The Coast Guard has a need for six icebreakers (this 
includes the three PSCs included as options on the recently awarded 
contract).
    Question. The fiscal year 2019 appropriations bill we recently 
enacted provided more than $500 million dollars for non-intrusive 
inspection equipment needed to detect the movement of opioids, 
methamphetamines, and other substances moving illicitly through our 
ports of entry. Comparatively, the Budget request did not include 
substantial resources for more of this type of equipment.
    Can you tell us why this equipment, when placed in a pre-primary 
position, is considered a ``game changer'' for ports-of-entry?
    Answer. Transnational Criminal Organizations (TCOs) commonly 
exploit the southwest land ports of entry (POEs) to smuggle illicit 
goods into the United States, specifically in vehicles. Greater than 98 
percent of the nationwide total of Non-Intrusive Inspection (NII) 
seizures and total weight of narcotics seized occur by scanning 
approximately 1 percent of privately owned vehicles and 16 percent of 
commercially owned vehicles arriving at southwest land POEs. Pre-
primary scanning is a ``game changer'' because it will support an 
increased scanning rate to approximately 40 percent for privately owned 
vehicles (POVs), an increase of approximately 2,000 percent, and up to 
72 percent for commercial trucks, an increase of approximately 450 
percent. In addition, X-ray scanning for POV and commercial trucks is 
currently dependent upon good targeting information or the primary 
officer's discretion to send a vehicle to secondary for inspection. 
Scanning in pre-primary is independent of targeting and will provide an 
officer an additional decision aid on whether to physically inspect a 
vehicle.
    Question. Can you describe the year-by-year plan to put the recent 
investment in this technology to use in a smart, efficient way? Should 
we expect all of it to happen this year?
    Answer. U.S. Customs and Border Protection (CBP) will ensure it 
takes a sound and prudent approach to implement this capability at 
POEs. The approach, in its entirety, will occur over multiple years. 
The results of CBP's ongoing operational assessment and ability to 
advance through the Department of Homeland Security (DHS) Acquisition 
Management Framework, will largely drive implementation of this 
capability. CBP is conducting operational assessments of the technology 
this year. Below is a summary of CBP's implementation and rollout plan 
for NII technologies:

  --Operational Assessments--In fiscal year 2019 to early fiscal year 
        2020, CBP will complete operational assessments for POV and 
        commercial cargo pre-primary/primary drive-through scanning 
        operations,

  --Technology Procurements--In fiscal year 2020, CBP will utilize the 
        results of the operational assessments to inform the 
        operational and functional requirements within the request for 
        proposal, and make a contract award to procure the technology,

  --Technology Deployments--In fiscal year 2021, CBP will initiate 
        deployment of the technology. Technology deployment will begin 
        12-24 months after contract award.

    Question. When combined with funds provided in prior years, is the 
budget request amount for non-intrusive inspection equipment adequate 
to support deployment of the equipment in fiscal year 2020?
    Answer. CBP is proceeding with procurements in fiscal year 2020 and 
deployments of the technology to begin in late fiscal year 2020 and 
carry into fiscal year 2021.
    Question. We're aware of the historic number of migrant family 
units showing up at the southwest border. I think there is suspicion 
that some of these folks may be pretending to be a family unit to take 
advantage our immigration laws. Under the current situation, families 
are less likely to be detained, and when they are detained, it is only 
for a short period of time. This abuse of our system is a problem in 
and of itself, but this practice could also place innocent migrant 
children at risk for exploitation.
     Have you seen an increase in the number of fraudulent family units 
showing up at the border?
    Answer. CBP has observed an increase in fraudulent family units at 
the border. DHS defines ``family unit'' as a group of two or more 
aliens consisting of a minor or minors accompanied by his/her/their 
adult parent(s) or legal guardian(s). A ``fraudulent family unit'' is 
one that does not conform to the definition of a family unit as defined 
by DHS, but the aliens therein claim to be a family unit.
    Question. We've heard that you are starting to use DNA testing--in 
a pilot phase--to validate some of these relationships. Do you expect 
this technology to make an impact?
    Answer. U.S. Immigration and Customs Enforcement (ICE) Homeland 
Security Investigations (HSI) initiated Operation Double Helix, a pilot 
phase of Rapid DNA testing, in early May 2019. During the two-day 
pilot, ICE HSI, in conjunction with ICE Enforcement and Removal 
Operations and U.S. Customs and Border Protection, tested 84 claimed 
family units at U.S. Border Patrol (USBP) processing centers in El Paso 
and McAllen, Texas. The families units that participated in the testing 
were selected based upon various factors, such as observations of the 
purported family when encountered or interviewed, intelligence trends, 
documentary evidence (to include suspicious identity documents and 
birth certificates), and investigative or intelligence leads revealed 
during administrative processing. Of those 84, 16 family units were 
identified as fraudulent, and half of those were identified prior to 
testing, as the individuals recanted their claimed family unit status 
after becoming aware of the DNA testing.
    In July 2019, predicated upon the success of the initial pilot 
program effectuated in El Paso and McAllen, Texas, ICE HSI expanded its 
ability to conduct rapid DNA testing to additional locations along the 
southern border. Operation Double Helix is presently in effect at nine 
locations in San Diego, Calexico, Yuma, El Paso (two separate 
facilities in El Paso), Las Cruces, McAllen, Eagle Pass, and Donna, and 
will also be operational at one USBP processing center in Tucson in the 
near future.
    A great example of the impact of this technology is highlighted by 
the case of an older male subject who claimed to be the father of a 10-
month old child in his custody. When ICE HSI Special Agents informed 
him that they wanted him to participate in the Rapid DNA test pilot to 
verify this claim, the individual recanted his statement and told 
agents that the child was not his. This subject admitted that he 
purchased the child for approximately $84.00 from the birth mother to 
facilitate the subject's entry into the United States as a family unit. 
This example highlights how Rapid DNA technology may be utilized as an 
investigative tool and have a significant impact by protecting children 
from those attempting to exploit them and violate immigration laws.
    Question. What else is the Department doing to combat this threat?
    Answer. The agency trains CBP's officers and agents to use a 
subject's non-verbal behavior as a key part of the inspection process. 
When encountering migrants claiming to be a family unit, the officer or 
agent will rely on all available evidence to determine if the requisite 
familial relationship exists. Officers and agents also rely on 
interviewing techniques and behavioral observations to make this 
determination. If, by observing this behavior, officers or agents 
suspect fraud, they will then pursue a more thorough analysis and use 
the tools available to them to verify whether the claimed familial 
relationship is bona fide.
    Question. As migrants cross our borders and request asylum, Federal 
immigration law can require them to interact with Customs and Border 
Protection, Immigration and Customs Enforcement, and Citizenship and 
Immigration Services just within the Department of Homeland Security. 
Your partners at the Department of Justice and the Department of Health 
and Human Services also play an important role.
    Are there coordinating bodies outside or within your Department 
working to improve the government-wide immigration law enforcement 
cycle to eliminate choke points in the process and improve 
efficiencies? If so, what are these groups doing and what tangible 
outcomes have their engagements produced?
    Answer. The U.S. Department of Homeland Security (DHS) participates 
in several formal processes for coordinating inter-agency immigration 
matters, including the National Security Council's coordination and 
policy-decisionmaking process and the Interagency Planning Team with 
the U.S. Department of Defense. With respect to intra-agency 
coordination, DHS's Office of Strategy, Policy, and Plans uses the 
Immigration Policy Council as the Department's governance body for 
strategy, coordination, collaboration, and sharing information on 
immigration policy, administration, and operation.
    Question. We've seen news reports that the Administration is 
considering appointing an ``immigration czar''. Would you recommend 
creating such a position and what authorities would the ``czar'' need 
to have to be effective?
    Answer. DHS does not have a position on the creation of an 
``immigration czar'' or the authorities such a position would have. DHS 
defers such questions to the White House.
    Question. Are there resources that we can provide to improve 
coordination?
    Answer. DHS is currently experiencing an unprecedented and 
unsustainable situation at the Southwest Border. In fact, it is nothing 
short of a border security and humanitarian crisis. Each day, we see 
the cascading effects of mass migration both at and between our ports 
of entry (POEs). The vast majority are Central American families and 
unaccompanied alien children (UAC). In fiscal year 2019 to date, UACs 
and family units represent 66 percent of all Southwest Border 
encounters with inadmissible individuals and apprehensions. This influx 
of family units and UAC has led to DHS facilities operating at 
unprecedented and unsustainable capacity. Short-term holding facilities 
at POEs and Border Patrol stations were neither designed for the large 
volume of inadmissible persons and apprehensions nor the long-term 
custody of individuals awaiting transfer to ICE Enforcement and Removal 
Operations detention facilities or the Department of Health and Human 
Services. We consider 4,000 detainees to be a high number of migrants 
in custody, and consider 6,000 detainees to be at a crisis level. 
Currently, CBP has between 12,000 and 18,000 detainees in custody on 
any given day.
    Large groups of inadmissible aliens, sometimes numbering in the 
hundreds, arriving at POEs strain our processes and divert our officers 
from their primary law enforcement and security missions, as those 
aliens need to be processed in a humane and efficient manner. The 
crisis has strained ICE detention capacity as well as the resources of 
other DHS Components. As such, allocation of much-needed funds to 
counter this crisis at the Southwest Border will improve coordination 
among DHS Components.
    Question. The supplemental request we received yesterday includes 
migrant transportation funding for both CBP and ICE. Transportation is 
a specific area where we hear there could be improved coordination 
among agencies. In some instances, CBP provides transportation and in 
other circumstances, ICE provides transportation.
    Are transportation challenges resulting in migrants spending longer 
periods of time in CBP custody?
    Answer. U.S. Immigration and Customs Enforcement (ICE) Enforcement 
and Removal Operations' (ERO) resources have been overburdened by the 
record number of U.S. Customs and Border Protection (CBP) apprehensions 
at the Southwest Border (SWB). As of August 31, 2019, the U.S. Border 
Patrol (USBP), a component of CBP, apprehended more than 811,000 aliens 
at the SWB. Once aliens are apprehended, they typically are transferred 
to ICE custody. The influx at the SWB has placed significant strain on 
a wide range of ICE resources, including detention, transportation, 
medical, and enforcement. This strain is compounded by Congress' 
repeated failure to fund ICE detention and transportation requirements 
at the levels requested by ICE, despite the demonstrated need for such 
resources.
    Consequently, the transfer of aliens apprehended between ports of 
entry (POEs) from CBP to ICE custody is severely hampered, which has 
resulted in aliens spending longer periods of time in USBP custody. ICE 
ERO transports aliens in its custody domestically for purposes of 
detention, release, and transfer to other agencies, in accordance with 
existing laws and policies. Transportation may be from the SWB to the 
interior of the country, between interior areas of responsibility, or 
between agencies. However, the unprecedented number of migrants 
apprehended by CBP, which are typically transferred to ICE custody, has 
overwhelmed ICE's detention capacity and ICE has been forced to release 
migrants into the interior of the United States. As of September 21, 
2019, there were 51,600 aliens in ICE detention and several thousand 
more single adults in CBP custody awaiting processing or transfer to 
ICE custody. Without additional funding for single adult detention beds 
and transportation from CBP to ICE detention facilities, ICE will not 
be able to accommodate the large number of CBP apprehensions following 
their transit across the SWB.
    CBP is also responsible for inspections at POEs. If an arriving 
alien is inadmissible and requires referral for additional proceedings, 
CBP's Office of Field Operations (OFO) refers the alien to ICE ERO for 
custody. The available space at ICE ERO facilities for single adults 
and family units and at the U.S. Department of Health and Human 
Services (HHS) Office of Refugee Resettlement (ORR) contracted shelter 
facilities for unaccompanied alien children experience significant 
challenges directly affecting the time in custody for inadmissible 
applicants for admission at CBP POEs. Because of limited facilities of 
both ICE ERO and HHS ORR, CBP has assisted with transportation of 
inadmissible applicants for admission. CBP is assigned inspection and 
short-term custody under 6 U.S.C. 211.
    Current trends in migration have necessitated increased 
transportation support by OFO at land POEs along the SWB. OFO does not 
currently have a comprehensive inadmissible alien transportation 
solution. At SWB POE, OFO currently utilizes a combination of USBP 
Transportation Contract and on-duty CBP officers to conduct transports. 
At most POEs, CBP officers conduct transportation of inadmissible 
aliens to ICE ERO facilities. A preliminary analysis revealed that OFO 
expended approximately $24.65 million in transporting inadmissible 
applicants for admission in fiscal year 2018.
    Question. For example, when it comes to transportation of 
detainees, at what point does CBP's responsibility end and ICE's 
responsibility begin?
    Answer. Under the Immigration and Nationality Act, both CBP and ICE 
have authority to transport detainees. From an operational perspective 
however, both CBP and ICE also have resource and capacity limitations 
that affect how detainees are transported, with variations occurring 
across the border. In accordance with existing laws and policies, once 
custody of aliens is transferred to ICE, ICE is responsible for 
assuming the associated transportation costs. ICE ERO transports aliens 
domestically for purposes of detention, release, and transfer to 
custody of other agencies.
    Question. Have you provided clear direction to CBP, ICE or others 
on which component should be transporting migrants at certain points in 
the detention cycle?
    Answer. Yes, in accordance with both Title 6 and Title 8 of the 
United States Code, CBP is responsible for inspection and short-term 
custody and care of inadmissible applicants for admission. CBP's 
transportation funding is used to transport migrants from the border to 
USBP stations, between stations, and for transportation needs once in 
CBP custody--such as medical care. Normal practice is once CBP's 
initial intake and processing has been completed, ICE has the 
responsibility to transport detainees from CBP facilities, however, in 
crisis situations all viable transports mean may be utilized and both 
components coordinate transportation efforts to ensure all operational 
requirements are addressed.
    Question. During former Secretary Nielsen's March 18th ``State of 
Homeland Security'' address, she described our country as ``under 
siege'' and noted a resurgence of activity from ``nation-state 
rivals.'' I zeroed in on her comments that ``in our hyper-connected 
world, if we prepare individually, we will fail collectively.''
    Would you please articulate what improvements have been made to our 
critical infrastructure and national critical functions over the past 
year to mitigate against threats from nation states?
    Answer. CISA collaborates with public and private-sector partners 
to develop and implement multi-faceted, multi-level, and flexible 
security programs and resilience-enhancing strategies that accommodate 
the diversity of the sectors. CISA supports continued economic benefits 
from the use of critical assets by fostering information sharing and 
multi-sector coordination, guiding technology research and development, 
advocating for sector needs, and promoting a risk-informed management 
framework addressing prevention, protection, response, mitigation, and 
recovery. CISA--under the direction of Secretary Nielsen--redesignated 
the Office of Cyber and Infrastructure Analysis as the National Risk 
Management Center (NRMC) in July of 2018. The NRMC has led an effort to 
identify National Critical Functions, which is helping CISA and our 
stakeholders better understand cross-cutting dependencies that could 
potentially have cascading impact. This evolution in risk management, 
via a function approach, aims to better appreciate risk management 
blind spots that may be lost in a static, asset and organization-
centric model. The NRMC works across CISA; the Federal, state, local, 
tribal, and territorial (SLTT) governments; and industry to plan, 
analyze, and collaborate on a strategic path forward to reduce national 
risk.
    CISA issued Emergency Directive (ED) 19-01: Mitigate DNS 
Infrastructure Tampering in January 2019 to defend against a DNS 
infrastructure tampering campaign where attackers redirected and 
intercepted web and mail traffic by compromising user credentials, 
altering DNS records, and redirecting user traffic to the attacker's 
infrastructure. Through ED 19-01, CISA established standards for 
mitigating risks from undiscovered tampering and prevented illegitimate 
DNS activity from agency domains. This included an agency audit of DNS 
records, directed changing DNS account passwords, and mandating 
addition multi-factor authentication to DNS accounts.
    CISA issued Binding Operational Directives (BOD) 19-02: 
Vulnerability Remediation Requirements for Internet-Accessible Systems 
in April 2019 to mandate the rapid remediation of vulnerabilities that 
otherwise could allow malicious actors to compromise Federal networks 
through exploitable, externally-facing systems. It established updated 
requirements for Federal agencies to remediate critical and high 
vulnerabilities on Internet-facing systems within 15 (critical 
severity) and 30 (high severity) days. Since its issuance, CISA has 
overseen a substantial decrease in critical and high severity 
vulnerabilities and an improvement in how agencies identify and respond 
to vulnerabilities in a timely manner. The BOD successfully reduces the 
overall attack surface and reduces the risk of unauthorized access to 
Federal information systems. CISA vulnerability scanning is also 
available free of cost for all private industry and State, Local, 
Tribal, and Territorial (SLTT) government partners.
    The BOD and ED authority granted to DHS by Congress has had a great 
deal of success improving the cybersecurity risk postures of Federal 
agencies. For example, as a result of the release of BOD 15-01 and the 
succeeding BOD 19-02, CISA has seen the average time it takes Federal 
agencies to patch critical vulnerabilities decrease dramatically, from 
an average of 149 days down to 20. Additionally, as a result of the 
successful implementation of BOD 18-01 relating to Web and Email 
Security, the Federal sector is now the highest rated industry by the 
Online Trust Alliance (OTA), which recognizes leaders in Internet 
security, with 91 percent of audited Federal websites included in the 
OTA's Honor Roll. Overall, CISA's Directives (BODs and EDs) authority 
has resulted in significant improvements to the risk posture and 
cybersecurity of the Federal government, helping CISA to prioritize the 
most impactful threats to the Federal enterprise.
    Through the launching of the new CISA Insights product line, CISA 
provided implementation insights from cyber directives to our partners 
in private industry and SLTT governments, in furthering the protection 
of critical infrastructure and essential public services. CISA Insights 
promote the wider adoption of cybersecurity best practices and 
industry-tested standards with the goal of improving risk management 
practices at all levels of government and industry. CISA Insights take 
the Federal Government's lessons learned from thwarting particular 
cyber threats, as well as gains seen from the implementation of 
specific mitigation activities, and tailor that information for SLTT 
and private industry audiences looking to institute similar actions 
within their organizations. As the product line matures, CISA plans on 
widening the scope of CISA Insights to include all aspects of the work 
CISA provides for the American public as the Nation's risk manager.
    Question. How does the request enable additional mitigation against 
these threats?
    Answer. CISA's programs and activities ensure the timely sharing of 
information, analysis, and assessments by providing the decision 
support necessary to build resilience and mitigate risk from cyber and 
physical threats to infrastructure. CISA's approach is fundamentally 
one of partnerships and empowerment and is prioritized by our 
comprehensive understanding of the risk environment and the 
corresponding needs identified by our stakeholders. CISA seeks to 
advise organizations on how to better manage their risk and increase 
resilience using all available resources, whether provided by the 
Federal government, commercial vendors, or using their own 
capabilities.
    CISA mitigates these threats through continued sustainment and 
investment in Federal network protection, proactive cyber protection, 
and risk management operations capabilities.
    More specifically, the President's Budget includes investments that 
will mitigate these threats across these categories in the following 
manner:

                       FEDERAL NETWORK PROTECTION

    The fiscal year 2020 President's Budget includes $232.1 million in 
funding for Continuous Diagnostics and Mitigation (CDM), $405.2 million 
for the National Cybersecurity Protection System (NCPS), and $56.7 
million for Federal Network Resilience. These programs provide the 
technological foundation to secure and defend the Federal Government's 
information technology against advanced cyber threats.
    The President's Budget includes additional funding to support our 
responsibilities to improve the cybersecurity of high-value assets 
within the Federal Government. These efforts will ensure that agencies 
achieve a minimum cybersecurity baseline through assessments, technical 
assistance, and architectural and design support.
    The Budget also includes funding to begin development efforts to 
centralize the authoritative Domain Name System (DNS) resolution 
services for the Federal Government. This managed service will provide 
centralized DNS management for the Federal Government and a rich set of 
analytics that sit on top of traditional DNS services.

                       RISK MANAGEMENT OPERATIONS

    The Budget includes $62 million for CISA's risk management 
operations, as part of the National Risk Management Center (NRMC). The 
NRMC is a planning, analysis, and collaboration center working to 
identify and address the most significant risks to our Nation's 
critical infrastructure.

                       PROACTIVE CYBER PROTECTION

    The President's fiscal year 2020 Budget includes $248.3 million in 
funding to support CISA's broad range of information sharing and 
technical assistance capabilities to assist government and private 
sector entities across all 16 sectors of critical infrastructure.
    The Budget also includes $11 million to support the CyberSentry 
pilot. This voluntary pilot program is designed to detect malicious 
activity on participating private sector critical infrastructure 
networks, including networks supporting operational technology, such as 
industrial control systems. The pilot will utilize network sensors to 
baseline network activity and detect threats; collect threat data; 
increase the speed of information sharing; and produce effective, 
actionable information to the companies vulnerable to malicious 
attacks.
    Also, within the Budget is $24.1 million in additional funding for 
state and local government cybersecurity and infrastructure assistance 
prioritized for election security. These resources will 
institutionalize and mature CISA's election security risk-reduction 
efforts, allowing the Agency to continue providing vulnerability 
management services, such as cyber hygiene scans, as well as on-site or 
remote risk and vulnerability assessments; organizational cybersecurity 
assessments; proactive adversary hunt operations; and enhanced threat 
information sharing with state and local election officials.
    Question. Can you improve the way you communicate with the private 
sector and our State, Local, Tribal, and Territorial partners so that 
they are as receptive as possible to these improvements?
    Answer. CISA continues to identify ways to improve communication 
and information sharing with critical infrastructure stakeholders using 
new (e.g. targeted stakeholder engagement meetings) and existing 
channels (e.g., cross-sector councils and sector-specific councils) and 
platforms (e.g., Homeland Security Information Network) promoting best 
practices, products, tools, and training for critical infrastructure 
owners and operators.

                                 ______
                                 

   Questions Submitted by Senator Shelley Moore Capito on behalf of 
                        Senator Lamar Alexander
    Question. The last four presidents built the existing 654 miles of 
primary wall and fencing along the 1,954 mile U.S.-Mexico border. 
President Trump has received funding from Congress and used existing 
authorities to continue securing our border with new barriers. On May 
9, 2019, Acting Secretary of Defense Patrick Shanahan told the 
Appropriations Committee that the Federal government now has 
``contracts on sufficient funds to build about 256 miles of barrier.'' 
Acting Secretary Shanahan also stated that ``about 63 miles of new wall 
will come online in the next 6 months.''
    Could you provide information on the 654 miles of existing physical 
barrier broken down by fiscal year?
    How many miles were constructed in each fiscal year and where they 
are located?
    Answer. See tables below through December 31, 2018.

                    U.S. Border Patrol Vehicle Barrier Construction by Fiscal Year and Sector
----------------------------------------------------------------------------------------------------------------
                                                     San       El                                 Big
                       Year                         Diego    Centro    Yuma    Tucson  El Paso    Bend    Grand
                                                    (SDC)    (ELC)    (YUM)    (TCA)     (EPT)   (BBT)    Total
----------------------------------------------------------------------------------------------------------------
1997.............................................        2                                                     2
1999.............................................                                            3                 3
2000.............................................                                            2                 2
2003.............................................                                  <1                         <1
2004.............................................                 4        2                                   6
2006.............................................                 5                33        7                45
2007.............................................                <1                38        9                47
2008.............................................       <1        7       42       61       61               171
2009.............................................                          2        9       13       <1       24
2010.............................................                         <1                                  <1
    GRAND TOTAL..................................                                                            300
----------------------------------------------------------------------------------------------------------------
*NOTE: 20 additional miles of vehicle barrier were constructed in 2008 (total 61.2), however, this was replaced
  in 2018 with pedestrian barrier. As of December 31, 2018, there was only 280 miles of vehicle barrier
  remaining on the Southwest border.



                                        U.S. Border Patrol Primary Barrier Construction by Fiscal Year and Sector
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                       Rio
                                            San Diego  El Centro     Yuma      Tucson    El Paso    Big Bend   Del Rio     Laredo     Grande     Grand
                   Year                       (SDC)      (ELC)      (YUM)      (TCA)      (EPT)      (BBT)      (DLT)      (LRT)      Valley     Total
                                                                                                                                      (RGV)
--------------------------------------------------------------------------------------------------------------------------------------------------------
1962......................................         <1                                                                                                 <1
1970......................................                                                      1                                                      1
1990......................................                               <1                    <1                                                     <1
1991......................................          2                                                                                                  2
1992......................................          3                     4                                                                            7
1993......................................         <1                                                                                                 <1
1994......................................          3                                                                                                  3
1995......................................          5                                                                                                  5
1996......................................                     2                                                                                       2
1997......................................          1                               <1                                                                 1
1998......................................          5                               <1                                                                 5
1999......................................          2          2                                                                                       4
2004......................................          1                                                                                                  1
2005......................................         <1                               <1                                           1                     1
2006......................................                                          <1                                                                <1
2007......................................                     7         43         26          3                                                     79
2008......................................         10         12         10         26         38                     2                    11        109
2009......................................          4         19          4          1         17          5          1                    37         88
2010......................................                                                     <1                                           6          6
2011......................................                                           7          1                     1                     1         10
2012......................................         <1                                4                                                     <1          4
2013......................................                                                                                                 <1         <1
2014......................................                                                      1                                                      1
2015......................................         <1                                                                           <1                    <1
2016......................................                                2                                                                            2
2017......................................                                           8          1                                                      9
2018......................................          9          2                               23                                                     34
    GRAND TOTAL...........................                                                                                                374
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Question. Could you update me on the current status of border wall 
construction projects, specifically, where the 256 miles that are under 
contact will be located?
    Answer. Since January 2017, approximately $9.8 billion has been 
identified to construct approximately 509 miles of new border wall 
system through a combination of DHS and DoD funding and the Treasury 
Forfeiture Fund. This funding is supporting the top border barrier 
priorities for the U.S. Border Patrol (USBP) in the San Diego, El 
Centro, Yuma, Tucson, El Paso, Laredo, and Rio Grande Valley (RGV) 
Sectors.

  --As of November 22, 2019, approximately 86 miles of new border wall 
        system in place of dilapidated and/or outdated designs have 
        been completed using DHS & DoD appropriated funds, within 
        USBP's San Diego, El Centro, Yuma, and El Paso Sectors.

  --An additional approximately 150 miles of new border wall system, in 
        place of dilapidated designs and in locations where no barriers 
        currently exist, are under construction within USBP's San 
        Diego, El Centro, Yuma, Tucson, El Paso and RGV Sectors.
    Approximately 273 miles are currently in the planning and/or 
procurement stages within USBP's San Diego, El Centro, Yuma, El Paso, 
Laredo and RGV Sectors. More miles are anticipated for award by the end 
of 2019.
    Question. Could you provide a breakdown of which funding streams 
were used?
    Answer.
  --CBP received funding from Congress in fiscal year 2017 through 2019 
        to construct up to 175 miles of new border wall system in 
        various locations. This includes $341 million in fiscal year 
        2017, $1.375 billion in fiscal year 2018, and $1.375 billion in 
        fiscal year 2019 through DHS enacted appropriations.

  --DHS was also allocated $601 million in Treasury Forfeiture Funds 
        for border wall construction in fiscal year 2019, which should 
        be sufficient to complete approximately 30 miles of border wall 
        construction.

  --In fiscal year 2019, the Department of Defense (DoD) identified 
        $2.5 billion to assist DHS/CBP with the construction of 
        approximately 129 miles of new border wall system, which is in 
        place of dilapidated or outdated designs, including road 
        construction and lighting installation in USBP's Yuma, El Paso, 
        El Centro and Tucson Sectors.

  --In fiscal year 2019, DoD identified $3.6 billion in 10 U.S.C. 
        Sec. 2808 emergency military construction funding that will be 
        made available for border wall system construction. Funding 
        will support border wall system construction in high priority 
        locations identified by USBP as operational priorities, 
        totaling up to 175 miles in the San Diego, El Centro, Yuma, El 
        Paso, and Laredo Sectors.

    Question. Do these 256 miles include updating existing barriers or 
building barriers in places where there are currently no barriers?
    Answer. It is CBP's understanding that Acting Secretary of Defense 
Shanahan may have included some, or all, of the approximately 129 miles 
of new border wall system in place of dilapidated and outdated designs 
the Department of Defense intended to undertake at that time on behalf 
of DHS using 10 U.S.C. Sec. 284 Counter-Narcotics funds, as contracts 
for these miles had been awarded.
    The up to approximately 205 miles of new border barriers funded 
through a combination of DHS appropriations and TFF includes both new 
border barriers in place of dilapidated designs, and new border 
barriers where none previously existed.
    Question. Could you provide details about these 63 miles, including 
funding streams, type of barriers, and location of the physical 
barriers?
    Answer. It is CBP's understanding that Acting Secretary of Defense 
Shanahan was referencing 63 miles of 10 U.S.C. Sec. 284 funded projects 
where contracts were awarded. Please see above for a description of the 
type of barriers and their locations.
    Question. Once the construction of these barriers is completed, how 
many more miles of border barriers do you anticipate need to be 
constructed to fully secure our southern border?
    Answer. In 2017, CBP developed a decision support tool to 
prioritize the locations identified by field commanders as necessary to 
construct border barrier. The decision support tool combines both 
qualitative and quantitative data to prioritize the locations that 
would benefit from impedance & denial (I&D), in this case, through a 
border wall system. CBP outlined the Impedance & Denial Prioritization 
Strategy as an appendix to the Border Security Improvement Plan (BSIP) 
provided to the House and Senate Appropriations Committee in January 
2018. Completion of CBP's top 17 border wall priorities, in addition to 
the current barriers, would result in approximately 970 miles of 
primary border barrier along the Southwest Border.

                                 ______
                                 

             Questions Submitted by Senator Lisa Murkowski
    Question. As the U.S. southern border hardens and Arctic sea ice 
decreases the northern border becomes more accessible creating security 
challenges for the United States and Canada. It is critical to improve 
our understanding of these emerging threats and develop partnerships to 
address them. Congress had directed CBP to continue collaboration with 
Canada in areas along the northern border in an effort to detect 
smuggling in heavily-trafficked waterways. We've also directed the 
Coast Guard to appropriately budget to support an Arctic Program 
Office. These are steps in the right direction, but we need to fund 
these programs that are so crucial to our efforts to adequately address 
the challenges inherent to the growing mission in the Arctic.
    Is there a plan to invest in U.S. based maritime interdiction 
capabilities and vessel tracking technology for our North American 
Arctic in an effort to enhance our information-sharing capabilities 
with our Canadian Law Enforcement and Security agencies?
    Answer. Coast Guard cutters protect the U.S. maritime borders, 
Exclusive Economic Zone, and relevant areas of the high seas by 
detecting, deterring, and interdicting vessels engaged in illegal 
operations. The Polar Security Cutter, which is currently under design 
and construction, will position the Coast Guard to increase presence 
and support in the Arctic region. The Polar Security Cutter will also 
enhance the Coast Guard's ability to address emergent demands through 
increased maritime interdiction and vessel data communication capacity. 
The Coast Guard will also continue to gather and share information 
through existing partnerships with our Canadian counterparts and the 
Arctic Nations, as well as other partners and allies with Arctic 
interests. Lastly, through Operation Arctic Shield, the Coast Guard 
conducts year-round planning and operations to deploy mobile and 
scalable resources throughout the Arctic to enhance maritime domain 
awareness and broaden partnerships.
    Question. Now that the Coast Guard has been directed to 
appropriately budget to support an Arctic Program Office, is there a 
plan to ensure the Service has the adequate funding in place to 
establish an Arctic Program Office?
    Answer. The Coast Guard understands the significant investment 
required to secure the Arctic and is grateful to Congress for continued 
support of Arctic capabilities, such as the Polar Security Cutter. As 
recognized by Congress, the Coast Guard Arctic Program Office, 
established in 2015, has furthered the Nation's national defense and 
security interests in the Arctic through extensive participation, 
coordination, and collaboration with other international, Federal, 
state, local, tribal, and territorial partners to improve awareness, 
broaden partnerships, and modernize governance in the Arctic. The Coast 
Guard's 2019 Arctic Strategic Outlook commits the Service--in part 
through coordination by the Arctic Program Office and informed by 
academic institutions such as the Center for Arctic Study and Policy at 
the Coast Guard Academy--to continue building Arctic awareness through 
partnerships and organic investments in technology, as well as 
continuing to support scientific exploration, monitoring, and research 
to increase understanding of the changing Arctic environment, 
associated impacts, and emergent maritime threats. As directed, the 
Coast Guard will report if additional resources are needed as the 
Arctic Program Office continues to further this important work.

                                 ______
                                 

              Questions Submitted by Senator John Kennedy
    Question. In response to a letter signed by flood insurance 
stakeholders, I understand that FEMA recently took the official 
position that private flood insurance cannot be used to satisfy the 
continuous coverage requirements under 42 U.S.C. 4014(g). This is 
concerning because I believe your actions clearly contradict the clear 
intent of: (1) Congress in enacting the Homeowner Flood Insurance 
Affordability Act regarding premium subsidies; and (2) Congress', 
FEMA's, and this Administration's unified goal to eliminate unnecessary 
roadblocks in the growth of the private flood insurance market to 
ensure Americans are adequately insured against the risk of flooding.
    In their letter, the stakeholders asked to meet with you to discuss 
their legal analysis determining that you have the current statutory 
authority to remedy this error.
    Have you or other department officials met with these industry 
representatives? If so, please list the department officials and 
industry representatives who participated in the meeting.
    Answer. The Federal Emergency Management Agency has presented to or 
met with several industry groups listed in the July 26, 2017, letter, 
including:

  --American Insurance Association

  --Mortgage Bankers Association

  --National Association of Realtors

  --Property Casualty Insurers Association of America

    On July 1, 2019, Federal Insurance and Mitigation Administration 
(FIMA) leadership discussed the topic of private insurance with 
American Property Casualty Insurance Association (APCIA) leadership. 
APCIA provided FIMA with a legal opinion, and FIMA is reviewing.
    The Department officials and industry representatives who 
participated in the meeting are listed below.

American Insurance Association

  --FEMA--Paul Huang, Assistant Administrator for Federal Insurance 
        presented

  --Industry--Thomas Santos

Mortgage Bankers Association

  --FEMA--David Maurstad, Deputy Associate Administrator for Insurance 
        and Mitigation presented

  --Industry--Mike Fratantoni

National Association of Realtors

  --FEMA--Paul Huang, Assistant Administrator for Federal Insurance; 
        David Maurstad, Deputy Associate Administrator for Insurance 
        and Mitigation; and staff

  --Industry--Austin Perez

Property Casualty Insurers Association of America

  --FEMA--Paul Huang, Assistant Administrator for Federal Insurance; 
        David Maurstad, Deputy Associate Administrator for Insurance 
        and Mitigation; and staff

  --Industry--Don Griffin, Nathaniel Wienecke

    Additionally, as recently as July 1, FIMA leadership discussed the 
topic of private insurance with APCIA leadership. APCIA provided FIMA 
with a legal opinion and we are reviewing.
    Question. What is the legal basis for why FEMA concluded that the 
statute explicitly prevents FEMA from allowing private flood insurance 
to count towards continuous coverage and why the industry's analysis is 
incorrect?
    Answer. The relevant statutory provision is 42 U.S.C. 
Sec. 4014(g)(1), which states:

  --No extension of subsidy to new policies or lapsed policies. The 
        Administrator shall not provide flood insurance to prospective 
        insureds at rates less than those estimated under subsection 
        (a)(1), as required by paragraph (2) of that subsection, for--

          --(1) any policy under the flood insurance program that has 
        lapsed in coverage, unless the decision of the policy holder to 
        permit a lapse in flood insurance coverage was as a result of 
        the property covered by the policy no longer being required to 
        retain such coverage.

    FEMA is required to implement the existing statute. The language of 
42 U.S.C. Sec. 4014(g)(1) creates an exception to the general rule 
eliminating subsidies for pre-FIRM (Flood Insurance Rate Map) 
properties if there is a lapse in coverage. However, that lapse is only 
permitted when it occurs because the property is no longer required to 
maintain its coverage (i.e., the mandatory purchase requirement no 
longer applies per 42 U.S.C. Sec. 4012a). The rule does not allow FEMA 
to reinstate the previous subsidy when a policyholder drops NFIP 
coverage, purchases a private flood policy, then seeks to return to the 
NFIP.
    Several interests outside of government provided FEMA with 
alternative interpretations of the statute. Those interpretations 
assert that the statutory language is ambiguous, susceptible to various 
interpretations, and FEMA should use its discretion to interpret the 
language towards the alternatives preferred by the outside interests. 
FEMA disagrees. FEMA believes the statute communicates the intent of 
Congress to the public as drafted, and FEMA lacks the discretion to 
interpret the statute differently.
    Question. In 2017, U.S. Customs and Border Protection (CBP) 
attempted to revoke interpretations of the Jones Act concerning subsea 
operations on the U.S. OuterContinental Shelf after acknowledging these 
interpretations were inconsistent with the Jones Act. This is the 
second time that CBP has acknowledged some of its interpretations do 
not conform to the law. On both occasions, however, CBP halted this 
revocation effort. These flawed interpretations continue to remain in 
effect. In the fall of 2017, as Acting CBP Commissioner, I understand 
you requested and received approval from Acting DHS Secretary Elaine 
Duke to jointly lead, with the National Economic Council (NEC) and the 
National Security Council (NSC), an interagency review of the Jones Act 
letter rulings in question. Your agency has admitted twice that some of 
your past letter rulings were inconsistent with the Jones Act.
    What is the status of this interagency review?
    Do you anticipate the revocation of these rulings?
    If you do anticipate the revocation, when do you expect it?
    If you do not anticipate the revocation, why not?
    Answer. On October 23, 2019, pursuant to section 625(c), Tariff Act 
of 1930 (19 U.S.C.Sec. 1625(c)), as amended by section 623 of Title VI 
(Customs Modernization) of the North American Free Trade Agreement 
Implementation Act (Public Law 103--182,107 Stat. 2057), CBP issued a 
Notice of proposed modification and revocation of headquarters' ruling 
letters relating to CBP's application of the coastwise laws to certain 
merchandise and vessel equipment that are transported between coastwise 
points.
    CBP's Notice indicates that it proposes to modify eight 
interpretive rulings and revoke eight interpretive rulings. Parties 
will have thirty days from the date of publication to submit comments, 
although it is possible that the agency provides an extension of the 
comment period. Within thirty days after the closing of the comment 
period, CBP will publish a final decision. The final decision will 
become effective sixty days after the date of its publication. CBP 
cannot predict whether the interpretive rulings ultimately will be 
revoked or modified
                        opioid and heroin crisis
    Question. What percentage of illegally trafficked drugs do you 
believe CBP is intercepting?
    Answer. Based on the data that CBP is able to collect, this 
probabilistic analysis is not available. CBP is able to analyze trends 
on location and drug types based on drugs and more specifically, 
narcotics seized but not on illegal substances that go undetected.
    Question. What can be done to improve that percentage?
    Answer. CBP is unable to calculate a percentage of total drugs 
seized, as this probabilistic analysis is not available. However, DHS 
and CBP have taken an aggressive approach to disrupting and dismantling 
the organizations that traffic illegal drugs into the Nation. 
Recognizing that there is no single solution to this epidemic, DHS and 
CBP are pursuing a number of avenues to interdict illicit substances 
coming into the country. These efforts include, but are not limited, 
to:

  --Standing up scientific support centers and mobile laboratories at 
        the headquarters and field level to provide 24/7 support to our 
        operators and inspectors in the field

  --Enlisting the support of the broader law enforcement community to 
        share narcotics trending data, such as opioids, from the 
        scientific perspective down to the molecular level

  --Partnering with other nations to offer training and support to 
        foreign law enforcement officers on subjects such as contraband 
        indicators, trends and targeting techniques

  --Partnering with the Office of National Drug Control Policy and USPS 
        to launch an Opioid Detection Challenge

          --The Challenge calls upon innovators to submit novel plans 
        for rapid, nonintrusive detection tools that will help find 
        illicit opioids being trafficked into the United States through 
        international mail.
    Question. On May 8, 2018, former Homeland Security Secretary 
Nielsen testified before this subcommittee. Because of time restraints, 
I asked her to just list, without elaboration, a half dozen or so items 
that could be addressed to cut illegal immigration at the southern 
border in half. In reply, she listed the following items: (1) Flores 
Settlement; (2) Trafficking Victims Prevention Reauthorization Act; (3) 
Zadvydas Court Case; (4) Safe Third County Agreement with Mexico; (5) 
Increase Asylum Fraud Penalties; (6) Unaccompanied Alien Children; and 
(7) Smuggling Rings and Transnational Crime Organizations.
    Are the items listed above ones that you believe need to be 
addressed to cut illegal immigration at the southern border in half? If 
not, please list your items.
    Answer. The items identified during the hearing are essential to 
reducing illegal immigration at the southwest border but are not the 
only ones. Additionally, DHS would like to highlight the need for:

  --A complete border wall system;

  --Additional Border Patrol Agents and CBP Officers, as reflected in 
        the President's Budget and related legislative proposals to 
        increase fees;

  --Timely and accurate funding for DHS requirements;

  --Support of the Migrant Protection Protocols (MPP); and

  --Continued availability of appropriate Department of Defense 
        resources in support of the mission.

    Question. Will you elaborate further on what actions are needed for 
each of the items (for which you have either concurred with or 
identified) and specifically identify any matters requiring 
Congressional action?
    Answer. There is no easy fix for the security and humanitarian 
crisis occurring at the southwest border currently. The USG must pursue 
a whole-of-government approach that addresses push/pull factors, deters 
crossings between the ports of entry, protects the people making the 
journey and enlists the aid of other Federal agencies.

  --DHS needs Congress to provide the ability to hold parents and 
        children together longer than allowed by the Flores Settlement 
        Agreement (FSA) and court decisions interpreting it.

          --The FSA prevents DHS from detaining migrant families long 
        enough to process their claims accurately, resulting in the 
        release of migrants into the country while they await their 
        immigration court date, a wait which on average can be over 
        1,300 days.

  --Congressional action to increase the statute of limitations for 
        committing immigration fraud, including asylum fraud, from five 
        to 10 years will discourage migrants from making fraudulent or 
        frivolous asylum claims.

  --DHS requests Congressional action to amend immigration laws to 
        allow for the prompt and safe return of all UAC who are not 
        victims of trafficking and do not have a fear of persecution or 
        torture, regardless of their country of origin.

  --Congressional action is needed to combat smuggling rings and 
        transnational criminal organizations who accrue enormous 
        profits by trading in human misery.

          --In addition to taking large sums as payment for smuggling 
        migrants into the US, criminal organizations also prey on this 
        vulnerable population through rape, robbery, and kidnapping for 
        ransom.

  --DHS requires Congressional support for a complete wall system that 
        will provide both surveillance technology and impedance and 
        denial capabilities that are critically needed.

          --The combined capabilities provided by deploying both 
        technology and barrier will improve border security operational 
        efforts through enhanced impedance, denial, detection, 
        identification, classification, and tracking mission essential 
        tasks.

          --The ability to perform these mission tasks increases the 
        ability of DHS/USBP to achieve operational control, improve 
        agent safety, and enhance situational awareness in areas 
        currently experiencing some of the highest volume of illicit 
        cross border traffic observed in recent years, such as the 
        Lordsburg, NM; Rio Grande City, TX; and Ajo, AZ areas.

  --DHS supports Congressional authorization to continue our 
        partnership with the Department of Defense (DoD).

    DoD has proven to be a critical partner both in terms of resources 
and personnel in assisting CBP in addressing the humanitarian and 
security crisis at the southwest border.
            cybersecurity education and workforce shortages
    Question. How would you describe your STEM workforce pipeline 
programs, funding, and strategy with respect to addressing your 
cybersecurity workforce shortages?
    Answer. CISA continues to mature efforts to cultivate potential and 
new talent, focusing on investment at entry and early career in the 
cybersecurity field. These activities include focus areas on pipeline 
at the high-school and young adult level, undergraduate college level, 
as well as reskilling existing workforce for early career in the 
cybersecurity field. CISA intends to focus on these areas over the 
coming fiscal years, growing a pipeline of talent to enter the 
workforce and building a CISA workforce by maturation.
    CISA is continues to take proactive approaches to seek 
cybersecurity talent. For example, based on data analysis and 
determining the markets with the largest supply of cyber talent, the 
agency will conduct multiple on the spot hiring events across the 
nation to include the DC Metro area, Atlanta/Augusta, Baltimore/
Columbia, San Antonio, Denver/Colorado Springs and Seattle Metro area. 
In support of and in addition to the above, CISA will leverage social 
media recruiting (i.e. LinkedIn, Career Builder, ClearanceJobs, etc) to 
engage with both active and passive candidates to inform them of 
employment opportunities.
    In fiscal year 2020, CISA will continue to expand its outreach and 
develop a pipeline to address workforce shortages by increasing the 
number of intern positions available thru the Scholarship for Service 
(SFS) program and partnering with OPM to more actively pursue SFS 
candidates who are eligible and looking for full time employment. In 
tandem with expanding the SFS program, CISA will target Centers of 
Academic Excellence (CAE) schools to develop relationships, engage 
students and make them aware of opportunities at both the undergraduate 
and graduate levels. In fiscal year 2019 the agency, created student 
trainee (cyber positions) internships ranging from GS-1 thru GS-7, 
which allows CISA to start cultivating and recruiting entry-level 
talent and will continue this focus. The agency has hosted student 
volunteers from the University of MD Federal Fellows, DC Mayor Marion 
Berry Summer Youth Program, On Ramps to Careers Program and high school 
programs, and participated in the President Management Fellows (PMF). 
Participation in STEM hiring events were at its highest for the agency, 
to include participation at BEYA, BlackHat, and GSX. CISA was also 
engaged with the Federal Reskilling program, and hosted resume writing 
workshops for the participants. In fiscal year 2020, the agency plans 
on extending its student recruitment opportunities by continuing the 
fiscal year 2019 actions and by participating in the Cyber Talent 
Initiative in partnership with the Partnership for Public Service which 
attracts recent undergraduate and graduate students, and Pathways 
Recent Grad Program to attract students who have graduated from 
university within the past 2 years. In support of these efforts, CISA 
has employed a Student Program Manager.
    In fiscal year 2020 CISA will continue to expand its veteran 
recruiting and outreach programs, not only by recruiting on military 
installations, but by leveraging programs such as the SANS Institute 
VetSuccess Academy and Microsoft Software and Systems Academy (MSSA). 
The agency will also explore the feasibility of cybersecurity 
apprenticeships. CISA is focused on enhancing its diversity and 
inclusion efforts to extend to underrepresented populations, focusing 
on women and other minority groups. CISA continues to analyze its 
diversity metrics to drive recruitment strategies and ensure that the 
workforce capacity build is extended to areas that will overcome 
deficiencies.
    Internal to the agency, there will be a renewed effort to leverage 
the employee referral program as well as ensure that employees are 
aware of all vacancies that are being recruited for.
    CISA continues to leverage all opportunities to acquire, cultivate, 
build, and retain talent. For example, through a program designed under 
5 CFR Part 575, Subpart C, Retention Incentives, CISA created a unique 
cybersecurity pay enhancement program that capitalizes on the retention 
incentive thresholds to overcome pay disparity challenges that exists 
between government and market for cybersecurity positions, reducing the 
risk and likelihood of attrition for employees that would otherwise be 
likely to leave for the private sector. Recognizing these unique 
qualification requirements that create the special need for the Agency, 
CISA invests in its workforce to obtain industry-recognized 
certifications and many other professional development and training 
courses to grow the STEM competencies and skills of its employees. 
These investments not only reduce attrition, but support succession 
planning for the mission, enhancing its overall readiness capability. 
To the extent practicable and applicable, CISA participates in the 
tuition assistance and reimbursement programs for academic, 
professional, or technical courses taken through accredited 
institutions of higher learning that offer academic college credit. 
Funding for these programs can extend to $60,000 per individual. CISA 
program and policies have been exercised to the fullest extent 
allowable by law.
    Question. Why wasn't funding requested in the President's Budget 
Request for the Cybersecurity Education and Training Assistance Program 
(CETAP)?
    Answer. CISA is prioritizing funds for its own cybersecurity 
workforce education, Federal cyber workforce education and national 
cyber awareness. However, given limited resources, CISA did not 
prioritize funding in fiscal year 2020 for K-12 curriculum development. 
Instead, CISA looks forward to working with the private sector and 
other Federal agencies, such as NIST and the Department of Education, 
to ensure that CISA's workforce initiatives align to their K-12 
initiatives.
    Question. I understand that you have a recurring workforce shortage 
even though you have been given every OPM waiver for new hires. Despite 
most of these jobs being in the DC region, would you consider having 
some of these jobs relocated to areas like Louisiana where we have a 
cyber-educated workforce that lives in a more affordable region of the 
United States?
    Answer. DHS has approximately 8,000 civilian employees that have 
been identified and coded as performing cybersecurity work. Of those 
employees, 51 percent are located in the National Capital Region, and 
of the remaining positions located elsewhere in the United States, 
approximately 1 percent are in Louisiana.
    Question. Given the well documented delays in obtaining government 
security clearances (up to 2 years), what strategies are you working on 
to gain more cleared workers in the talent pipeline?
    Answer. DHS Components, including CISA, are focused on a variety of 
strategies to mitigate onboarding delays associated with background 
investigations. Some priority tactics include:

  --Closely analyzing the clearance level required by positions to 
        ensure the appropriate investigations are initiated;

  --Ensuring close collaboration between security and human capital 
        points of contact to standardize process steps and 
        requirements;

  --Improving communication with selectees to reduce delays and errors 
        in the submission of critical information; and

  --Using data to inform ongoing recruiting efforts to ensure cleared 
        candidates are available for hire when needed.

    Question. Are you aware of the Vice President's new Cyber Education 
program that is being performed by the National Cyber Education Group 
in partnership with Discovery Education? Do you endorse this program 
considering you are already funding the Cybersecurity Education and 
Training Assistance Program (CETAP)?
    Answer. CISA staff attended a conference call with the organizers 
of the National Cyber Education Group in March 2019 in which we learned 
about their proposed program. CISA is not aware of a continued 
connection between the National Cyber Education Group and the Office of 
the Vice President. However, CISA encourages the private sector to fund 
K-12 cyber curriculum development and we look forward to providing 
subject matter expertise to any private initiatives, as requested.
    CISA encourages the private sector to continue funding for K-12 
education. The Administration supports private funds in this area, 
versus spending Federal resources. We look forward to working with 
Congress to help CISA move away from using Federal funds on K-12 
education.

                                 ______
                                 

            Questions Submitted by Senator Cindy Hyde-Smith
    Question. The Department of Homeland Security has led the Federal 
government in finding efficiencies and cost savings through the 
consolidation and optimization of data centers. The Department has 
reported that this activity will save billions of taxpayer dollars due 
to consolidation and optimization of hosting environments. The 
Department's primary data center also has demonstrated the capacity and 
ability to provide services to a much broader audience of Federal 
customers.
    Please provide the Committee a status update on optimization 
efforts and the Department's plans to leverage the primary data center 
as it modernizes its approach to information technology.
     What is the Department doing in terms of encouraging other Federal 
customers to join DHS in the savings and operational efficiencies you 
are enjoying as a result of data center optimization?
    Answer. Here are some highlights of the Department's most recent 
efforts in terms of data center consolidation. DHS has reached 68 
percent overall data center closures including 65 percent of tiered and 
69 percent of non-tiered data centers that are subject to Data Center 
Optimization Initiative (DCOI) closure objectives. Beginning in fiscal 
year 2019, DHS began a multi-faceted initiative to optimize enterprise 
data centers and incent cloud migration. DHS operates two enterprise 
data centers--Data Center 1, which is government owned and contractor 
operated, and Data Center 2, which is contractor owned and operated.
    Every DHS component uses these data centers and DHS currently 
spends over $200 million per year on both DC1 and DC2. In Data Center 
1, DHS reduced the footprint by 35 percent by migrating applications to 
the cloud, retiring applications and systems, and consolidating 
infrastructure within the data center. In Data Center 2, DHS has an 
aggressive DC2 exodus project where Immigrations and Customs 
Enforcement set the pace for DHS by completely migrating all systems 
and application out of this data center.
    The Department's overall approach is to optimize the use of Data 
Center 1 through a recompeted contract and to exit Data Center 2 
entirely. In terms of Data Center 1, DHS is developing a solicitation 
to recompete the contract that operates DHS IT Infrastructure in Data 
Center 1. In this solicitation, the suppliers will be asked to optimize 
our current infrastructure. They will be required to operate DC1 more 
efficiently through cloud technologies that virtualize and share 
infrastructure. In addition, the contractor will be asked to assess 
applications and infrastructure for cloud migration, execute the 
migration to the cloud, and purchase services from Cloud Service 
Providers. This recompeted acquisition is expected to result in lower 
prices and faster migrations to the cloud. A solicitation is expected 
to be released in fiscal year 2020 and an award to be made shortly 
thereafter.
    In terms of Data Center 2, DHS is continuing a multi-component 
migration out of this data center. In fiscal year 2020 and fiscal year 
2021, most applications are expected to have migrated out of this data 
center. Current plans show that 55 percent of the systems will migrate 
to a cloud solution; 36 percent of the systems will be decommissioned; 
and 9 percent will migrate to other data centers, including the 
recompeted DC1 contract. This is a top priority and DHS is taking an 
aggressive stand with exiting this data center.
    With respect to Data Center Optimization, these efforts are 
expected to be expanded in fiscal year 2020, especially in preparation 
for the DC1 re-competition. Other Federal agencies use the NASA 
operated DC1 and DHS will have discussions with them about their own 
optimization efforts. The Department will also open a dialog within the 
Federal CIO Council on our data center optimization and cloud migration 
efforts.

                                 ______
                                 

             Questions Submitted by Senator James Lankford
    Question. On January 25, 2017, President Trump issued Executive 
Order #13767, entitled ``Border Security and Immigration Enforcement 
Improvements.'' This order stated that it is the ``policy of the 
executive branch to secure the southern border of the United States 
through the immediate construction of a physical wall on the southern 
border, monitored and supported by adequate personnel so as to prevent 
illegal immigration, drug and human trafficking, and acts of 
terrorism.''
    Whenever Congress is asked to appropriate such a large amount of 
money for a project, it is reasonable to expect that the recipient 
Federal agency or department will provide a detailed plan on how those 
funds will be spent. This ensures taxpayer dollars are efficiently and 
effectively utilized and allows Congress to perform its 
constitutionally mandated oversight functions.
    Can you provide to this Committee a detailed plan describing how 
the agency intends to secure each mile of the border? I'm looking for 
information including which types of physical barriers, fixed towers, 
levees, technologies, or other tools the agency has determined will 
provide an adequate level of security for each mile, the cost to secure 
each mile, the priority level of implementing the plan for each section 
of the border, and the methods used to respond to each of these 
requirements.
    Answer. USBP has identified 12 Master Capabilities (Planning & 
Analysis, Intelligence & Counter Intelligence, Command & Control, 
Communications, Information Management, Human Capital Management, 
Programming and Policy, Security Partnerships, Mission Readiness, 
Domain Awareness, Access & Mobility, and Deterrence, Impedance & 
Resolution) which are the foundation from which USBP operations are 
conducted. During mission analysis, USBP conducts the Capability Gap 
Analysis Process (CGAP), across all southern, northern, and coastal 
sector stations. CGAP is a scenario-driven process intended to identify 
and document each station's capability gaps by determining the delta 
between a station's baseline capabilities and the required set of 
capabilities needed to perform mission essential tasks (METS). It is 
through the execution of the annual CGAP at the lowest levels, that 
USBP capability based planners are able to identify capability gaps 
across the nation.
    USBP then examines gaps in greater detail in order to develop 
capability requirements and investment strategies for potential 
solutions. Solutions can be implemented through procurement, non-
materiel and/or acquisition pathways to mitigate capability gaps over 
time. USBP utilizes an established governance process to present 
capability requirements and investment strategies to USBP leadership 
for review and approval. Executive leadership makes final 
determinations after assessing operational priorities, the estimated 
cost of implementation, schedule, performance parameters, and how well 
candidate solutions are anticipated to mitigate gaps. Once approved, 
requirements and candidate solutions are provided to the Planning, 
Programming, Budget and Accountability (PPBA) process, assigned to the 
responsible party for execution or USBP program managers to undergo the 
DHS Acquisition Process, and/or provided to a third party such as DHS 
S&T for further research and development.
    That said, USBP operates in inherently complex environments with 
varying terrain and evolving adversary networks. USBP recognizes this 
complexity, the high variability from location to location, and that 
there is no ``one size fits all'' solution. As such, USBP constantly 
assesses and reevaluates operational needs based on updated 
intelligence estimates, identified capability gaps, and the 
interdependency of required capabilities from location to location, in 
order to deploy the right solution(s), to the right place, at the right 
time.
    Question. As you know, the Executive Office for Immigration Review 
(EOIR) continues to implement technological improvements to transition 
all of the current and future immigration cases to an electronic case 
management system.
    How is DHS working with EOIR to ensure that all files related to 
immigration cases coming to EOIR from CBP and ICE are able to be 
processed electronically?
    Answer. At this time, the U.S. Department of Justice Executive 
Office for Immigration Review electronic system (ECAS) is in its pilot 
stage. The U.S. Department of Homeland Security (DHS) is participating 
in the pilot cities of San Diego, California; Denver, Colorado; 
Atlanta, Georgia; and York, Pennsylvania. For those cases that are also 
using ECAS in these locations, DHS is electronically filing Notices to 
Appear, evidentiary submissions, and motions. DHS looks forward to an 
opportunity to brief the Hill on the pilot and ways to address 
implementation challenges.
    Question. FEMA has authority over the Operation Stonegarden 
Program, which primarily funds overtime and equipment expenses for law 
enforcement coordination efforts to enhance security along our borders. 
FEMA has allocated over $531.5 million for Stonegarden grants since its 
inception in 2008, with $85 million in fiscal year 19 and $90 million 
requested for fiscal year 2020. There is concern from FEMA that the 
grant money is not effectively used and leads the program to stray from 
its intended purpose. For example, the program will pay for the 
overtime of a local Sheriff to sit in a hospital waiting room while he 
waits for a detainee from the border. While this is an occasional 
understandable circumstance, it is becoming a routine procedure.
    In addition, a 2017 DHS OIG report found that FEMA and CPB did not 
meet their oversight responsibilities for Operation Stonegarden, 
specifically in terms of overtime pay. The IG report found that 13 
percent of the funds audited were unsupported or unreasonable. Even 
more, FEMA and CPB did not put any restriction on the amount of 
Stonegarden overtime that could be worked in a 24-hour period.
    Is DHS concerned about the effectiveness of this program?
    Answer. No. The Operation Stonegarden Program (OPSG) is a proven 
effective example of whole-of-community counter-networks deployed as 
secondary and tertiary elements of border security. FEMA and CBP have 
implemented unprecedented measures to maximize the coordination between 
USBP and the sub-recipients through Integrated Planning Team meetings 
as well as accountability through the collection of Daily Activity 
Reports. Through planning, reporting, and coordination, USBP and FEMA 
have built an environment of dynamic and targeted operational 
coordination that addresses border security gaps and vulnerabilities, 
resulting in risk and threat mitigation.
    Since 2008 the OPSG grant has been allocated $771 million in 
funding to support a whole-of-community border security response. The 
fiscal year 2020 President's Budget did not request any additional 
funding for Operation Stonegarden. After consultation with stakeholders 
within the border Sheriff's community, FEMA and the United States 
Border Patrol (USBP) identified several transportation and medical-
related costs routinely incurred by OPSG sub-recipients while 
transporting subjects interdicted while carrying out allowable OPSG-
funded activities or operations. FEMA reviewed the types of costs and 
determined that eligible non-Federal entities could use OPSG funding 
for the reimbursement of such costs. FEMA issued Information Bulletin 
#438 and implemented transportation support and hospital watch as 
allowable costs on January 31, 2019.
    The DHS OIG Audit Report (OIG-18-13) dated November 9, 2017, made 
seven recommendations to FEMA and CBP. When implemented, these 
recommendations would improve oversight and accountability of the 
Operation Stonegarden Program. CBP and FEMA initially concurred with 
six of the seven OIG recommendations and implemented measures that 
resolved and closed each recommendation by December 14, 2018, including 
recommendation 5, which required that non-Federal entities may not 
utilize OPSG funding to pay for an employee's overtime hours or pay 
that exceeds 16- worked in any 24-hour period.
    Question. Is the Department concerned that desperately needed 
manpower at the border is instead stuck getting paid overtime in a 
hospital waiting room through a grant program that is not well 
controlled?
    Answer. No. The current situation along the southwest border 
depletes and reduces the number of agents available for field 
operations. Agents are mandated by policy to perform functions that are 
personnel intensive and result in operational gaps directly on the 
border. The volume of individuals that require medical attention is 
proving to be taxing on the Border Patrol's operational manpower. FEMA 
Information Bulletin #438 approves the allowability of grant funding to 
support non-Federal entities charging operational overtime for 
personnel (including deputies, corrections officers, or detention 
officers) that monitor a detained individual receiving acute medical 
care where the individual remains in the custody of the non-Federal law 
enforcement agency. Assistance with hospital watch via the OPSG grant 
has the potential to greatly relieve this operational personnel burden 
and provide a means to ensure that more Border Patrol Agents are 
available to protect the border. The use of OPSG assets to perform 
hospital watch nationwide is minimal: Data derived from submitted OPSG 
Daily Activity Reports reveals that since the implementation of IB#438 
on January 31, 2019, there have only been five (5) reported uses of 
hospital watch totaling (53.5) hours.

  --(3) events in Texas using Deputies,

  --(1) event in Florida using Deputies

  --(1) event in AZ using Detention Officers

    Question. There is a desperate need for manpower and personnel at 
the border. What action can be initiated to redirect a Sheriff's time 
back to his duties at the border?
    Answer. FEMA and CBP concur that there is a desperate need for 
manpower and personnel at the border. Sheriff's deputies and officers 
working under OPSG overtime do so in addition to their normal law 
enforcement shifts. OPSG increases the presence and effectiveness of 
law enforcement at the most vulnerable areas along the border. Any use 
of OPSG partners to assist USBP agents in fulfilling border security 
efforts demonstrates a successful use of OPSG funds; this includes 
roving patrols, transportation, and hospital watch.
    Question. DHS has undertaken a tremendous effort to secure the 
Federal network from cybersecurity threats. In previous hearings, your 
predecessors have noted that hostile actors have sought to infiltrate 
our Federal systems by first accessing third party systems of 
businesses or contractors who have interaction with our Federal system.
    What are the Department's goals for the year ahead to ensure the 
security of all contractors and third party entities have cybersecurity 
mechanisms that are up to par?
    Answer. In alignment with the 2018 National Cyber Strategy, and in 
order to ensure the security and resilience of Federal networks, the 
Cybersecurity and Infrastructure Security Agency (CISA) is working with 
Federal contractors to enhance their security posture through 
requirements, information sharing, and partnerships. The Office of 
Management and Budget's (OMB) Circular A-130 defines a `Federal 
information system' as ``an information system used or operated by an 
agency or by a contractor of an agency or by another organization on 
behalf of an agency.'' CISA uses this definition to scope expectations 
and requirements for Federal contractors through cybersecurity 
directives and operational requirements covering the Federal agencies 
managing those contractors. Federal government-wide policy, standards, 
and requirements apply to Federal information regardless of its 
location. CISA continues to work with government and industry partners 
to establish and ensure a common cybersecurity baseline for all Federal 
information.
    In coordination with the General Services Administration (GSA), 
CISA works to ensure that all Federal Risk and Authorization Management 
Program (FEDRAMP) certified companies comply with cybersecurity 
directives, ensuring that companies are meeting (and implementing) the 
same cybersecurity standards and capabilities as Federal Civilian 
Executive Branch agencies. These directives help to reduce the attack 
surface by driving down the number of open critical vulnerabilities, 
removing vulnerable software, and implementing enhanced cybersecurity 
and web enhancements. More information on cyber directives may be found 
at https://cyber.dhs.gov.
    CISA is also working with OMB and Federal agencies to enhance the 
coordination of cyber threat information, products, and capabilities to 
mature Federal cybersecurity supply chain risk management. These 
efforts will ensure that Federal agencies are aware of threat 
information on hardware, software, or third-party vendors and the 
security of Federal data on federally managed and cloud provider-
managed systems.
    In addition, CISA provides comprehensive cybersecurity assessments 
for the purpose of protecting the Federal, SLTT, private sector, and 
critical infrastructure networks, reducing attack surfaces, countering 
threats, and fostering partnerships. This includes assessments with any 
third-party entity which may have interactions with Federal systems and 
are eligible for CISA services.
    Lastly, CISA continues to work with stakeholders to ensure services 
and tools meet the National Institute of Standards and Technology 
(NIST) standards by supporting ongoing efforts in acquisition and 
procurement management and working through industry Sector Coordinating 
Councils.
                           ELECTION SECURITY
    Question. Could you speak to the state of our nation's election 
security?
    Answer. Since 2018, DHS and our state and local government and 
private-sector partners have made significant progress toward election 
infrastructure security and resilience. Key accomplishments include 
improving the information sharing environment by establishing the 
Election Infrastructure Information Sharing and Analysis Center (EI-
ISAC) and growing its membership to encompass all 50 states and more 
than 1,700 local governments; developing new training and assessments 
to support election officials; conducting two National Election 
Tabletop Exercises; granting security clearance to more than 130 state 
and local election officials and vendors; partnering with the 
Intelligence Community to share classified information with election 
infrastructure stakeholders on multiple occasions; and implementing 
virtual National Cybersecurity Situational Awareness Rooms on election 
days (and in-person classified and unclassified rooms for the 2018 
midterms) to facilitate rapid information sharing and provide election 
officials with virtual access to the 24/7 operational watch floor of 
the National Cybersecurity and Communications Integration Center.
    Question. How are we helping state election officials go through 
the process to receive security clearances and equip them to identify 
and respond to threats against their election systems?
    Answer. DHS prioritizes the processing of security clearances for 
election officials. Each State Chief Election Official has been 
extended the opportunity to apply for a security clearance, as well as 
three additional personnel on their staffs. A significant number of 
those have been granted security clearance and we will continue to 
process additional clearances as they are requested by the states. In 
addition to security clearances, we have leveraged other tools, such as 
one-day read-ins to provide classified information, when appropriate, 
to election officials who lacked clearances.
    Question. Elections are a state-run operation, but how are we 
equipping them through our Federal cybersecurity resources to ensure 
elections are secure from foreign interference?
    Answer. DHS offers a variety of cybersecurity services and 
capabilities to support state and local election officials' efforts to 
secure their systems. We recommend they prioritize joining the Election 
Infrastructure Information Sharing and Analysis Center (EI-ISAC), 
through which they can gain access to elections-focused cybersecurity, 
information sharing, training, best practices, and incident response 
capabilities. DHS also provides a robust suite of voluntary assessments 
and other services, which are available to state and local governments 
free of charge. We work with our public and private-sector partners in 
the election community, as well as through CISA's Cybersecurity 
Advisors and Protective Security Advisors, to encourage election 
officials to join the EI-ISAC and avail themselves of our cybersecurity 
services, such as penetration testing, vulnerability scanning, and 
phishing campaign assessments. We continue to reassess our offerings 
and take customer feedback to increase scalability and effectiveness.

                                 ______
                                 

               Questions Submitted by Senator Jon Tester
                       STAFFING AT PORTS OF ENTRY
    Question. What steps is CBP taking to hire additional CBP Officers 
to staff U.S. ports of entry in fiscal year 2019?
    Answer. At the start of fiscal year 2015, CBP had 93.5 percent of 
its CBP Officer positions filled. As of June 8, 2019, CBP had 97.4 
percent of its CBP Officer positions filled, which represents an over 
attrition net increase of 1,621 CBP Officers on-board. CBP has over 900 
CBP Officer applicants pending entrance on duty before the end of 
September 2019. CBP expects to end fiscal year 2019 with approximately 
24,600 CBPO's on-board, which would result in over 99.5 percent of its 
CBP Officer positions filled. CBP's Office of Field Operations has used 
recruitment incentives to encourage applicants to accept CBP Officer 
job offers in our key ports of entry and hard-to-fill remote ports 
along the Northern and Southern Borders. With the effective use of 
incentives and a stable, consistently low CBP Officer attrition rate, 
CBP expects to continue the positive hiring trend throughout fiscal 
year 2020.
    Question. Does there exist for CBP Officers a ``comprehensive 
recruitment and retention strategy'' as there does for U.S. Border 
Patrol?
    Answer. OFO has implemented a new recruitment strategy that is 
scalable, versatile, and national in scope. The OFO recruitment 
strategy requires an all-encompassing synchronized approach to 
attracting, recruiting, and retaining applicants for frontline CBP 
Officer positions. This integrated approach requires investment at all 
levels focused on prioritized and targeted geographic locations to 
yield high quality applicants and establish pipelines to accomplish 
current and future hiring goals.
    This strategy allows recruiters to focus collective efforts at the 
national level, while enabling rapid access to recruitment, marketing, 
branding, and retention incentives. Collaboration and integration 
between field offices has resulted in the ability to saturate areas 
where the CBP Officer brand was not previously marketed.
    Based on field engagement and supported by empirical data from 
pipeline applicants, OFO identified four ideal applicant profiles: 
college students, military and veterans, state/local law enforcement 
officers, and the public. Strategic engagement of these applicants 
focus on colleges/universities, Department of Defense (DoD) 
installations, and developing partnerships with community stakeholders, 
resulting in partnerships that will continue to yield pipelines of 
future CBP Officer applicants.
    OFO has developed a standardized ``plug-n-play'' package, including 
a destination guide, consisting of marketing, socio-economic and 
lifestyle guides for critical need locations, as well as applicant 
profile tools. OFO recruiters utilize this package to focus efforts on 
recruiting target populations to meet staffing needs. The utilization 
of ``plug-n-play'' packages, unique to each location, ensures 
consistent messaging by OFO recruiter cadre nationwide. Currently, all 
OFO recruiters support the initial focus of recruiting for Southwest 
Border and other hard to fill locations.
    OFO also offers hiring incentives of from 10-33 percent of a new 
employee's base pay per year for 3 years with a signed service 
agreement to fill critical locations along the Northern and Southern 
Borders.
    Since fiscal year 2015, 1,586 CBP Officer applicants have accepted 
a recruitment incentive. Of those that have entered on duty, 92 percent 
remain at the port of entry, beyond the required 3-year period for 
which they received their incentive, highlighting that the use of 
incentives has increased retention at our hard to fill locations.
    CBP expects to end fiscal year 2019 with approximately 24,600 
CBPO's onboard. As of August 3, 2019, in fiscal year 2019, there have 
been 1,623 CBP Officer accessions, resulting in a current onboard of 
24,215.
    Question. What are the total TDY and overtime expenses incurred by 
CBP for fiscal year 2018 in Montana's land ports of entry?
    Answer. In fiscal year 2018, the Area Port of Sweetgrass (under 
which all of Montana's LPOEs and the two LPOEs in northern Idaho fall) 
had a total budget of $1.6 million. Of the $1.6 million total budget, 
$1.3 million was spent on overtime expenses at Montana land ports of 
entry. The remaining $300,000 was spent on overtime expenses at Montana 
general aviation airports, and Idaho land border ports of entry. In 
fiscal year 2018, the Area Port of Sweetgrass also incurred $150,000 in 
TDY expenses.
    Question. Recently, CBP began granting GS-12 and GS-13 Border 
Patrol Agents a 1 year 5 percent retention incentive. CBP is doing this 
under the authority of Executive Order 13767: Border Security and 
Immigration Enforcement Improvements. This retention incentive is part 
of a comprehensive recruitment and retention strategy for the U.S. 
Border Patrol.
    CBP personnel at the ports of entry were omitted from Executive 
Order 13767, despite CBP Officers being subject to extended primary 
shifts and a surge of travelers through U.S. ports of entry. Office of 
Field Operations (OFO) staffing shortages are being filled by temporary 
duty assignments (TDYs).
    Question. Why was this 5 percent retention incentive rewarded to 
Border Patrol Agents only?
    Answer. U.S. Customs and Border Protection (CBP) offers recruitment 
and retention incentives to individuals and groups of employees based 
on assessments of experienced recruitment and retention challenges for 
positions of critical need. CBP's recent decision to offer a retention 
incentive is aimed at reducing Border Patrol Agent attrition while CBP 
continues to recruit, hire and develop new Border Patrol Agents for 
which CBP has a continuing critical need. The 5 percent retention 
incentive is part of a comprehensive recruitment and retention strategy 
for U.S. Border Patrol.
    CBP currently offers recruitment and retention incentives to CBP 
Officers and AMO personnel consistent with challenges and needs for 
each position.
    Question. Why is this incentive granted only to GS-12 frontline and 
GS-13 managers when attrition rates are much higher in the lower pay 
grades?
    Answer. The recently approved Border Patrol Agent retention 
incentive is intended to reduce Border Patrol Agent attrition. An 
analysis of attrition between fiscal years 2015 and 2017 revealed that 
approximately 40 percent of the GS-12 and GS-13 Border Patrol Agents 
that left CBP were potentially eligible for a retention incentive. As a 
result, CBP decided to offer a retention incentive to this group of 
employees.
    Question. Does CBP plan to extend this 5 percent retention 
incentive to overworked and understaffed CBP Officers at the ports of 
entry?
    Answer. CBP offers incentives to individuals and groups of 
employees based on assessments of recruitment and retention challenges 
for positions of critical need, which includes CBP Officers under 
certain circumstances. The recently offered Border Patrol Agent 
retention incentive is intended to address Border Patrol Agent 
attrition.
    There is currently no plan to extend the 5 percent retention 
incentive to CBP Officers. CBP currently offers incentives to CBP 
Officers consistent with recruitment and retention challenges 
experienced for each position that occupation.
    The following incentives are currently being offered to CBP 
Officers:

    Recruitment Incentives--Incentives vary by location but current 
range between 15 percent and 50 percent.

    Relocation Incentives--Incentives vary by location but currently 
range between 33 percent and 50 percent.

                                 ______
                                 

             Questions Submitted by Senator Jeanne Shaheen
    Question. In your testimony you stated that fewer than two cases of 
family separation have happened per day both before and after the 
``Zero Tolerance'' policy was put in place in May and June 2018 and 
that all of those separations were for child safety reasons.
    Not including the 2,814 children identified in the court filings 
for Ms. L v ICE, how many additional children have been separated from 
a family member at the border between January 1, 2017 and May 2, 2019?
    How many of these separations were made for reasons of child 
safety?
    Has DHS signed T or U visa certifications for any of these 
children? If so, how many?
    Answer. Due to system limitations, USCIS is not able to provide a 
definitive response. USCIS conducted a preliminary review of its 
records and identified 96 T and U certifications that had been signed 
by ICE, then manually reviewed 70 of those cases to asses if the 
certification appeared to be for a child who had been separated from a 
family member at the southwest border between January 1, 2017 and May 
2, 2019. Based on that preliminary review of a limited number of cases, 
it does not appear that any of the 96 certifications signed by ICE were 
for children separated at the southwest border during the specified 
time period.
    Question. On what basis did the HHS Inspector General find that 
potentially ``thousands more'' children may have been separated from 
their parents than the number accounted for in Ms. L v ICE?
    Answer. This question is respectfully deferred to the U.S. 
Department of Health and Human Services Inspector General.
    Question. You have expressed concern that children are being used 
by traffickers to gain access to the U.S. As a result, CBP has started 
a DNA program with ICE Homeland Security Investigations to address this 
issue.
    How many individuals have been subjected to DNA testing since this 
program began?
    Answer. During the proof-of-concept phase of Operation Double 
Helix, which was conducted between May 6-10, 2019, U.S. Immigration and 
Customs Enforcement (ICE) Homeland Security Investigations initiated 
the Rapid DNA program in conjunction with ICE Enforcement and Removal 
Operations and CBP.
    Question. How many family relationships have been found to be 
``fraudulent'' as a result of this DNA testing, and what percentage is 
this of total family arrivals during the same time period?
    Answer. Of the 84 family units tested, 16 family units were 
identified as being fraudulent. As of May 2, 2019, aliens belonging to 
a family unit constituted 58.7 percent of the total USBP apprehensions 
between ports of entry along the Southwest Border. The majority were 
apprehended in the El Paso Sector (44.1 percent).
    Question. On what grounds does DHS categorize non-parent family 
relationships as ``fraudulent?''
    Answer. The Rapid DNA technology is only used to identify a parent/
child relationship. It does not determine other types of familial 
relationships. The fraud occurs when adult aliens claim the minor in 
their custody is their biological child.
    Question. I am concerned that there have been substantial staff 
transfers of officers between the Refugee Corps and the Asylum Corps at 
USCIS. I am further concerned that the decrease in the number and 
duration of circuit rides for Refugee Corps officers under this 
Administration have constricted the pipeline of refugees going through 
the necessary vetting and security process to in order to be ready for 
U.S. admission.
    How have these staffing changes impacted the efficient and timely 
processing of refugee security checks?
    Answer. The deployment of International and Refugee Affairs 
Division (IRAD) staff to assist with the Asylum Division's workload has 
not significantly impacted the processing of refugee security checks, 
nor has it impacted the quality and thoroughness of the security 
vetting process for refugees. IRAD is deeply committed to safeguarding 
the American public from threats to public safety and national 
security. While USCIS plays an important role in the security check 
process, its interagency partners handle much of the vetting process. 
For more specific information on the role of USCIS and its partners in 
the security vetting process, see the Refugee Security Screening Fact 
Sheet.
    Question. How many USCIS officers are currently members of the 
Refugee Corps?
    Answer. As of November 23, 2019, the Refugee Corps had 163 refugee 
officers and supervisory refugee officers onboard.
    Question. How many overseas circuit rides has USCIS conducted so 
far this fiscal year and in which locations?
    How many are planned for the remainder of the fiscal year? In which 
locations, and how many Refugee Corps officers will join each one?
    Answer. All circuit rides for fiscal year 2019 have been completed. 
In fiscal year 2019, USCIS conducted over 90 circuit rides. This 
includes trips by both staff within the Refugee Corps and staff 
stationed at USCIS international offices. The charts below depict trip 
locations, dates, and number of staff deployed during those periods.
                          Fiscal Year 2019 Q1
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                          Fiscal Year 2019 Q2
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                          Fiscal Year 2019 Q3
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                          Fiscal Year 2019 Q4
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Question. We currently have a refugee application backlog of more 
than 100,000 Iraqis who have provided critical services to U.S. 
missions abroad and who now face persecution as a result.
    What is DHS doing to increase the number of US-affiliated Iraqis 
who arrive this year and next?
    Answer. USCIS works closely with the Department of State's Bureau 
for Population, Refugees and Migration to determine which locations are 
of highest priority for refugee resettlement interviews. USCIS 
regularly sends refugee officer teams to a variety of locations in the 
Middle East, including Iraq, where they interview Iraqi's who have 
assisted the United States during the conflict (nonimmigrant, P-2) 
among other categories.
    In addition, the Presidential Determination on Refugee Admissions 
for fiscal year 2020 provides for an allocation of 4,000 admissions for 
refugees who are within a category of aliens listed in Section 1243(a) 
of the Refugee Crisis in Iraq Act of 2007, Title XII, Div. A, Public 
Law 110-181, as amended.
    Question. I understand that Security Advisory Opinion (SAO) 
processing delays are in part responsible for the administration's 
failure to even reach half of its 45,000 refugee admissions goal in 
fiscal year 2018.
    What is the average time it takes to process one SAO, and what is 
the current backlog of SAOs awaiting determination?
    Answer. USCIS does not track this information. The Department of 
State manages the initiation of requests for Security Advisory Opinions 
and the tracking of results. USCIS defers to the Department of State.
    Question. Do you have benchmarks or goals for processing times?
    Answer. Refugee status is determined on a case-by-case basis. The 
time required for processing each refugee case varies depending on the 
individualized circumstances and location of the case. The overall 
process generally takes 18-24 months, but in many cases can take 
longer.
    Question. What steps are you taking to ensure security checks are 
being run and re-run in a timely fashion?
    Answer. The Department of State initiates security vetting by 
interagency vetting partners, such as NCTC and FBI on each case and 
ensures that the requests are timely initiated. Certain checks do not 
need to be re-run, because USCIS has recurrent vetting from the 
interagency partners. If USCIS determines that a check needs to be re-
run because it has new or changed information, USCIS immediately 
notifies the Resettlement Support Centers, who request that the check 
be re-run. USCIS defers to its interagency vetting partners to provide 
information on their efforts to timely conduct security vetting.
    Question. How might Congress seek to increase capacity at all 
vetting agencies in order to ensure the U.S. Refugee Admissions Program 
operates in a timely manner, so that this year's and future refugee 
admissions goals can be met?
    Answer. USCIS has sufficient resources to review vetting responses 
and to conduct checks in DHS systems. USCIS defers to the vetting 
agencies to respond to this question as it relates to the vetting they 
conduct as part of the USRAP.
    Question. In the fiscal year 2018 omnibus agreement, the Committee 
funded the Cross Border Tunnel Threat (CBTT) program at $41.95 million, 
a significant increase from the Department's original fiscal year 2018 
budget request of $9 million. As fiscal year 20 consideration begins, 
the Committee continues to focus upon the threat of tunneling activity 
at the Southern border.
    Is the Department prioritizing longer-term ``wall system'' 
acquisition plans over the short term CBTT issue?
    Answer. No. All Border Security issues are being worked 
simultaneously. The CBTT effort and the Border Wall programs are both 
Level 1 acquisition programs that are being managed separately and 
independently to address the specific operational requirements for each 
program.
    Question. Has the Agency identified and prioritized the highest-
risk tunnel threat areas along the southern border and what the total 
number of border miles at risk is for tunneling?
    Answer. The Agency has reviewed and prioritized the highest-risk 
tunnel threat areas along the southern border and will continue to 
evaluate as new deployments are funded.
    Question. Does the Agency have an appropriate timeline established 
for CBTT programs in the remainder of fiscal year 19 and how does this 
timeline compare to the established timeline for a border wall system?
    Answer. Yes. The Program will establish the program of record in 
fiscal year 2019 with initial deployments in the highest threat areas. 
The CBTT effort is not contingent on the border wall system and is 
realized as a threat independent of border wall placement. The two 
efforts are distinct and unrelated, so a comparison of project 
timelines would not yield meaningful results.
    Question. In 2009, DHS altered its procurement practices to reflect 
the Kissell Amendment restrictions that Congress had passed to limit 
DHS's procurement of specific textiles from sources outside of the 
United States. This provision was intended to strengthen the U.S. 
manufacturing base and ensure that items with sensitive national 
security applications were manufactured in the U.S. Unfortunately, the 
Kissell Amendment restriction has affected a limited number of 
procurements and not fully restricted DHS from purchasing textiles from 
foreign sources.
    Do you support the procurement of American-made products at DHS to 
bolster the U.S. manufacturing industrial base and protect our national 
security?
    Answer. DHS has taken several significant steps to ensure American-
made products are purchased consistent with the laws and regulations 
that govern these procurements. The Kissell Amendment (6 U.S.C. 
Sec. 453b) generally requires DHS to procure textile items directly 
related to national security, including uniforms, from domestic 
sources. However, the Kissell Amendment also requires that DHS comply 
with U.S. obligations under various free trade agreements, which 
require foreign competitors receive the same access to certain 
government contracts, including textiles, as domestic contractors. 
Within the confines of these restrictions, DHS supports the procurement 
of American-made products where doing so can be accomplished without 
compromise to the Department's vital missions.
    Question.Can you commit that DHS will take steps to ensure that, to 
the fullest extent possible under current law, it is increasing the 
share of American-made products in its procurements?
    Answer. DHS adheres to Federal Acquisition Regulation (FAR) Part 
25, Foreign Acquisition, which details the application of the Buy 
American Act (BAA) and Trade Agreements Act (TAA), including the dollar 
thresholds at which the TAA supersedes the BAA and nondomestic trading 
partners receive equal treatment with domestic sources. DHS has a 
supplement to the FAR, known as the Homeland Security Acquisition 
Regulation (HSAR), which addresses statutes and other matters unique to 
DHS, such as the Kissell Amendment. The Homeland Security Acquisition 
Manual (HSAM)--DHS's internal acquisition policies and procedures--
implements or supplements requirements of the FAR and HSAR.
    In recognition of the importance and complexity of the BAA and 
associated laws and regulations, DHS has taken several significant 
steps to strengthen its acquisition practices and oversight in this 
area. In December 2017, DHS updated Chapter 3025, Foreign Acquisition 
of the HSAM. The update increases the FAR approval level for BAA 
exceptions from the contracting officer or Head of Contracting Activity 
to the DHS Chief Procurement Officer (CPO) for purchases from a 
nondomestic source when, for instance, domestic sources either are not 
available or are available at an unreasonable cost. Also, the HSAM now 
requires CPO concurrence and Secretary approval of any determination 
that domestic preferences would be inconsistent with the public 
interest. To enhance oversight further, the CPO established the DHS BAA 
reporting tool as the repository for all DHS BAA exceptions requiring 
approval by the CPO.
    Furthermore, to ensure that the DHS acquisition workforce is fully 
aware of the BAA and associated laws and regulations, DHS has created a 
comprehensive training curriculum. The training is mandatory for all 
individuals in the contracting job series. More than 94 percent of the 
DHS contracting workforce completed the training in fiscal year 2018. 
DHS also developed the online training course, ``Buy American Laws 
Awareness Training for Purchase Card Holders and Supervisors.'' The 
training promotes basic awareness of and compliance with BAA laws and 
regulations. The target audience for this training is purchase card 
holders, their supervisors, and other personnel in a noncontracting job 
series.
    As evidenced by the foregoing, DHS has already taken several 
significant steps to ensure American-made products are purchased 
consistent with the laws and regulations that govern these 
procurements.
                             CYBERSECURITY
    Question. Is it reasonable to conclude that Russia is actively 
seeking to influence the 2020 U.S. presidential elections?
    Answer. DHS concurs with the Director of National Intelligence's 
2019 Worldwide Threat Assessment: ``Our adversaries and strategic 
competitors probably are already looking to the 2020 U.S. elections as 
an opportunity to advance their interests . . .  Russia's social media 
efforts will continue to focus on aggravating social and racial 
tensions undermining trust in authorities and criticizing perceived 
anti-Russia politicians. Moscow may employ additional influence 
toolkits--such as spreading disinformation, conducting hack-and-leak 
operations, or manipulating data--in a more targeted fashion to 
influence U.S. policy, actions, and elections.''
    Question. Can you ensure that protecting our election 
infrastructure and democratic processes will be a top priority of 
yours?
    Answer. I am committed to ensuring the Department prioritizes 
election security and continues to prioritize elections, engage our 
partners, and share information on threats and mitigation tactics as we 
head toward the 2020 election cycle.
    Question. Are you concerned that the Kremlin has improved its 
interference tactics since 2016, and how do you plan to harden our 
defenses and institutions against this evolving threat?
    Answer. DHS concurs with the Director of National Intelligence's 
2019 Worldwide Threat Assessment: ``We expect our adversaries and 
strategic competitors to refine their capabilities and add new tactics 
as they learn from each other's experiences, suggestion the threat 
landscape could look very different in 2020 and future elections.''
    DHS's Cybersecurity and Infrastructure Security Agency (CISA) 
offers a variety of cybersecurity services and capabilities to support 
state and local election officials' efforts to secure their systems. We 
recommend they prioritize joining the Election Infrastructure 
Information Sharing and Analysis Center (EI-ISAC), through which they 
can gain access to elections-focused cybersecurity information sharing, 
training, best practices, and incident response capabilities. CISA also 
provides a robust suite of voluntary assessments and other services, 
which are available to state and local governments free of charge. We 
continue to reassess our offerings and incorporate customer feedback to 
increase scalability and effectiveness.
    Question. Can you guarantee that you and your office will 
effectively communicate threats to our election security and democracy 
in 2020 and beyond, directly to the President as well as to Congress 
and the public?
    Answer. Yes, my staff and I are committed to engaging with the 
President, Congress, Federal interagency partners and stakeholders, and 
the public to communicate threats to election security.

                                 ______
                                 

            Questions Submitted by Senator Patrick J. Leahy
    Question. I was disappointed that, in your capacity as CBP 
Commissioner, you failed to provide any responses important written 
questions I submitted to you on December 18, 2018, and March 13, 2019. 
All of those questions are still timely and relevant to your duties as 
the new Acting Secretary of DHS. As Vice Chairman of the Senate 
Appropriations Committee, it is difficult to assess the resource and 
funding needs of our agencies when those agencies fail to answer our 
basic questions.
    Will you commit to answering all of those written questions I 
previously submitted to you on December 18, 2018 and March 13, 2019, in 
addition to the questions below?
    Answer. CBP is earnestly working to reply to all of your inquiries. 
CBP's responses from the prior hearings are in DHS review pending 
clearance for submission to Congress.
    Question. When you appeared before the Appropriations Committee 
last month, I asked about a widely reported episode in Calexico, 
California, where President Trump allegedly offered CBP officials a 
pardon, or a functional equivalent, for engaging in unlawful conduct at 
the border--and suggested that DHS agents should simply ignore judicial 
orders with respect to processing migrants. You didn't answer my 
question, stating that you are not ``comfortable speaking about 
conversations with the President.'' Yet multiple CBP officials, after 
hearing the President's remarks, apparently thought them serious enough 
to seek further advice from their superiors, who instructed them to 
ignore the President's comments and follow the law. Congress needs to 
know how DHS officials respond in the face of unlawful orders. It is 
one of the most critical tests for any government official, and a 
question I routinely ask executive nominees seeking confirmation before 
the Senate.
    Are there any emails, memoranda, guidance, or any other documents 
exchanged between DHS officials or employees that debrief or discuss 
this episode and the President's comments in any fashion?
    If such documents exist, can you please provide copies of any such 
documents to this Committee? If you decline to provide such documents, 
identify the specific legal basis for doing so.
    Answer. Pursuant to longstanding Executive Branch policy across 
administrations of both political parties, we do not comment on 
communications with the President. As I have publicly stated before, 
and as the Department has previously stated in formal communications to 
Congress, I have not been asked to do anything illegal by the President 
or anyone at the White House.
    Question. Multiple reports indicate that President Trump recently 
pressed administration officials to resurrect a new version of family 
separation. At a hearing last week before the Senate Judiciary 
Committee, I asked officials from DHS, CBP, ICE, and HHS whether they 
were aware of plans to reinstate any policy, including so-called 
``binary choice,'' that would have the effect--even if not the primary 
intent--of separating children from their parents. All of them said 
they were not aware of any such plans, under oath.
    In your capacity as Acting Secretary of DHS, overseeing many of the 
officials who testified before the Judiciary Committee last week, are 
you leading, participating in, or aware of any discussions, 
deliberations, or plans of any kind with respect to the possibility of 
reinstating any policy, including so-called ``binary choice,'' that 
would have the effect--even if not the primary intent--of separating 
children from their parents?
    Answer. There is no DHS program--formal or informal--of this 
nature. Pursuant to longstanding policies, we do not discuss internal 
agency deliberations.
    Question. You stated during a recent interview that family 
separation was ``not worth it'' because enforcement initiatives do 
``not work if you lose the public trust.'' This week, The Washington 
Post published a story indicating that, earlier this year, President 
Trump and some of his advisors were seriously considering executing 
``dramatic, highly visible mass arrests'' of immigrant families and 
children in major cities with the ``ultimate purpose'' being a ``show 
of force.'' This plan apparently received stiff resistance from a few 
top officials who believed it would backfire and risk ``public 
outrage.''
    Do you agree that a plan to executive ``highly visible,'' dragnet-
style arrests of families and children would not be ``worth it'' given 
its potential to ``lose the public trust?'' Are you leading, 
participating in, or aware of any discussions, deliberations, or plans 
of any kind with respect to implementing such a plan?
    The Washington Post report also quotes a DHS official stating that 
this mass arrest plan would also be ``misdirecting resources away from 
critical border emergency response operations.'' Do you agree? If not, 
why not?
    Answer. U.S. Immigration and Customs Enforcement (ICE) does not 
conduct indiscriminate operations. ICE focuses its operations across 
the country based on intelligence-driven leads. While ICE does 
concentrate on identifying and removing aliens who pose public safety 
and/or national security threats, ICE also prioritizes removal of 
fugitives and aliens who have illegally re-entered the United States, 
which is a felony.
    By law, ICE is responsible for enforcing the laws passed by 
Congress, including arresting, detaining, and removing aliens who are 
in violation of immigration laws. ICE analyzes each case on an 
individualized basis and does not exempt classes or categories of 
removable aliens from potential enforcement.
    As of June 23, 2019, ICE was holding over 54,000 aliens in custody, 
which was 9,000 above what congressional funding supports. As of June 
23, 2019, book-ins to ICE detention from U.S. Customs and Border 
Protection (CBP) apprehensions increased over 84 percent over the same 
time last fiscal year.
    The record number of CBP apprehensions at the border impact ICE's 
interior enforcement efforts because congressional funding limits the 
number of adult beds available to ICE. Because many recent border 
crossers are subject to mandatory detention under the Immigration and 
Nationality Act, their apprehension leaves limited detention capacity 
for those who are arrested in the interior of the country, including 
those with criminal records, some of whom may also be subject to 
mandatory detention. Additionally, while many cases begin with an 
apprehension at the border, they then continue within the interior of 
the country where aliens litigate their cases on immigration court 
dockets. As a result, the high number of apprehensions at the border 
directly contributes to the growing immigration court backlog, which 
now stands at nearly 900,000 cases.
    Because of ICE's limited detention capacity, most aliens are 
released long before their court cases conclude, and many ultimately 
receive final orders of removal in absentia. If ICE does not locate and 
remove these aliens, this lack of interior enforcement creates another 
pull factor for illegal migration that incentivizes aliens, including 
families with children, to make the dangerous journey to this country, 
and further contributes to existing problems in our immigration system.
    Question. The New York Times Magazine published a story on November 
20, 2017, entitled ``The Coast Guard's `Floating Guantanamos,''' 
reporting that the U.S. Coast Guard (USCG) fails to provide humane 
conditions of detention or access to due process for individuals 
interdicted in international waters and detained on USCG ships. 
Military.com published a follow-up article on January 16, 2018, ``Coast 
Guard Eyes Leasing Civilian Jail Ship to Hold Detainees,'' reporting 
that following The New York Times Magazine article, the Coast Guard was 
considering leasing a civilian jail ship to hold its detainees.
    Approximately how many people interdicted at sea does the USCG 
currently have in its custody?
    Answer. On June 28, 2019, the Coast Guard had 17 suspected narco-
traffickers and 27 migrants onboard USCG cutters at sea, awaiting 
disposition.
    Question. How many people has the USCG interdicted at sea for 
possible criminal or immigration violations since January 1, 2018? How 
many of the people interdicted at sea and detained were ultimately 
charged and prosecuted under U.S. law for criminal or immigration 
violations?
    Answer. The Coast Guard has interdicted 882 suspected narco-
traffickers and 3,122 migrants at sea since January 1, 2018. The 
migrants include those embarked for Safety Of Life At Sea (SOLAS) 
concerns. Individuals suspected of drug trafficking are detained and 
transported only if their case has been accepted for U.S. prosecution, 
or if they are being transferred to a foreign jurisdiction for 
disposition. Individuals who are interdicted and suspected of migration 
violations are transferred to relevant interagency jurisdiction or 
repatriated directly to the source country. We respectfully defer to 
the U.S. Department of Justice, which maintains prosecutorial 
information.
    Question. What is the mean and median length of stay aboard USCG 
vessels for those people who are detained?
    Answer. The average number of days a suspected narco-trafficker 
remains at sea awaiting transport ashore is approximately 16 days. The 
average number of days a migrant interdicted at sea is held awaiting 
transfer ashore is 2 days.
    Question. Does the USCG consider people interdicted and detained 
for possible criminal violations to be under arrest? If so, are the 
detainees read their Miranda rights, appointed lawyers, or allowed to 
contact their families?
    Answer. No. The Coast Guard generally does not interview detainees 
at sea but does provide Miranda rights in the rare instance a detainee 
is interviewed. Detainees are not considered under arrest and are not 
permitted to contact lawyers or their families due to the operational 
security of the cutter.
    Question. Does the USCG have appropriate policies and procedures in 
place to adequately protect the civil rights and civil liberties of 
individuals detained on USCG cutters? Please provide all relevant 
policies and procedures relating to onboard detention.
    Answer. Yes, the Coast Guard has appropriate policies and 
procedures for detainee treatment and management; those policies are 
For Official Use Only. The Coast Guard is available to provide you or 
your staff a briefing on these policies and procedures.
    Question. Where are detainees housed while onboard a USCG vessel? 
Where do they sleep? What sort of bathroom access do they have? How 
many hours per day are detainees typically shackled? What food, medical 
care, and legal access and/or access to telephones to contact lawyers 
or family is provided to detainees? What does the USCG do to ensure 
that detainees receive appropriate religious accommodations, disability 
accommodations, and language access?
    Answer. Detainees are normally housed in a cutter's helicopter 
hanger or other covered area with round-the-clock security teams 
ensuring the safety and security of both the detainees and the vessels 
and crews. Detainees normally sleep where they are housed, in a 
cutter's helicopter hanger or other covered area. Detainees interdicted 
at sea have regular access to toilet and shower facilities. Coast Guard 
policies direct that detainees are restrained throughout their time in 
custody. This is done for the purpose of maintaining the safety and 
security of both the detainees and the U.S. Coast Guard cutter crews. 
Detainees have regular access to the same medical treatment as the 
crew, personal hygiene products, toilet and shower facilities, shelter 
from rain, sun and/or sea spray, and regular meals. Detainees are given 
three meals a day; in accordance with current detainee policy, units 
are recommended to provide the same meals provided to cutter crews or 
law enforcement detachments, as applicable. Detainees are not 
considered under arrest and are not permitted to contact lawyers or 
their families due to the operational security of the cutter. The Coast 
Guard provides detainees the same medical treatment, disability 
considerations, and religious accommodations that are available to the 
Coast Guard crew members on board the responding unit. The Coast Guard 
also provides detainees with regular access to translators and would 
consider reasonable requests for accommodation in other contexts.
    Question. Does the USCG have plans to modify or improve the 
conditions of detention of its detainees, either by acquiring a jail 
ship to hold its detainees, retrofitting current ships to include 
additional detention space, or adding detention space to new ships?
    Answer. The Coast Guard has no plans to retrofit current cutters or 
acquire a jail ship to hold detainees. The newly acquisitioned Offshore 
Patrol Cutter's design includes a small brig for possible detention. 
The Coast Guard is currently conducting a periodic review of its 
principal law enforcement manuals, which will include a review and 
possible modification of detainee holding procedures.

                                 ______
                                 

              Questions Submitted by Senator Patty Murray
    Question. To date, the Department of Homeland Security (DHS) has 
failed to provide the public or Congress critical information regarding 
the details of the Department's past and present actions that resulted 
in, and continue to cause, the separation of children from their 
families. DHS has also failed to provide meaningful information about 
steps that can be taken to ensure that family separation is limited 
only to legitimate circumstances where it is in the best interests of 
the child as defined by child welfare experts, not Customs and Border 
Protection (CBP) officials. I am deeply alarmed by reports from non-
governmental organizations (NGOs) of continued family separation at the 
border and the Department's utter failure to accurately report and 
track separations, its monitoring of family separation protests, and 
its decision to launch a pilot DNA testing program.
    Will DHS again use resources to prosecute all adults crossing the 
border without authorization, including those presenting with a family 
unit, under a zero-tolerance policy?
    Answer. DHS does not conduct criminal prosecutions and defers to 
DOJ on the question of prosecution of adults who cross the border 
without authorization.
    Question. Is CBP currently documenting and reporting all 
separations that occur in CBP (including Border Patrol, Office of Field 
Operations, and other CBP component offices) custody to the appropriate 
staff within Immigration and Customs Enforcement (ICE) and the Office 
of Refugee Resettlement (ORR)? If so, please state the date upon which 
the policy or policies requiring such documentation and reporting 
began. If such policy or policies are not in place, please explain why 
and detail the ways in which CBP and/or DHS are ensuring comprehensive 
record keeping of separations in order to effectuate family reunions.
    Answer. CBP maintains records on family units and has policies on 
recording the reasons when family units are separated. On April 19, 
2018, a systems change was implemented that allows family separations 
to be tracked in CBP's electronic systems of records and ICE has access 
to that information.
    CBP tracks the following reasons for the separation of a family:

  --At the request of ICE ERO;

  --Criminality of Parent/Legal Guardian--Child Safety Concerns;

  --Long Term Medical Emergency--Family Separated;

  --Prosecution of Parent/Legal Guardian.

    When a family unit is separated, the name and A# of the parent(s) 
or legal guardian(s) are sent to ORR on the child's referral. 
Additionally, current guidance is for an agent to go in and mark a 
``checkbox'' in ORR's UAC Portal that the child was separated from 
their parent or legal guardian.
    When USBP determines that individuals who had claimed to be a 
family unit do not meet the definition of a family unit, the 
information is not reported to ICE and ORR because they are not a 
family unit.
    Question. What processes and standards are in place for CBP and ICE 
to track separations in coordination with ORR? Within the tracking 
system, please state whether CBP is presently documenting: (1) every 
instance of family separation; (2) detailed reason(s) for each 
separation, including specific criminal history information if such 
information was the grounds for separation; and (3) location and 
contact information for the child and parent(s) to ensure timely 
communication.
    Answer. CBP tracks the following reasons for the separation of a 
family:

  --At the request of ICE ERO,

  --Criminality of Parent/Legal Guardian--Child Safety Concerns,

  --Long Term Medical Emergency--Family Separated,

  --Prosecution of Parent/Legal Guardian.

    When CBP encounters an alien family unit (consisting of either one 
or two aliens parents/legal guardians and his/her/their alien minor 
child), CBP will not separate the child from either parent/legal 
guardian unless the specific criteria provided in CBP's June 27, 2018 
Interim Guidance on Preliminary Injunction in Ms. L v. ICE are met. 
With the appropriate approvals, CBP officers can separate where a 
parent/legal guardian is being referred for a felony prosecution, the 
parent/legal guardian is unfit or presents a danger to the child, the 
parent/legal guardian has a criminal conviction(s) for felonies or 
violent misdemeanors, the parent/legal guardian has a communicable 
disease, or CBP determines that the familial relationship is not bona 
fide. Additionally, CBP will not separate two-parent families unless 
both adults meet the criteria to require separation from the 
child(ren).
    In instances where a separation is warranted, a CBP OFO senior 
manager (GS-14 or above) must be notified, approve the separation, and 
contact the Immigration and Customs Enforcement/Enforcement Removal 
Operations (ICE ERO) local juvenile coordinator. Approval and 
notification cannot be delegated below an OFO senior manager (GS-14). 
Additionally, the Office of Chief Counsel is generally brought in to 
provide guidance.
    When a separation of a family unit is approved:

  --The CBP Manager who approved the family separation notifies the ICE 
        ERO Juvenile Coordinator; the notification cannot be delegated 
        to a lower level manager.

  --Form I-213 (Record of Deportable/Inadmissible Alien) must be 
        annotated with the reasons for the family separation, and 
        identifiable information (e.g. A-number, name) of the 
        accompanying parent or legal guardian who was separated.

  --Upon determination that a child is a UAC and does not meet the 
        criteria to voluntarily withdraw their application for 
        admission (e.g., if from a contiguous country, able to make an 
        independent decision, not a victim of a severe form of 
        trafficking, and no fear of return), a referral for placement 
        is made by notification to both the ICE ERO/Field Office 
        Juvenile Coordinator (FOJC) and to Department of Health and 
        Human Services' (HHS) Office of Refugee Resettlement (ORR).

    Inspecting officers annotate a field within the system of records, 
indicating the child(ren) are now unaccompanied and in need of 
placement. This opens a portal to transfer and enter information for 
HHS ORR's use in finding appropriate placement for the Unaccompanied 
Alien Children (UAC); or if the portal is not available, a notification 
worksheet is forwarded with the placement information. The electronic 
system of record or an e-mail of the notification worksheet, is used to 
notify the ERO Field Office Juvenile Coordinator that a UAC has been 
identified and is being placed with HHS.
    The June 2018 Interim Guidance on Preliminary injunction in Ms. L. 
v. ICE applies to US Border Patrol Agents in the same fashion. With the 
approval of a Watch Commander or higher ranking management official, 
the separation of a parent/legal guardian is captured in the electronic 
system of record. The reason(s) for separation, name of the official 
authorizing separation and the processing disposition are annotated in 
the system of record.
    Current USBP guidance is for an agent to go in and mark a 
``checkbox'' in ORR's UAC portal that the child was separated from 
their parent. USBP does not supply ORR was the specific criminal 
history if such information was the grounds for separation. USBP 
provides the Name and A# of the parent to ORR.
    Question. How many children have been separated by CBP from their 
parent or guardian in fiscal year 2019? What are the reasons for 
separation in each instance?
    Answer. For fiscal year 2019, through April, 550 children. Each 
case of separation is unique. The most common reasons include:

  --referral for prosecution for a felony

  --is unfit or presents a danger to the child

  --has criminal conviction(s) for violent misdemeanors or felonies

  --has a communicable disease

  --has an urgent medical need that is not a communicable disease

    Question. Why does DHS consider protest planning a threat? Does DHS 
currently track or monitor protests? If not, when did the practice 
stop?
    Answer. U.S. Immigration and Customs Enforcement (ICE) does not 
consider the planning process of protest activities a threat, absent 
specific information indicating a threat. Public interest in protesting 
ICE facilities and personnel has been on the rise recently. While the 
vast majority have been peaceful expressions of individuals' First 
Amendment rights, there were some protestors or protest groups that 
advocated violence against the agency, its employees, operations, 
equipment, and facilities. In several instances, an ICE facility was 
shot at, buildings were unlawfully entered or occupied, employees' 
access blocked, vehicles vandalized, and employees harassed. At ICE, we 
view protests and demonstrations through a force protection lens, with 
a focus towards ensuring the safety and security of our employees, 
facilities, and operations. We also work with our law enforcement 
partners to simultaneously enable individuals who seek to protest, to 
safely do so within the bounds of their First Amendment rights.
    ICE has a responsibility, in coordination with the Federal 
Protective Service, to ensure the safety and security of its employees, 
facilities, and operations, while simultaneously enabling individuals 
who seek to protest to safely do so within the bounds of their First 
Amendment rights. Consequently, upon receipt of information regarding a 
potential protest or any other activity that could impact the safety 
and security of ICE employees, facilities, or operations, that 
information is shared with the locations that may be impacted by such 
activities to ensure situational awareness for affected personnel, 
facilitate coordination with other law enforcement organizations, if 
appropriate, and mitigate potential risks to employee safety and 
Federal or personnel property.
    Question. In fiscal year 2018 and fiscal year 2019, how much money 
did DHS spend on tracking or monitoring protests?
    Answer. The Department does not collect spending data on tracking 
or monitoring protests. Designated ICE employees, as part of the normal 
course of their official duties, have the responsibility to ensure the 
safety and security of its employees, facilities, and operations. 
Because this work is part of the normal course of daily official 
business, there is no cost estimate of expenses specifically tied to 
monitoring protests.
    Question. Under your watch, CBP worked with Mexican authorities at 
the end of 2018 to monitor and harass journalists, attorneys, and 
advocates.
    Do you consider this a violation of the First Amendment?
    Answer. CBP does not target journalists for inspection based on 
their occupation or their reporting. Furthermore, CBP, and more broadly 
DHS does not target, discriminate, or profile any individual solely for 
exercising his or her rights under the First Amendment. In fact, the 
Acting Secretary underscored this to the DHS workforce in a memorandum 
I recently signed on May 17, 2019 regarding First Amendment Protected 
Activities.
    Question. Is CBP still tracking journalists? If so, why?
    Answer. CBP is currently conducting an internal investigation 
determine if and how the alleged harassment occurred. CBP does not have 
a policy of tracking any individual based on the individual's 
employment or employer. CBP does not have a policy of tracking any 
individual based on the individual's employment or employer.
                              dna testing
    Question. Why is it necessary for DHS to use DNA testing to 
ascertain parental relationships?
    Answer. Since early 2018, the Department of Homeland Security (DHS) 
has been responding to an illegal immigration crisis at the Southwest 
Border (SWB). In fiscal year 2019, U.S. Customs and Border Protection 
(CBP) apprehended a record of 473,000 family unit aliens illegally 
crossing the SWB.\1\ The nearly 350 percent increase over the fiscal 
year 2018 record apprehension of 107,212 family units is due to the 
Flores Settlement Agreement (FSA) and its interpretation by the courts. 
In general, the FSA prohibits DHS from detaining unaccompanied minors 
longer than 20 days. Further interpretation of the FSA has expanded to 
include minors accompanied by their parents. Most aliens detained as 
part of a family unit are released quickly, which serves as a powerful 
incentive for adults to enter the United States with minor children who 
may not be related to the accompanying adult. Consequently, there has 
been an increase in fraudulent family relationship claims. The fraud 
scheme involves adult aliens utilizing unrelated minors to pose as a 
family unit (defined as alien parent/legal guardian and his or her 
minor alien child) to secure their release into the interior of the 
United States. This fraudulent activity undermines the integrity of the 
immigration system, provides incentive to those who might seek to game 
the system, contributes to the growing population of unauthorized 
aliens in the United States who do not have lawful status, and provides 
a fertile ground for child exploitation. To address this vulnerability 
and restore integrity to the immigration system, U.S. Immigration and 
Customs Enforcement (ICE) Homeland Security Investigations (HSI), in 
partnership with ICE Enforcement and Removal Operations (ERO) and CBP, 
initiated Operation Double Helix, which uses Rapid DNA technology to 
identify fraudulent familial relationships claimed by aliens who enter 
the United States. Operation Double Helix utilizes Rapid DNA testing as 
a tool to combat transnational criminal organizations that are using 
children to advance their criminal schemes. Rapid DNA testing aids in 
identifying children being used in human smuggling schemes and removing 
children from these potentially dangerous situations.
---------------------------------------------------------------------------
    \1\ U.S. Border Patrol SWB Apprehensions fiscal year 2019. Family 
unit represents the number of individuals (either a child under 18 
years old, parent, or legal guardian) deemed inadmissible with a family 
member.
---------------------------------------------------------------------------
    Question. Is there any evidence that parental relationships cannot 
be determined through other means, such as documentary evidence?
    Answer. The best available method to verify a biological parent/
child relationship is through DNA testing. There are documents (e.g. 
birth certificates and/or letters) provided by the alien that may 
indicate a parent/child relationship; however, DHS personnel have 
routinely encountered fraudulent family units in possession of false or 
doctored documents or impostors to genuine documents, both of which 
purport the individuals to be a legitimate family. An additional 
concern are fraudulent family units that obtain genuine birth 
certificates via corrupt officials in their home country. Often these 
documents require analysis from forensic examiners or document experts, 
along with interviewing to identify whether a family unit is 
fraudulent. In contrast, Rapid DNA testing returns results in 
approximately 90 minutes. The availability to DHS personnel of an 
efficient, less time-intensive investigative tool will assist in 
alleviating the significant strain on border security resources engaged 
in combatting family unit fraud and associated criminal activity, such 
as human smuggling and fraudulent documents.
    Question. In what percentage of cases involving asylum seekers with 
children does DHS anticipate using DNA testing?
    Answer. DHS uses Rapid DNA testing as an investigative tool. 
Therefore, there is no set percentage of planned tests. If other 
investigative techniques identify a family unit as potentially 
fraudulent, Rapid DNA testing will be used regardless if there is a 
claim of asylum.
    Question. What is the anticipated cost of DNA testing under the 
Department's intended usage policy?
    Answer. The proposed cost to DHS for the equipment, consumables, 
and contractor support to conduct the Rapid DNA testing varies greatly 
by vendor. At this time, DHS anticipates the cost to implement Rapid 
DNA testing over a 10-month period to be at least $5,282,500. However, 
this figure only takes into account the cost of the Rapid DNA testing 
vendor, not the requisite DHS personnel, facilities, or equipment for 
DHS to properly execute Operation Double Helix at the selected 
locations.
    Question. What criteria and decisionmaking process are DHS using to 
single out asylum seekers for DNA testing?
    Answer. DHS does not single out anyone for testing. DHS will 
evaluate evidence and factors that raise suspicion of a potential 
fraudulent claim, then the parent/child will be asked to consent to 
Rapid DNA testing. This evidence will be based on various investigative 
techniques, including interviews, document review, and received law 
enforcement intelligence.
    Question. After making a determination that DNA material is 
desired, by what process is it obtained from the individual to be 
analyzed?
    Answer. Once a suspected fraudulent family unit has been identified 
for testing, DHS requests consent from the claimed parent(s) to test 
both members of the claimed family unit. DHS personnel then utilize 
buccal swabs to capture sample DNA from the cheeks of the claimed 
parent and child. Each swab is then transferred into a cartridge and 
placed into the Rapid DNA machine for comparison.
    Question. Do safeguards exist to make sure that any DNA samples 
will be destroyed immediately after testing and not shared with other 
government agencies? If so, please detail these safeguards. If not, why 
not?
    Answer. Yes, safeguards exist to make sure DNA samples are 
destroyed immediately after testing and are not shared with other 
government agencies. As per the Department's request to potential 
contractors for this pilot, all DNA material is corrupted after a 
single use and any DNA profiles captured are purged daily. 
Additionally, all used swabs and cartridges are removed and burned to 
ensure complete destruction of any remaining DNA materials.
    Question. What recourse is there for asylum seekers when DNA 
testing will not show a biological relationship, but a familial 
relationship still exists--e.g., in the case of adopted children, or if 
a father of a child does not know he is not a biological parent? How 
will DHS account for such relationships?
    Answer. For all suspected fraudulent families, if the Rapid DNA 
testing does not reveal a direct parent/child relationship, it is 
incumbent upon the parent or legal guardian to provide legitimate 
documentation identifying he or she as the parent or legal guardian of 
that child. For example, when an individual is unaware he is not the 
biological father of a child, further investigation will be needed to 
verify his claim.
    DHS intends Rapid DNA testing to be applied to claimed family units 
in which a biological parent-child relationship can be verified through 
DNA testing. Upon ICE HSI review of all investigative information or 
facts, and once the family unit has been determined to be fraudulent or 
not, ICE ERO will process them accordingly per DHS policy. Upon 
determination a family unit does not exist, those determined to be 
single adult individuals would be referred to detention in an ICE 
facility designed for adults, and children generally would be referred 
to the U.S. Department of Health and Human Services Office of Refugee 
Resettlement.
    Question. What safeguards and appeals processes exist to ensure 
that the DNA test is not dispositive as to a familial relationship, 
particularly in cases of non-biological family relationships?
    Answer. In the case of a non-biological parent or a legal guardian, 
CBP and ICE work with the Consulates to verify documentation or other 
evidence provided to establish the claimed relationship.
    Question. Do you plan to extend the DNA testing pilot or enter a 
formal rulemaking process?
    Answer. DHS has implemented phase two of Operation Double Helix. 
This phase began in July 2019 and is currently being conducted at seven 
locations along the SWB.
    Question. Due to the astronomical costs associated with detention, 
it is imperative that ICE utilize, with increasing frequency, on 
alternatives to detention (ATD) that save taxpayer funds and allow 
undocumented immigrant to live in more humane conditions during 
immigration case processing. I am disappointed that the Department 
appears to be using ATD to merely supplement and not supplant 
detention, which should be the true intention of the program. Further, 
I am worried by the growing reliance on ankle monitors, which shackle 
individuals and implement onerous reporting requirements, while the 
Department's own data on the Family Case Management Program (FCMP) 
pilot showed that the case management model demonstrated 99 percent 
compliance, humane support for families, and high levels of cost-
efficiency as compared to detention. Congress specifically appropriates 
funds for alternatives to detention as an important cost-saving and 
humanitarian measure--it is essential that ICE treat detention as 
appropriate only in the most compelling cases and when no appropriate 
ATD options are available.
    You stated during the hearing that alternatives to detention 
absconder rates are 25 to 30 percent in fiscal year 2018 and fiscal 
year 2019. Please provide the underlying data for these figures as well 
as the following information: (1) how many individuals have been de-
escalated to ATD in fiscal year 2018 and fiscal year 2019? How many 
have been escalated out of ATD in fiscal year 2018 and fiscal year 
2019?
    Answer. There were 68,609 Alternatives to Detention (ATD) 
enrollments in fiscal year 2018. Of these, 57,222 (83.4 percent) were 
de-escalated from detention to ATD. There were 71,481 ATD enrollments 
through May 2019. Of these, 50,059 (70.0 percent) were de-escalated 
from detention to ATD.\2\
---------------------------------------------------------------------------
    \2\ IIDS data as of June 4, 2019; EID data through June 1, 2019; 
ATD data from BI Inc. Participants Report, May 30, 2019.
---------------------------------------------------------------------------
    As of June 4, 2019 \3\, the absconder rate \4\ for family units 
stands at 26.3 percent, significantly higher than the 11.8 percent 
absconder rate for non-family unit participants, demonstrating the 
growing challenges such enrollments create for immigration enforcement 
and the need for ATD to be appropriately resourced in order to support 
additional participants. Additionally, the fiscal year 2018 absconder 
rate was 27.4 percent for family units and 16.0 percent for non-family 
unit participants.
---------------------------------------------------------------------------
    \3\ As of June 30, 2019.
    \4\ Absconder Rate = Count of Absconders/Count of Terminations.
---------------------------------------------------------------------------
    There were 50,241 ATD terminations in fiscal year 2018. Of these, 
2,571 (5.1 percent) were escalated to a detention facility. There were 
59,315 ATD terminations in fiscal year 2019, through May 2019. Of 
these, 1,428 (2.4 percent) were escalated to a detention facility.\5\
---------------------------------------------------------------------------
    \5\ IIDS data as of June 4, 2019; EID data through June 1, 2019; 
ATD data from BI Inc. Participants Report, May 30, 2019.
---------------------------------------------------------------------------
    Question. How many individuals are currently enrolled in ATD 
programs, as broken down by type of ATD and point of apprehension (e.g. 
interior vs. border)?
    Answer. As of May 31, 2019, there were 101,991 active participants 
in ATD. Of these, 74,482 (73.0 percent) were Southwest Border 
initiative enrollments and 27,509 (27.0 percent) were interior 
enrollments.
    Question. For fiscal year 2018 and fiscal year 2019, please provide 
the breakdown for how many private vs. nonprofit ATD service provider 
contracts exist, including the number of individuals subject to ATD 
covered by each category.
    Answer. There are no nonprofit services currently being performed 
under the ATD program.
    Question. What efforts is DHS making to ensure compliance with 
internationally-accepted standards, including the Office of the United 
Nations High Commissioner for Refugee's detention guidelines?
    Answer. The United Nations High Commissioner for Refugees (UNHCR) 
provides general guidelines on the applicable criteria and standards 
relating to the detention of asylum-seekers and alternatives to 
detention. UNHCR's fourth guideline cites that, ``detention must not be 
arbitrary, and any decision to detain must be based on an assessment of 
the individual's particular circumstance.'' While the Department does 
not exempt classes or categories of removable aliens from potential 
enforcement, DHS officers may exercise prosecutorial discretion in 
appropriate cases after considering the totality of circumstances the 
alien presents (which may include the type and severity of criminal 
conduct, flight risk, availability of detention resources, and other 
case-specific factors). The Department continues to utilize non-
detained case management strategies such as Alternatives to Detention 
(ATD)--a flight-mitigation tool that uses technology and case 
management to monitor aliens' court appearances and compliance with 
release conditions while they are on the non-detained immigration court 
docket.
    In addition, the Department periodically reviews detention 
standards as seen with the recent review and revision of U.S. 
Immigration and Customs Enforcement's (ICE) National Detention 
Standards (NDS) 2019. Revisions in the NDS 2019 ensure that detained 
migrants are held in regulated facilities that allow ICE to enforce 
immigration laws in a humane and effective manner, consistent with 
UNHCR's 8th guideline, ``conditions of detention must be humane and 
dignified.''
    Question. NGOs are reporting consistent belittling of participants 
by Intensive Supervision Appearance Program (ISAP) officers and 
arbitrary reporting guidelines--what guidelines and oversight is the 
Department conducting to ensure that ISAP contractors carry out 
programs in a humane and standard manner?
    Answer. U.S. Immigration Customs Enforcement (ICE) makes a 
determination on case management levels and technology assignment based 
upon an individualized case review, taking into account numerous 
factors to include, but not limited to, current immigration status, 
criminal history, compliance history, community or family ties, being a 
caregiver or provider, and other humanitarian or medical conditions. 
Typical participants are assigned higher levels until they are able to 
demonstrate compliance with release conditions. Factors considered may 
include, but are not limited to, hearing appearances, attending 
scheduled appointments, and assistance with obtaining travel documents. 
As the participant's case progresses through court, recurring case 
reviews are conducted to ensure that the most appropriate levels of 
case management and technology are assigned to improve compliance, 
while still achieving compliance with release conditions.
    If an ATD participant has an issue with the ICE ATD officer or 
contractor, they may file a grievance with the Inspector General or the 
ICE Enforcement and Removal Operations Field Office Director. Specific 
requirements related to grievances are contained in the contract.
    Question. Knowing that the FCMP pilot showed 99 percent compliance 
at a tenth of the cost of traditional detention, what efforts and 
reforms is DHS making to ATD programs to improve compliance and reduce 
out-of-control detention costs?
    Answer. ATD uses case management and technology to more closely 
monitor a small segment of aliens assigned to the non-detained docket. 
Through ATD, ICE can more closely monitor court appearances and 
compliance with office visits, home visits, and other appointments of 
those on the non-detained docket, while an individual is enrolled in 
the ATD program. However, the current funding would only allow for 
about 3 percent of those assigned to the non-detained docket to be 
enrolled in the ATD Program.
    The ATD program is not a substitute for detention. The only 
effective means for ICE to ensure an alien appears for all court 
hearings and departs from the United States upon issuance of a final 
order of removal is through the use of detention. Any alien who is not 
detained poses a potential flight risk, and while the use of ATD may 
help mitigate some of the risk, or rather provide useful/critical 
information to assist with locating an individual if he or she 
absconds, ATD cannot provide any assurances that the alien will be 
located and ultimately removed. In short, detention is the only method 
that ensures a 100 percent compliance rate with court obligations and 
an Immigration Judge's (IJ) removal order.
    Given the cost associated with detention, congressionally-mandated 
funding limitations, and other limitations imposed by courts, ICE is 
only able to detain a fraction of those whose cases are pending before 
the immigration courts. As of June 2019, there were more than 3 million 
aliens on ICE's overall non-detained docket, including more than 1 
million who have already been issued a final order of removal by an IJ, 
and only 53,000 aliens in detention. Additionally, of the more than 3 
million aliens on the non-detained docket, just over 100,000 are 
enrolled in ATD.
    To improve compliance with immigration laws, ICE needs sufficient 
detention and ATD resources to better supervise aliens throughout their 
removal proceedings. Under current ICE deployment of ATD, participants 
are frequently removed from the program before their first immigration 
hearing. Although this policy provides ICE with the ability to track 
more individuals, having participants cycle through the program prior 
to any significant developments in an individual's immigration case 
makes it extremely difficult to assess the real effectiveness of the 
ATD program. Of note, in fiscal year 2019 through July, 173,091 
individuals participated in the ATD program, yet only 46,908 hearings 
were attended (thru April 2019). Indeed, while enrolled in the ATD 
program, a large number of participants comply with the requirements, 
attend scheduled hearings and office visits, submit to home visits, 
etc. However, since there are so few court hearings scheduled during 
the time of enrollment, there is very little likelihood of an 
immigration court reaching a final disposition during the normal period 
of enrollment. Thus, the compliance rates during this very early stage 
of the process are high but may not be reflective of participation 
through the full process.
    ICE has significantly expanded its use of ATD from approximately 
23,000 participants in fiscal year 2014 to more than 100,000 in fiscal 
year 2019. This expansion has come with a number of challenges, 
including particularly high levels of absconders among recently 
enrolled family units. In fiscal year 2019, as of April 30, 2019, the 
absconder rate for family units stands at 26 percent, significantly 
higher than the 12.2 percent absconder rate for non-family unit 
participants.
    Any individual not detained, whether they are assigned to ATD or 
simply released with no formal monitoring at all, can abscond at any 
time. This can occur immediately upon release or 5 years later, once 
the immigration judge makes a final decision in their case. Given that 
there is no additional penalty for individuals who abscond, and no 
reward or benefit for those who elect to comply with the IJ decision, 
there is very little incentive for individuals assigned to the non-
detained docket to ever comply with the judge's removal order. Finally, 
detained cases receive much greater priority and generally take only 
about 30 days to complete, compared to several years to complete for 
those aliens who are not detained. When costs are compared over time 
rather than per day, detention can be less expensive than ATD due to 
the vastly differing case processing timelines, as well as additional 
costs associated with locating ATD absconders.
    Question. I am concerned by reports of a proposed notice to 
drastically expand expedited removal (ER) procedures to the entire 
U.S., rather than the current 100-mile border zone, and to require 
proof of 2 years of continuous stay.
    Is it true that the Department is contemplating or planning 
issuance of a notice to expand ER to the entire U.S. and people who 
cannot demonstrate 2 years' continuous presence?
    Answer. The Department of Homeland Security (DHS) published a 
Notice in the Federal Register on July 23, 2019, Designating Aliens for 
Expedited Removal, enabling DHS to exercise the full scope of its 
statutory authority. 84 Fed. Reg. 34509. Congress granted the Secretary 
of Homeland Security discretion for expedited removal in certain 
circumstances. Under section 235(b)(1) of the Immigration and 
Nationality Act (INA), 8 U.S.C. 1225(b)(1), DHS may remove, without a 
hearing before an immigration judge, aliens arriving in the United 
States at a port of entry, and certain other aliens (as designated by 
the Secretary of Homeland Security), who are inadmissible under 
sections 212(a)(6)(C) or 212(a)(7) of the INA, 8 U.S.C. 1182(a)(6)(C) 
or 1182(a)(7). Sections 212(a)(6)(C) and 212(a)(7) of the INA designate 
aliens as inadmissible if they lack valid documents that are necessary 
for admission or if they have by fraud or willful misrepresentation of 
a material fact, sought to procure a visa, other documentation, or 
admission into the U.S. or other benefit under the INA. ``Certain other 
aliens'' include those who have not been admitted or paroled, and who 
cannot show that they have been in the United States continuously for 
the prior 2 years.
    Until the recent designation, DHS had exercised its discretion 
under the INA to limit expedited removal proceedings to aliens who were 
encountered by an immigration officer within 100 air miles of the 
United States international land border and 14 days of entry, and 
aliens who arrived in the United States by sea. The INA grants the 
Secretary the ``sole and unreviewable discretion'' to modify this scope 
at any time in his or her discretion under INA 
Sec. 235(b)(1)(A)(iii)(I), 8 U.S.C. 1225(b)(1)(A)(iii)(I); 8 CFR 
235.3(b)(1)(ii).
    Question. Are you aware of the numerous reports of rights 
violations and other problems with expedited removal over the years, 
including but not limited to wrongful deportations of U.S. citizens, 
failures by CBP or other DHS component personnel to ask about fear or 
refer asylum seekers for credible fear interviews, false and inaccurate 
expedited removal forms completed by immigration officers?
    Answer. CBP is aware of these reports. Each day, CBP officers and 
agents work to enforce the Nation's immigration laws thoroughly and 
impartially. We will continue to pursue our mission to secure the 
Nation while facilitating lawful trade and travel to the best of our 
ability and in accordance with all statutory and legislative 
requirements each and every day while respecting the civil rights and 
civil liberties of each person with whom we come in contact.
    Question. If an expanded ER policy is implemented, what safeguards 
will be put in place to prevent these abuses and mistakes from 
occurring?
    Answer. Safeguards are outlined in the credible fear determination 
regulations of 8 CFR 208.30 and 1208.30, and the expedited removal 
regulations of 8 CFR 235.3(b) and 1235.3(b).
    Question. Over the past several months, the Trump Administration 
has repeatedly floated the idea a plan for CBP officers to conduct 
credible fear interviews. This move directly undermines the existing ER 
provisions guaranteeing individuals interviews with trained USCIS 
asylum officers. Under the April 29 Presidential Memorandum, it was 
announced that DHS will ``reprioritize the assignment of immigration . 
. . to improve the integrity of adjudications of credible and 
reasonable fear claims.''
    Is it true that, pursuant to this memorandum, DHS plans to reassign 
CBP officers to conduct credible fear interviews?
    Answer. USBP's Credible Fear (CF) Pilot Program intends to train up 
to 60 non-bargaining unit Border Patrol Agents to perform credible fear 
interviews under USCIS authority and supervision. As of 10/15/19, 54 
agents are participating in the CF Pilot Program. The CF Pilot Program 
is a temporary Task Force position and is not a formal detail or 
permanent reassignment.
    Question. What percentage of credible fear interviews are now 
conducted by CBP officers? What percentage of these interviews does DHS 
intend for CBP to officers to fulfill moving forward?
    Answer. CBP officers at ports of entry are not currently conducting 
credible fear interviews, as defined by Section 235(b)(1)(B) of the 
INA, 8 CFR 235.3(b)(4), and 8 CFR 208.30. Between June 5, 2019 and 
October 24, 2019, USBP agents completed approximately 5 percent of all 
credible fear determinations.
    USCIS does not have a specific numerical goal and will continue to 
assign Border Patrol Agents to conduct credible fear interviews 
depending on availability and operational needs.
    USCIS plans to train additional USBP agents to conduct credible 
fear interviews. USCIS and CBP have not definitively determined an 
exact number of USBP agents to be trained this fiscal year. However, 
USCIS has committed to training one class of approximately 25 USBP 
agents in fiscal year 2020 Q1 and anticipates training an additional 
class in fiscal year 2020 Q2. These trainings and deployment of 
additional USBP agents are designed to replace the existing 57 USBP 
agents participating in the pilot as their temporary duty assignments 
end and they return to their duty stations.
    Question. Has DHS or any of its subcomponents tested the 
performance and accuracy of CBP officers who have been reassigned to 
perform credible fear interviews? If so, what were the results of those 
analyses?
    Answer. DHS has not yet fully evaluated the Border Patrol Agent 
credible fear screening pilot, but has taken steps to ensure that BPAs 
perform as well as other USCIS Asylum Officers.
    During Face-to-Face and On-the-Job-Training (OJT), Agents 
conducting credible fear interviews are observed by Supervisory Asylum 
Officers and/or Senior Asylum Officers. During OJT, trainers and 
supervisors in each asylum office determine when Agents are ready to 
interview un-observed. The amount of time varies by Agent. OJT includes 
an orientation on local procedures, refreshers on security checks and 
the case management system, interview observations, and observed 
interviews. Agents also receive in-person refresher trainings, 
including updates to credible fear-related laws and policies. Both 
Border Patrol Agents and newly-trained USCIS asylum officers receive 
post-training mentorship and additional training support.
    Question. When do you anticipate implementing the change and in 
what locations?
    Answer. This change has already been implemented. The Credible Fear 
(CF) Pilot Program is a temporary Task Force position and is not a 
formal detail or permanent reassignment. Trained Border Patrol Agents 
worked at the direction of USCIS personnel. As of November 12, 2019, 44 
Border Patrol Agents remain in the Credible Fear Pilot Program. Agents 
have the ability to conduct interviews telephonically from various 
sectors. The applicant may be anywhere in the country and work is 
assigned by USCIS. All BPAs in the CF programs conduct telephonic 
interviews. They may conduct these interviews from their home sector 
and/or station. USCIS can ask for BPAs to be located in another 
facility to conduct interviews.
    Border Patrol Agents participating in the Credible Fear Pilot 
Program are trained by USCIS personnel to USCIS standards. The total 
duration of in-house training is conducted at the agent's respective 
locales and consists of a 5-week (200 hours) training course. The 
course follows applicable USCIS lesson plans and includes:

  --2 weeks (72 hours) for agents to read the 30+ training modules and 
        view webinars at their duty station on official time prior to 
        traveling to the in-person portion of the course in Anaheim;

  --6 days (48 hours) of lecture and discussion on the content of the 
        training modules; and

  --2 weeks (80 hours) of interview observations, decisionmaking 
        practicums, and ramp up to conducting CF screenings.

    Question. What additional training will CBP officers receive to 
conduct such interviews? How much will additional training cost?
    Answer. After approximately 80 hours of distance training and 120 
hours of face to face training, BPAs receive post-training mentorship 
and additional training support similar to newly trained asylum 
officers. This includes OJT led by the asylum office to which the agent 
is assigned. OJT includes an orientation on local procedures, 
refreshers on security checks and the case management system, interview 
observations, and observed interviews.
    All interviewing USBP agents also receive additional training for 
conducting family unit interviews. Family unit interviewing procedures 
differ from those followed for single adults. They also more often 
require interviewing children and interacting with attorneys or 
consultants. Accordingly, additional training includes information on 
the unique procedures associated with interviewing family units and 
guidance on interviewing children and working with consultants.
    Before USBP agents began interviewing at the South Texas Family 
Residential Center in Dilley, TX, the Asylum Division provided a live 
training with updated information on the following topics:

  --Credible Fear Family Processing Procedures

  --Third-Country Transit Interim Final Rule (``Asylum Eligibility and 
        Procedural Modifications'' under 8 C.F.R. Sec. 208.13(c)(4))

  --``Reasonable Possibility'' Standard

  --Child-Sensitive Interviewing Techniques

  --Working with Consultants

    The specific hours, courses, and format of training are subject to 
change as USCIS always seeks to improve and streamline the training 
process.
    The additional training that has been provided to USBP agents is 
part of the Asylum Division's normal training plans to provide ongoing 
training to interviewing officers to ensure they are up-to-date on the 
relevant law, policy, and country conditions necessary to perform their 
assigned duties. USCIS has not calculated the specific financial cost 
associated with providing additional training to Border Patrol Agents.
    Question. What oversight exists to ensure that interviews conducted 
by CBP officers are non-adversarial?
    Answer. All CF interviews being performed by USBP personnel 
involved in the CF Pilot Program have 100 percent USCIS Supervisory 
Asylum Officer review.
    Question. The DHS OIG's January 2019 report8 outlined that ICE is 
failing to use contracting tools to hold facility contractors 
accountable to detention performance standards. I continue to be deeply 
concerned by ICE's excessive use of waivers to allow immigration 
detention facilities to ignore these critical Federal standards rather 
than improve conditions.
    As of May 1, 2019, how many waivers has ICE granted to facility 
contractors regarding detention performance standards?
    Answer. Between January 1, 2011 and May 1, 2019, U.S. Immigration 
and Customs Enforcement (ICE) granted a total of 211 waivers. As of 
November 7, 2019, 175 waivers remain active.
    ICE is currently in the process of updating its National Detention 
Standards (NDS), issued in 2000 and with which 142 facilities are 
contractually bound to comply as of the date of this response. Those 
facilities comprise nearly 70 percent of the waiver requests ICE 
receives. The revised standards, referred to as the NDS 2019, will 
apply to all facilities currently operating under NDS 2000. As part of 
the revisions, ICE eliminated many of the requirements that frequently 
result in waiver requests.
    To develop the new detention standards, ICE assembled a working 
group of numerous ICE program offices and Directorates, as well as 
policy and subject matter experts from the Department of Homeland 
Security Office for Civil Rights and Civil Liberties. The working group 
met over the course of several months to revise the NDS. The working 
group also reviewed previously approved waivers of standards for NDS 
2000 facilities, and where possible, removed or addressed these areas 
in the NDS 2019.
    ICE expects to notify affected facilities of its intent to utilize 
the revised standards by December 31, 2019, and facilities will be 
afforded a 60-day implementation period.
    Question. How many waivers has ICE cancelled since the OIG's 
January 2019 report?
    Answer. In response to the Department of Homeland Security Office 
of Inspector General's January 2019 recommendations, ICE reviewed all 
existing waivers to determine continuing applicability for 2019. ICE 
identified and canceled forty-one waivers that were no longer needed. 
ICE will conduct an annual or more frequent review of approved waivers 
by appropriate personnel as part of its revised waiver process.
    Question. What is being done to ensure compliance with ICE's 2013 
memo9 regarding use of solitary confinement?
    Answer. ICE Headquarters (HQ) ensures compliance with ICE Directive 
11065.1, Review of the Use of Segregation for ICE Detainees (Sept. 4, 
2013), by reviewing segregation placements submitted through an 
electronic database system called the Segregation Review Management 
System (SRMS). SRMS stores, tracks, reviews, and manages data 
associated with segregation placements for detainees with special 
vulnerabilities and other detainees who are in segregation for at least 
14 days. Data analysts conduct weekly data quality checks to verify the 
accuracy of detainee information input into SRMS.
    A multidisciplinary HQ team including representatives from the 
Office of the Principal Legal Advisor, ICE Health Service Corps, ERO 
Field Operations, and ICE ERO Custody Management personnel regularly 
reviews segregation cases across all of ICE's detention facilities.
    In addition, ICE's Office of Professional Responsibility, Office of 
Detention Oversight reviews facility segregation placements during 
their facility inspections.
    ICE ERO field offices also perform segregation reviews during the 
Self-Inspection Program (SIP). Practices identified by the SIP to be 
out of compliance with the applicable detention standards are addressed 
with the ERO Field Office and ICE ERO leadership.
    Question. What medical intake protocols are CBP officers following 
for individuals in CBP processing?
    Answer. In areas highly frequented by unaccompanied alien children 
(UAC) and family units, medical contract personnel complete a Mental 
Health Screening (MHS) Form on all UAC. Any positive responses are 
reviewed by a mid-level medical provider. If the provider believes the 
juvenile should receive additional examination, that juvenile is 
transported to the local emergency room for evaluation by on-duty 
medical staff. Once the juvenile is cleared by the hospital, they are 
transported back to the Border Patrol facility until they can be 
transferred to appropriate longer-term custody, and they are under 
observation during this time. The results of the hospital ER are 
communicated to ORR in order for HHS to secure appropriate 
accommodations.
    The CBP Interim Enhanced Medical Efforts Directive is an important 
first step in the development and incorporation of new medical 
practices both at and between ports of entry. The Interim Directive 
outlines CBP's immediate response to the challenge of providing care to 
unprecedented numbers of UAC and family units along the Southwest 
Border. As CBP moves forward with a longer-term version of the 
directive, we look forward to gathering information on medical best 
practices in trauma and emergency situations from a variety of experts, 
including those familiar with the specific issues associated with 
children.
    As of January 28, 2019, CBP began conducting health interviews for 
all aliens in OFO custody. Medical assessments will be conducted on 
every juvenile in custody under 18 years of age, and on all adult 
aliens in custody who answer positively to a ``referral mandatory'' 
question during the health interview. The medical assessments will 
normally be conducted by CBP contracted medical professionals, or other 
Federal, state, and local credentialed healthcare provider, or in 
exigent circumstances, CBP Emergency Medical Services (EMS).
    If an officer/agent suspects or a detainee reports that a detainee 
may have a contagious disease, the detainee should be separated, 
whenever operationally feasible. Officers/agents will not administer 
medical techniques, medications, or preparations unless they are 
qualified emergency medical technicians or paramedics rendering care, 
or in the case of a life-threatening emergency. When necessary, a 
detainee may be transferred by emergency medical services for further 
medical treatment, under the escort of at least one officer/agent.
    CBP is investigating the potential of adding on-site medical 
personnel who will have the ability to conduct medical screenings/
assessments for arriving aliens, write some prescriptions, and provide 
basic medical care. As of July 1, 2019, contracted medical 
practitioners are deployed only to the Hidalgo and Brownsville ports of 
entry. The San Ysidro and Calexico ports of entry have an agreement 
with a local medical facility for on-site medical services on a per 
patient basis under existing U.S. Immigration and Customs Enforcement 
(ICE), Medical Payment Authorization Request Web System (MEDPARS) 
billing. The medical screening is completed upon intake of the 
inadmissible applicant for admission into the secure area of Passport 
Control Secondary for processing.
    All other ports of entry utilize tools developed for implementing 
the CBP Transport, Escort, Detention, and Search (TEDS) policy in 2015.
    If at any time while in CBP processing there is a need to refer for 
medical treatment, CBP refers the person for medical treatment. This 
referral is conducted by local Emergency Medical Services (EMS) 
providers or CBP taking the person to a local medical practitioner.
    Question. At the Northwest Detention Center in Tacoma, WA, how many 
instances have been documented in fiscal year 2018 and fiscal year 2019 
regarding: (1) grievances filed for inappropriate use of segregation or 
solitary confinement; (2) force-feeding detainees; (3) medical or 
psychiatric referrals; and (4) sexual abuse?
    Answer. Responses are as follows:

  --grievances filed for inappropriate use of segregation or solitary 
        confinement;

          --In fiscal year 2018, one grievance related to the use of 
        segregation for suicide watch was documented at the Northwest 
        Detention Center in Tacoma, Washington. In fiscal year 2019 (as 
        of July 19, 2019), zero grievances related to the use of 
        segregation or solitary confinement have been documented.

  --force-feeding detainees;

          --In fiscal year 2018 and in fiscal year 2019 (as of July 19, 
        2019), there have been zero documented instances of force-
        feeding at the Northwest Detention Center in Tacoma, 
        Washington.

  --medical or psychiatric referrals; and

          --In fiscal year 2018, eighteen medical referrals and zero 
        psychiatric referrals were documented at the Northwest 
        Detention Center in Tacoma, Washington. In fiscal year 2019 (as 
        of July 19, 2019), six medical referrals and zero psychiatric 
        referrals have been documented at the Northwest Detention 
        Center in Tacoma, Washington.

  --sexual abuse?

          --In fiscal year 2018, there were twelve allegations of 
        sexual abuse or assault at the Northwest Detention Center in 
        Tacoma, Washington and in fiscal year 2019 (as of July 19, 
        2019), there were eleven allegations of sexual abuse or 
        assault.

    Question. Immigration detention has the potential to affect 
disproportionate harm upon transgender immigrants, who are likely to be 
seeking asylum based on transphobic violence they have already faced or 
that they presently fear, and because of such histories are more likely 
to suffer from depression, post-traumatic stress disorder, and other 
mental health conditions.
    How many transgender individuals are currently held in ICE 
detention? Of those, how many are held in segregation or solitary 
confinement?
    Answer. As of July 6, 2019, there were 135 self-identified 
transgender individuals in ICE custody. Of the 135, there were six 
individuals in segregation; five were in administrative segregation and 
one was in disciplinary segregation.
    ICE places vulnerable populations in administrative segregation as 
a last resort and when no other housing options exist. Placement into 
segregated housing must be in compliance with applicable ICE detention 
standards. Specifically, the ICE 2011 Performance-Based National 
Detention Standards state that placement in segregation should occur 
only when necessary, and all ICE detainees should be provided with 
appropriate accommodations and professional assistance for special 
conditions (as needed) such as medical, therapeutic, or mental health 
treatment.
    Further, with regard to disciplinary segregation, ICE detention 
standards prescribe acceptable ranges of time in segregation that may 
be imposed for each disciplinary infraction.
    Question. What actions is DHS taking to align existing contracts 
for facilities regularly detaining transgender individuals with ICE's 
2015 memo entitled, ``Further Guidance Regarding the Care of 
Transgender Individuals''?
    Answer. ICE operates and contracts with detention facilities 
nationwide to house detainees. Changes in policy and procedure, like 
those recommended by the 2015 ICE Transgender Care Memorandum, require 
modifications to the contracts between ICE and its facility owners and 
operators.
    Since the issuance of the Transgender Care Memorandum, ICE has 
explored partnerships with facilities willing to adopt the contract 
modifications outlined in the memorandum, to include establishing a 
first-of-its-kind dedicated unit for transgender women in California. 
Since the California facility is no longer being used by ICE to house 
detainees, in 2017, ICE established a dedicated housing unit for 
transgender detainees in the Cibola County Correctional Center (Cibola) 
in New Mexico, which operates under the recommendations contained in 
the Transgender Care Memorandum. The transgender unit in Cibola can 
house up to 60 transgender women and includes common areas, 
televisions, microwaves, a library, and access to outdoor recreation.
    ICE trained medical and detention staff within the Cibola facility 
in best practices for the care of transgender individuals, hired a 
Custody Resource Coordinator to ensure detainee access to facility 
services and programs, and facilitated partnerships with local 
transgender advocacy organizations for peer support and other services 
and programming. ICE continues to explore partnerships with facilities 
willing to run a dedicated housing unit for transgender detainees and 
hopes to establish additional unit(s) in the near future.
    Aside from this dedicated unit at Cibola, transgender detainees, 
like all other detainees, can be housed with general population (male 
or female) or in protective custody. Over the last few years, ICE has 
housed transgender individuals according to their sex assigned at birth 
as well as by their gender identity, and will continue to do so 
depending on the circumstances of the specific individual and case.
    Question. The Seattle-Tacoma International Airport (Sea-Tac) 
International Arrivals Facility (IAF) project aims to create a world-
class, bag-first facility that will not only meet current and future 
needs, but also serve as a model for similar facilities at airports 
throughout the country. International passenger activity requiring 
customs clearance at Sea-Tac has more than doubled in the past 10 
years, driven by economic growth in the Puget Sound region and a 
significant increase in direct international service. Additionally, 
Sea-Tac anticipates a 17 percent increase in arriving passengers 
between now and August 1, 2020. The Port's $968 million investment in 
this project will not meet this passenger demand without full CBP 
staffing at the facility upon its opening. Based on these growth 
projections, I am concerned that current staffing levels are 
insufficient to meet this imminent need.
    Does the fiscal year 20 budget request fund the increase in 
officers needed to allow Sea-Tac's new IAF to process at least 2,600 
passengers per hour during peak period upon its opening?
    Answer. No. The fiscal year 2020 budget request does not include a 
staffing request specific to Sea-Tac's new International Arrivals 
Facility (IAF). It does include a request for $28.1 million in staffing 
for 267 positions (CBP Officers, Agriculture Specialists, and Mission 
and Operational Support personnel) to staff ports of entry. As we have 
done every year since fiscal year 2014, CBP sent accompanying 
legislative proposals to increase user fees that would provide 
sufficient reimbursement to appropriations to allow us to hire up to 
2,922 additional CBP Officers.
    Question. If not, how many more officers would be needed to meet 
that processing goal?
    Answer. CBP does not request or allocate CBP officer (CBPO) 
resources, for or to a specific port location, based on a single future 
and theoretical hourly peak passenger arrival projection. However, CBP 
does use its Workload Staffing Model (WSM) as a decision-support tool 
to identify CBPO staffing requirements at all of its ports of entry. 
This approach considers all aspects of CBPO responsibilities to include 
1) passenger and cargo processing, 2) air, land, and sea environments, 
3) primary and secondary processing, and 4) facilitation and 
enforcement missions. WSM also identifies staffing requirements into 
the near future, including considerations for workload growth and 
staffing of new facilities. The latest WSM results show the need for 
approximately 2,300 additional CBPO positions through fiscal year 2020, 
above what is currently funded at all ports of entry. This total 
includes additional CBPO staffing requirements for the Port of Seattle, 
based on the need to staff the new facility and accounting for future 
growth in arriving passengers as a result of the new facility.
    Question. Seaport authorities around the country are increasingly 
being asked to pay for Customs and Border Protection (CBP) facilities, 
services, and equipment that traditionally have been funded by the 
Federal government. Often these requests are made of ports at the last 
minute and coincide with a fast-approaching deadline, such as a 
construction deadline to accommodate a new port customer, which CBP 
allegedly uses as leverage to require ports to agree to their demands. 
With respect to these requests, there does not appear to be any process 
to control costs, as would be expected of facilities that are paid for 
directly by the Federal government, which has resulted in expensive 
overbuilding. My office has heard from seaports that if they do not 
agree to terms dictated by CBP, they are told that CBP service levels 
might be reduced. I would note that other Federal agencies that have a 
presence at seaports do not ask non-Federal entities to cover their 
facility costs.
    Under what authority is CBP issuing these requests or requirements?
    Answer. Whether in the land, sea, or air environment, the settings 
for CBP's critical operations are rarely within a CBP-owned or operated 
facility, but rather are typically provided by a facility operator at 
no cost to CBP. CBP relies on various statutory and regulatory 
authorities, as well as inherent authority derived from its authority 
to designate ports of entry, see 19 U.S.C. Sec. Sec. 2 and 1644a(b)(1), 
and to enforce and administer customs, immigration, agricultural, and 
national security laws, see, e.g., 8 U.S.C. Sec. Sec. 1222-1225 and 
1357; 19 U.S.C. Sec. Sec. 482, 1433, 1434, 1459, 1461, 1467, 1496, 
1499, 1581 and 1644a; 6 U.S.C. Sec. Sec. 231 and 921-926, at those 
ports, to require the provision and maintenance of suitable Federal 
Inspection Service (FIS) space that meets CBP's minimum operational 
requirements. The authority relied upon depends on the type of port 
(e.g., air, sea, rail) and the type of function performed by CBP (e.g., 
customs, immigration, agricultural, national security, or a combination 
of these).
    Below are many of the statutory and/or regulatory authorities 
relied upon by CBP:

Passengers (Air, Sea, and Rail Ports)

    All transportation lines engaging in the transportation of 
passengers from foreign territories, including cruise lines, are 
required to provide suitable facilities for CBP to conduct immigration 
related inspections. See 8 U.S.C. Sec. 1223(b) (``Every transportation 
line engaged in carrying alien passengers for hire to the United States 
from foreign territory or from adjacent islands shall provide and 
maintain at its expense suitable landing stations, approved by the 
[Secretary of Homeland Security], conveniently located at the point or 
points of entry. No such transportation line shall be allowed to land 
any alien passengers in the United States, until such landing stations 
are provided, and unless such stations are thereafter maintained to the 
satisfaction of the [Secretary].'' (emphasis added)).

Seaports

    CBP's authority to require the provision and maintenance of 
suitable inspection facilities at cargo seaports is derived from its 
authority to designate ports of entry (POE), and enforce and administer 
laws at these POE. By law, all merchandise imported into the United 
States and persons entering the United States must be presented to CBP 
for inspection. See 19 U.S.C. Sec. Sec. 1434, 1461; 8 U.S.C. 
Sec. Sec. 1223(b), 1225. At seaports, all cargo containers entering by 
vessel must undergo radiological examinations pursuant to the Security 
and Accountability for Every Port Act of 2006 (SAFE Port Act). See 6 
U.S.C. Sec. Sec. 901 et seq. Inherent in CBP's authority to designate 
ports of entry, see 19 U.S.C. Sec. Sec. 2 and 1644a(b)(1), and to 
enforce and administer these and other customs, immigration, 
agricultural, and national security laws, see, e.g., 8 U.S.C. 
Sec. Sec. 1222-1225 and 1357; 19 U.S.C. Sec. Sec. 482, 1433, 1434, 
1459, 1461, 1467, 1496, 1499, 1581 and 1644a; 6 U.S.C. Sec. Sec. 231 
and 921-926, at those ports is CBP's authority to require facilities to 
provide suitable space, at no cost to the Government, in which to 
perform statutorily mandated inspections. See 35 Op. Atty Gen. 431 
(1928) (``There is no reason to imply an undertaking on the part of the 
United States to pay the cost of acts which it has power to require 
others to perform at their own expense.'').
    As indicated above, cruise lines are required to provide and 
maintain suitable facilities for CBP to conduct immigration related 
inspections, at no cost to CBP. See 8 U.S.C. Sec. 1223(b).

Airports

    In addition to the requirements of 8 U.S.C. Sec. 1223(b), there are 
specific requirements imposed upon airports, including the following:
    Under 8 U.S.C. Sec. 1224, the Secretary may, by regulation, 
``designate as ports of entry for aliens arriving by aircraft any of 
the ports of entry for civil aircraft designated as such in accordance 
with law.'' The regulation implementing 8 U.S.C. Sec. 1224 provides, 
``[a]n airport shall not be so designated [as an international airport 
for the entry of aliens arriving by aircraft] . . . unless adequate 
facilities have been or will be provided at such airport without cost 
to the Federal Government for the proper inspection and disposition of 
aliens, including office space and such temporary detention quarters as 
may be found necessary.'' 8 C.F.R. Sec. 234.4 (emphasis added).
    Permission to land at a landing rights airport may be withdrawn or 
denied if ``[p]roper inspectional facilities or equipment are not 
available at, or maintained by, the requested airport.'' 19 C.F.R. 
Sec. 122.14(a)(4)(ii), and (d)(2) (emphasis added).
    International airports handling freight are directed to provide 
``without cost to the Federal Government, proper office and other space 
for the sole use of Federal officials working at the airport [and a] 
suitable paved loading area . . . at a place convenient to the office 
space . . . for the use of aircraft entering or clearing through the 
airport.'' 19 C.F.R. Sec. 122.11(c) (emphasis added).

Express Consignment Carrier Facility (ECCF)

    CBP may require an ECCF (e.g., FedEx, UPS, DHL) ``to cover expenses 
. . . for adequate office space, equipment, furnishings, supplies and 
security.'' 19 U.S.C. Sec. 58c(b)(9)(B)(ii) (emphasis added) ; see also 
19 C.F.R. Sec. 128.11(b)(7)(3).

Container Stations

    A port director has the discretion to approve an application for 
establishment of a container station. See 19 C.F.R. Sec. 19.40. At a 
container station, the Code of Federal Regulations requires that 
``suitable working and office space for the use of Customs officers and 
employees performing functions in the area shall also be provided.'' 19 
C.F.R. Sec. 19.47 (emphasis added).

Centralized Examination Stations (CES)

    A CES Operator must provide office space, parking, and other 
facilities to CBP at no or nominal ($1) cost. 19 C.F.R. Sec. 118.4(j).

Foreign Trade Zone (FTZ)

    The FTZ must provide and maintain adequate quarters and facilities 
for Federal officers and employees at no cost to the Government. 19 
U.S.C. Sec. Sec. 81l, 81n.
    Question. Does CBP have authority to deny or reduce services to 
seaports, airports, or other entities who do not agree to make CBP-
requested facility changes or to meet CBP's precise specifications for 
changes to those facilities?
    Answer. While CBP endeavors to avoid actions that would negatively 
impact a port's trade community, yes, CBP is authorized to reduce or 
suspend operations at a given port or facility at a port if adequate 
Federal Inspection Service (FIS) facilities are not provided. In fact, 
the scope of CBP's operational presence at a given port or facility is 
always subject to change at CBP's discretion for any number of reasons 
(e.g., a change in mission priorities, a reduction in passenger or 
cargo traffic, a staffing reduction, and, as relevant to your inquiry, 
when FIS facilities fail to meet CBP minimum requirements for safe, 
secure inspectional operations). As with CBP's FIS space authority 
(discussed in response to Question 183), the potential remedies 
available to CBP if a facility operator is unwilling to meet its 
obligation to provide and maintain suitable FIS space that meets CBP's 
minimum operational requirements depend on the type of port (e.g., air, 
sea, rail) and the type of function performed by CBP (e.g., customs, 
immigration, agricultural, national security, or a combination of 
these).
    For example, transportation lines, including cruise lines, are not 
permitted to land any alien passengers in the United States unless they 
provide and maintain suitable facilities for CBP to conduct immigration 
related inspections. See 8 U.S.C. Sec. 1223(b) (``Every transportation 
line engaged in carrying alien passengers for hire to the United States 
from foreign territory or from adjacent islands shall provide and 
maintain at its expense suitable landing stations, approved by the 
[Secretary of Homeland Security], conveniently located at the point or 
points of entry. No such transportation line shall be allowed to land 
any alien passengers in the United States, until such landing stations 
are provided, and unless such stations are thereafter maintained to the 
satisfaction of the [Secretary].'' (emphasis added)).
    In addition to the requirements of 8 U.S.C. Sec. 1223(b), there are 
specific requirements imposed upon airports, along with remedies for 
non-compliance. For example, a designated international airport risks 
losing its designation if it fails to provide adequate FIS facilities 
for the inspection and disposition of international passengers at no 
cost to the Federal Government. See 8 C.F.R. Sec. 234.4 (``An airport 
shall not be so designated [as an international airport for the entry 
of aliens arriving by aircraft] . . . unless adequate facilities have 
been or will be provided at such airport without cost to the Federal 
Government for the proper inspection and disposition of aliens, 
including office space and such temporary detention quarters as may be 
found necessary.'' (emphases added)); see also 19 C.F.R. Sec. 122.11(b) 
(providing for withdrawal of an international airport designation where 
``[p]roper facilities are not provided or maintained by the airport'').
    Permission to land at a landing rights airport may also be 
withdrawn or denied if ``[p]roper inspectional facilities or equipment 
are not available at, or maintained by, the requested airport.'' 19 
C.F.R. Sec. 122.14(a)(4)(ii), and (d)(2) (emphasis added). The same 
consequences apply at user fee airports. See 19 C.F.R. Sec. 122.15(a).
    At cargo seaports, CBP's authority to require the provision and 
maintenance of suitable inspection facilities is derived from its 
authority to designate those seaports as ports of entry, see 19 U.S.C. 
Sec. 2, and enforce and administer laws at these ports. By law, all 
merchandise imported into the United States and persons entering the 
United States must be presented to CBP for inspection. See 19 U.S.C. 
Sec. Sec. 1434, 1461; 8 U.S.C. Sec. Sec. 1223(b), 1225. At seaports, 
all cargo containers entering by vessel must undergo radiological 
examinations pursuant to the Security and Accountability for Every Port 
Act of 2006 (SAFE Port Act). See 6 U.S.C. Sec. Sec. 901 et seq. 
Inherent in CBP's authority to designate ports of entry and to enforce 
and administer these and other customs, immigration, agricultural, and 
national security laws at those ports is CBP's authority to require 
facilities to provide suitable space, at no cost to the Government, in 
which to perform statutorily mandated inspections. To facilitate 
compliance with law and to be consistent with CBP's authorities, 
facility owners or operators, such as port authorities, have 
historically provided and maintained space at no cost to CBP for on-
site inspections. Most operators recognize that having FIS facilities 
meeting CBP's requirements on the port is mutually beneficial to CBP, 
the ports, their customers, and the rest of the trade community.
    Despite the cooperation with facility operators that CBP has 
historically enjoyed when obtaining no-cost FIS space, in recent years, 
some port authorities have challenged their obligation in this regard. 
For instance, some have denied the responsibility to improve, repair, 
and/or maintain space in their facilities to meet CBP's reasonable 
minimum operational requirements. This poses a potential threat to 
CBP's mission success through a reduction in the efficiency and 
effectiveness of CBP's operations, but more importantly, could 
jeopardize the safety and health of CBP employees and the public. 
Additionally, in their refusal, these facility operators manufacture an 
unfair advantage over their competitors, who willingly meet operational 
needs in order to preserve the value of CBP's presence. CBP is then 
forced to decide whether to reduce, relocate, or suspend operations at 
the risk of disrupting trade and the local economy, or to submit to the 
facility operators' demands to be treated differently than competitors.
    Question. Does CBP follow GSA specifications for new facilities?
    Answer. CBP follows GSA specifications for new GSA-owned and leased 
facilities. However, GSA neither owns nor typically leases the 
facilities at the nation's seaports or airports. For projects at these 
facilities, CBP's Office of Field Operations (OFO) determines the 
program of requirements for each project. Those requirements must be 
constructed to CBP Facility Design Standards, which are at least equal 
to GSA specifications, but in most cases have higher or additional 
requirements for specific functional spaces. In most cases, CBP leases 
such facilities pursuant to authority delegated by GSA. See 41 C.F.R. 
Sec. 102-73.140. In doing so, CBP typically relies upon GSA leasing 
forms with clauses articulating uniform facility standards and 
specifications.
    Question. Does CBP need additional resources, on top of existing 
revenue from the Merchandise Processing Fee, to cover cargo inspection 
operations?
    Answer. The Merchandise Processing Fee (MPF) is not directly used 
to support CBP commercial cargo operations. CBP relies on its Workload 
Staffing Model (WSM) to identify needs for additional staffing of CBP 
personnel and the President's Budget supports this requirement through 
legislative proposals to increase the fee rates for the Consolidated 
Omnibus Budget Reconciliation Act of 1985 (COBRA) and Immigration User 
Fee (IUF).
    Question. There are a number of ongoing reorganizations across the 
Department, including within the Science & Technology (S&T) Directorate 
and in the merger of the Domestic Nuclear Detection Office (DNDO) and 
Office of Health Affairs to form the Countering Weapons of Mass 
Destruction Office (CWMDO). In the 2018 Federal Employee Viewpoint 
Survey, both S&T and CWMDO appear in the bottom quartile for employee 
satisfaction, with CWMD (appearing as DNDO in the survey results) staff 
being by far the least satisfied across the government.
    What is your assessment of the current reorganizations across DHS?
    Answer. The Department's realignments serve to increase mission 
focus, foster better integration, and execute mission priorities 
efficiently and effectively.
    Question. What are you doing as Acting Secretary to improve 
employee satisfaction and ensure high performance going forward?
    Answer. The Federal Employee Viewpoint Survey (FEVS) is a platform 
for Federal employees to share their opinions and perceptions in many 
critical areas including their work experiences, their agency, and 
leadership. The Department uses the FEVS and analogous survey results 
to: assess employee engagement and satisfaction; provide feedback to 
leaders at all levels; and guide Component-level and local action 
planning. In the 2018 FEVS, 94 percent of DHS employees said they are 
willing to put in the extra effort to get the job done, and 89 percent 
feel the work they do is important.
    All DHS Components, Directorates, and Offices--including CWMD and 
S&T--are required to submit action plans that are updated based on the 
FEVS results each year and target challenges uncovered by FEVS data and 
other analysis. Additionally, the Employee Engagement Steering 
Committee, created in 2016, acts as an advisory body that provides 
advice and suggestions to senior leadership on how to improve employee 
engagement.
    Question. You have stated that protecting the 2020 election is a 
top priority for the Department, and I appreciate and agree with this 
commitment. With known vulnerabilities and a clear history of foreign 
interference, it is critical that we take meaningful steps to protect 
the integrity of our elections and ensure the public's faith in our 
voting system. The DHS OIG's February 28, 2019, report outlined gaps in 
election security that still demand attention, and I hope that the 
Department is taking serious steps to fulfill the audit's five 
recommendations. However, I am disappointed in this Administration's 
failure to engage in serious discussions with Congress regarding 
proposed election security legislation and agency needs ahead of the 
2020 elections.
    Do you believe that $23 million is sufficient funding to adequately 
harden our election infrastructure?
    Answer. The fiscal year 2020 President's Budget includes a total of 
$24.1 million for support to state and local partners that is 
prioritized for election security. This resources CISA to provide hunt 
and incident response teams, cyber exercises, risk assessments, 
vulnerability remediation, sector planning and governance, and other 
election security support services to state and local entities. It is 
augmented by general programmatic and operational support already 
within the budget of the CISA's National Risk Management Center (NRMC) 
to work on risk management and risk analysis, which funds the sub-
Sector Specific Agency capability as well as targeted risk analysis.
    CISA is currently working with the Department to address the 
recommendations made by the Office of Inspector General. To the extent 
additional resources may be necessary, CISA intends to use the lessons 
learned from the report to help guide future budget formulation and 
planning efforts. CISA is committed to this critical mission and will 
continue to work with Congress to ensure our election security efforts 
remain adequately resourced.
    Question. How many full-time Cybersecurity and Infrastructure 
Security Agency (CISA) employees will be working on election security 
for the 2020 election as compared to the 2018 election? How many will 
be staff solely dedicated to election infrastructure?
    Answer. Leading up to and during the 2018 midterm elections, on any 
given day, more than 500 CISA employees supported election security 
preparedness nationwide, including providing free technical 
cybersecurity assistance, information sharing, and expertise to 
election offices, campaigns and technology vendors. In advance of the 
2020 election, the core team supporting the Election Security 
Initiative (formerly the Election Task Force) will have approximately 
30 full time employees. Like in 2018, resources from across the agency 
will be brought to bear in advancing the DHS election security mission.
    The Department concurred with all five recommendations and is 
working with OIG to close Recommendations 1-4 and has submitted a 
proposal to close Recommendation 5. The full report includes our 
response letter in Appendix B: https://www.oig.dhs.gov/sites/default/
files/assets/2019-03/OIG-19-24-Feb19.pdf.
    Question. When will the 2020 election security CISA task force 
reach full staffing level?
    Answer. In advance of 2020 election, the core team supporting the 
Election Security Initiative (formerly the Election Task Force) will 
have approximately 30 full time employees. Like in 2018, resources from 
across the agency will be brought to bear in advancing the DHS election 
security mission.
    The Election Security Initiative, which includes the Election 
Infrastructure Subsector Sector Specific Agency, has been staffed by 
full-time personnel and supplemented by the full range of DHS expertise 
in cybersecurity, the intelligence community, including DHS's Office of 
Intelligence and Analysis, and field-based personnel from CISA and the 
Office of Intelligence and Analysis. Field staff engage directly with 
election officials to increase information sharing and connect them 
with the full range of cybersecurity and physical security support 
provided by the Federal Government.
    Question. Although the exact number is unknown, estimates indicate 
that hundreds of veterans have been deported by DHS in recent years. 
These veterans deserve to continue to live in the country they fought 
for and to have their medical needs met through the Department of 
Veterans Affairs just as any servicemember who fought to defend our 
nation. If deported, they cannot access the care needed through the VA 
and are often forced to live with treatable conditions and a lower 
quality of life. Many of these veterans are also separated from their 
families who live in the US and are more vulnerable to threats from 
gang violence once deported because of their military experience.
    How many veterans have been deported from the U.S. in the last five 
fiscal years? How many have been deported in fiscal year 2019?
    Answer. U.S. Immigration and Customs Enforcement (ICE) records 
indicate that 81 aliens who were veterans of the U.S. military were 
issued final orders of removal in the past five fiscal years.\6\ Of 
those 81, ICE removed\7\ 57 in the last five fiscal years, as of August 
19, 2019. In fiscal year 2019 year-to-date, as of August 19, ICE 
removed five aliens who were U.S. military veterans.
---------------------------------------------------------------------------
    \6\ ICE Office of the Principal Legal Advisor (OPLA) PLAnet 
(Principal Legal Advisor's Network) data includes all cases where there 
is: 1) an order of removal order (removal or in absentia order), 2) the 
field ``U.S. Military'' is checked, and 3) the case status is ``Admin 
Final Order.'' Disclaimer: ICE OPLA's PLAnet database is an internal 
case management system used by ICE OPLA attorneys nationally to capture 
work performed during and in preparation for litigation before 
Executive Office for Immigration Review (EOIR); it is not intended to 
be a statistical tool. Data stored in PLAnet is input manually and is 
not verified against EOIR databases, which are the record of 
proceedings for administrative immigration cases.
    \7\ ICE Removals data are current through August 19, 2019. ICE 
Removals include aliens processed for Expedited Removal (ER) or 
Voluntary Return (VR) that are turned over to ICE Enforcement and 
Removal Operations (ERO) for detention. ICE Removals include Returns. 
Returns include Voluntary Returns, Voluntary Departures, and 
Withdrawals Under Docket Control. ICE removed veterans' criminal 
charges and convictions include only those charges and convictions 
relevant at the time of removal.
---------------------------------------------------------------------------
    Question. For each of the veterans who have been deported, what 
were the stated grounds for deportation?
    Of the veterans who have been deported due to criminal activity, 
how many committed non-violent offenses? How many committed violent 
offenses?
    Answer. ICE respects the service and sacrifice of those in military 
service and is very deliberate in its review of cases involving 
veterans. Any action taken by ICE that may result in the removal of an 
individual with military service must be authorized by the ICE 
Enforcement and Removal Operations (ERO) Field Office Director with 
jurisdiction over the matter and with the assistance of the ICE Office 
of the Principal Legal Advisor (OPLA), as needed. However, aliens, 
including veterans, who violate U.S. immigration laws, including having 
criminal convictions, may be subject to removal from the United States.
    ICE takes into account several factors and cases are considered on 
a case-by-case basis. For veterans, ICE specifically identifies service 
in the U.S. military as a positive factor that should be considered in 
the exercise of prosecutorial discretion concerning the initiation of 
removal proceedings. Even though military service is a positive factor, 
it does not guarantee prosecutorial discretion or relief from removal. 
ICE notes that when analyzing an alien's criminal history, crimes 
involving violence, aggravated felonies, drug trafficking, or crimes 
against children are viewed as a threat to public safety and military 
service alone will not outweigh convictions for serious offenses.
    ICE is unable to systematically report the ground(s) for 
deportation, nor comprehensively characterize the offenses committed by 
aliens with criminal convictions as ``violent'' or ``non-violent,'' 
which would require a time-consuming, manual review of each 
individual's Alien Registration File. However, of the 57 U.S. military-
veteran aliens who were removed from fiscal year 2015 through fiscal 
year 2019 YTD (as of August 19, 2019), all were convicted criminals. 
The most severe convictions\8\ on these aliens' records included 
weapons offenses, sexual assault, dangerous drugs, assault, burglary, 
robbery, kidnapping, and homicide.
---------------------------------------------------------------------------
    \8\ ICE tracks and reports on criminal history using the National 
Crime Information Center (NCIC) Uniform Offense Codes. NCIC is the 
United States' central database for tracking crime-related information, 
is maintained by the Federal Bureau of Investigation, and is 
interlinked with Federal, state, local, and tribal law enforcement 
entities.
---------------------------------------------------------------------------
    Question. Have any veterans been deported due to a DHS failure to 
process their completed naturalization application?
    Answer. Generally, an alien must be a Lawful Permanent Resident to 
enlist in the military, with limited exceptions. In some cases, aliens 
who are serving or have served in the U.S. military may be able to 
naturalize while in removal proceedings or after a removal order has 
been issued. However, some criminal convictions may serve as a bar to 
naturalization. In reviewing cases of veteran aliens, ICE reviews and 
considers the aliens' present eligibility to naturalize and takes it 
into consideration in making a decision as to how to proceed.
    ICE respects the service and sacrifice of those in military service 
and is very deliberate in its review of cases involving veterans. 
However, aliens, including veterans, who violate immigration laws may 
be subject to removal from the United States.
    Question. What is DHS's plan for expediting the naturalization 
process so that veterans can receive their citizenship and access to 
medical care?
    Answer. United States Citizenship and Immigration Services 
recognizes the importance of processing naturalization applications 
efficiently for veterans both inside the United States and overseas. 
Realizing the high-profile and unique nature of the few requests that 
we have received from veterans outside of the United States, USCIS has 
clarified guidance to ensure that those veterans are treated 
appropriately and fairly. USCIS regularly provides information to 
internal and external stakeholders about military naturalization for 
current military members as well as veterans through our network of 
congressional liaison specialists, community relations officers and 
field offices. This work includes collaboration with our partners at 
Veterans Affairs. The USCIS website provides extensive information on 
naturalization based on military service including where to file the 
application and eligibility criteria. USCIS also has a dedicated email 
address and phone line solely for military related immigration 
inquiries.
    Question. The 2018 Workplace and Gender Relations Survey of Active 
Duty Members (2018 WGRA) for the Coast Guard, conducted by the 
Department of Defense, revealed that the Coast Guard experienced an 
increase in the prevalence of sexual assault from 2016 to 2018. Most 
concerning, the report shows that there was a significant increase in 
sexual assault rates for junior enlisted women (from 2.7 percent in 
2016 to 5.3 percent in 2018) and for senior officer women (from <0.1 
percent in 2016 to 1.6 percent in 2018).
    How exactly does the Coast Guard plan to address this rise in 
prevalence, particularly for junior enlisted women and senior officer 
women? Your response should include details on strategies to promote 
prevention, as well as strategies to improve response for victims of 
these behaviors.
    Answer. At the end of 2018, the Coast Guard released a Sexual 
Assault Prevention, Response, and Recovery (SAPRR) Strategic Plan, 
outlining the specific goal of Recovery. This new strategic goal 
reflects the Coast Guard's awareness that Recovery is a vital component 
of long term support and care of victims.
The Coast Guard's SAPRR Program has organized efforts along five 
strategic goals:

        1. Climate: Create an environment intolerant of sexual assault 
        and behaviors that enable it.

        2. Prevention: Eliminate sexual assault in the Coast Guard 
        through the foundation of a strong preventative culture.

        3. Response: Improve the availability and quality of response 
        support for sexual assault victims. Increase victim confidence 
        and lessen the stigma associated with reporting.

        4. Recovery: Provide comprehensive and flexible victim recovery 
        care to facilitate a return to wellness while preserving the 
        opportunity to serve.

        5. Accountability: Ensure those who commit sexual assault are 
        held accountable. Improve capability and capacity for the 
        reporting, investigation, and prosecution of sexual assault; 
        and elevate leadership engagement in response to sexual 
        assault.

    Initiated by the SAPRR Program, the Coast Guard participated in the 
2018 Workplace and Gender Relations Assessment (WGRA). Participation in 
systematic, regular surveying is integral in evaluation of the progress 
of implemented policies and programs related to sexual assault, sexual 
harassment, and gender discrimination. Additionally, the Coast Guard is 
aligning with the DoD Sexual Assault Prevention Response Office in the 
``Getting Outcomes'' community-based project supported by RAND. This is 
a two-year project aimed at strengthening prevention activities and 
analyzing measurable outcomes.
    In fiscal year 2019, the Coast Guard created the Workforce Wellness 
Resiliency Council (WWRC). The WWRC's mission is to develop senior 
leadership strategies and communications regarding the prevention of 
sexual assault and contributing behaviors, the response to misconduct, 
and support for recovery of victims.
    Question. I continue to be concerned by this Administration's 
persistent attempts to include a citizenship question on the 2020 
Census, without proper study or review. It is critically important to 
accurately count the American population, and the Census must be 
conducted in a manner that is fair, free of partisan influence, and 
with all necessary resources to achieve a full count. As you know, the 
confidentiality of the Census is clearly laid out in statute and is a 
core principle to promoting full participation.
    Will you comply with the 2010 DOJ memo11 stating that no provision 
of the PATRIOT Act can compel the Secretary of Commerce to disclose 
protected Census information? If not, has DHS contributed in any way or 
expressed any view regarding changes to guidelines or new guidelines 
for Census confidentiality?
    Answer. Office of Legal Counsel opinions are binding on other 
agencies within the Executive branch. DHS has not expressed any view 
regarding changes to Census Bureau guidelines.
    Question. Have you or your staff had discussions with the Commerce 
Department, the Department of Justice, or the White House regarding 
citizenship data sought to be collected in the 2020 Census? 
Additionally, has DHS or any Department component indicated a desire to 
be given access to Census information previously considered 
confidential?
    Answer. No.

                                 ______
                                 

              Questions Submitted by Senator Tammy Baldwin
    Question. In response to a question I posed during the hearing 
about detention populations and interior enforcement, you testified 
that ``nine out of ten people coming into ICE custody from the interior 
have a criminal record.''
    Please elaborate on the term ``criminal record'' in your testimony. 
Does this include those currently charged or convicted solely for 
violations of Federal immigration law?
    Answer. In its system of record, U.S. Immigration and Customs 
Enforcement (ICE) differentiates between those with criminal 
convictions, those with pending criminal charges, or those classified 
as other immigration violators (i.e., those who currently do not have a 
current criminal conviction or pending criminal charges).
    ICE further notes that it tracks and reports on criminal history 
using standard National Crime Information Center (NCIC) Uniform Offense 
Codes. NCIC is the United States' central database for tracking crime-
related information. NCIC is maintained by the Federal Bureau of 
Investigation and interlinked with Federal, state, local, and tribal 
law enforcement entities. These codes describe generally accepted 
criminal offenses, which include both immigration-related offenses and 
those offenses that are not related to immigration. Although ICE 
Enforcement and Removal Operations (ERO) conducts criminal arrests for 
violations with an immigration-nexus, ICE ERO's focus is conducting 
administrative arrests within the interior of the United States, which 
are distinct from criminal arrests. Those who are administratively 
arrested by ICE ERO for administrative immigration violations are not 
counted as having a criminal history, unless they already have pending 
criminal charges or have a criminal conviction.
    Question. Please provide data on the population of individuals 
detained through ICE interior enforcement in the current fiscal year, 
disaggregated by each month.
    Answer. Please see the below chart for the criminality breakdown of 
all ICE arrests by month in fiscal year 2019 through June 2019.

 
----------------------------------------------------------------------------------------------------------------
                                                                      Pending          Other
            Month in Fiscal year 2019                Convicted       Criminal       Immigration        Total
                                                     Criminal         Charges        Violator
----------------------------------------------------------------------------------------------------------------
October.........................................           8,107           2,799           1,473          12,379
November........................................           7,633           2,603           1,455          11,691
December........................................           7,220           2,587           1,403          11,210
January.........................................           7,905           2,824           1,757          12,486
February........................................           7,846           2,667           1,869          12,382
March...........................................           7,924           2,663           1,544          12,131
April...........................................           7,737           2,615           1,770          12,122
May.............................................           7,780           2,730           2,454          12,964
June............................................           6,914           2,603           1,504          11,021
----------------------------------------------------------------------------------------------------------------

    Question. How many individuals, both the total number and as a 
percentage of the total detained population, have a criminal record?
    Answer. Please see the below chart for the criminality breakdown of 
ICE's detained population, which includes individuals arrested by ICE 
and those arrested by U.S. Customs and Border Protection. Please note 
that the 16,993 convicted criminal aliens and 5,824 aliens with pending 
criminal charges in ICE custody may have more than one conviction or 
charge.

                ICE Currently Detained as of July 6, 2019
------------------------------------------------------------------------
                  Criminality                             Total
------------------------------------------------------------------------
Convicted Criminal.............................                   16,993
Pending Criminal Charges.......................                    5,824
Other Immigration Violator.....................                   30,164
    Total......................................                   52,981
------------------------------------------------------------------------
*ICE National Docket snapshot as of July 6, 2019.

    Additionally, please see below for a breakdown of criminal 
convictions and charges associated with these aliens. Please note that 
the 16,993 convicted criminal aliens and 5,824 aliens with pending 
criminal charges in ICE custody may have multiple convictions and/or 
charges for different categories of crimes.

                      Charges and Convictions of ICE Detained Population as of July 6, 2019
----------------------------------------------------------------------------------------------------------------
             Criminal Charge Category                  Criminal Charges       Criminal Convictions      Total
----------------------------------------------------------------------------------------------------------------
Dangerous Drugs..................................                    3,461                    7,353       10,814
Traffic Offenses--DUI............................                    3,742                    6,915       10,657
Traffic Offenses.................................                    4,188                    6,258       10,446
Assault..........................................                    3,904                    4,874        8,778
Immigration......................................                    2,032                    6,431        8,463
Obstructing Judiciary, Congress, Legislature,                        2,204                    2,115        4,319
 Etc.............................................
Larceny..........................................                      944                    2,789        3,733
General Crimes...................................                    1,285                    1,719        3,004
Obstructing the Police...........................                      980                    1,491        2,471
Fraudulent Activities............................                      715                    1,740        2,455
Public Peace.....................................                      767                    1,379        2,146
Weapon Offenses..................................                      678                    1,296        1,974
Burglary.........................................                      511                    1,318        1,829
Invasion of Privacy..............................                      426                      943        1,369
Sex Offenses*....................................                      429                      859        1,288
Robbery..........................................                      276                      766        1,042
Family Offenses..................................                      419                      558          977
Stolen Vehicle...................................                      266                      705          971
Forgery..........................................                      292                      672          964
Damage Property..................................                      404                      475          879
Sexual Assault...................................                      312                      551          863
Stolen Property..................................                      245                      527          772
Liquor...........................................                      227                      270          497
Flight/Escape....................................                      196                      271          467
Homicide.........................................                      100                      283          383
Kidnapping.......................................                      161                      196          357
Threat...........................................                      114                      136          250
Commercialized Sexual Offenses...................                      115                      116          231
Health/Safety....................................                       77                      132          209
Extortion........................................                       51                       59          110
Smuggling........................................                       21                       42           63
Arson............................................                       16                       42           58
Juvenile Offenders...............................                       14                       35           49
Obscenity........................................                       15                       34           49
Gambling.........................................                       19                       27           46
Embezzlement.....................................                        6                       37           43
Conservation.....................................                        6                       26           32
Tax Revenue......................................                        6                       21           27
Bribery..........................................                       11                        4           15
Sovereignty......................................                        1                        3            4
Military.........................................                        -                        2            2
Civil Rights.....................................                        1                        -            1
Election Laws....................................                        -                        1            1
----------------------------------------------------------------------------------------------------------------
*Fiscal year 2019 ICE currently detained data is current through July 6, 2019. ICE detention data excludes
  Office of Refugee Resettlement transfers/facilities and U.S. Marshals Service prisoners. The criminality
  displayed includes all criminal charges and convictions for fiscal year 2019 YTD ICE currently detained
  population entered in the ICE system of record at the time of the data run. ``Immigration'' crimes include the
  following charges: false citizenship, illegal entry, illegal re-entry, possession of fraudulent immigration
  documents, trafficking of fraudulent immigration documents, and smuggling aliens. ``General'' crimes is an
  NCIC charge code.

    Question. Of those individuals with a criminal record, how many and 
what percentage of the total, had a current criminal charge or criminal 
conviction(s) other than for a violation of Federal immigration law?
    Answer. As of July 6, 2019, the number of individuals detained by 
ICE with criminal charge(s) or criminal conviction(s) other than a 
violation of Federal immigration law was 18,365, which was 35 percent 
of the total detained population.
    Question. Of those individuals with a criminal record, how many and 
what percentage of the total, had a current charge or conviction for a 
felony?
    How many of those individuals had a current charge or conviction 
for a felony crime involving violence?
    Of those individuals with a criminal record, how many and what 
percentage of the total, had a current charge or conviction solely for 
a misdemeanor offense?
    Answer. Please see the response to Question 205 and 207. ICE 
reports on criminality using standard NCIC codes, which describes 
criminal offenses that may be felonies in some jurisdictions and not in 
others. Also, some criminal offenses may be charged as a felony or a 
misdemeanor depending on the defendant's prior criminal history.
    Please note that convicted criminal aliens and aliens with pending 
criminal charges in ICE custody may have more than one conviction or 
charge. As a result, ICE is unable to report on the data in the manner 
requested.
    Question. How many of those individuals had a charge or conviction 
solely for a violation of traffic laws?
    Answer. As of July 6, 2019, of the 22,817 detained aliens with 
criminal convictions and/or pending criminal charges, 8,864 have 
traffic offenses among their criminal charges. Of the 8,864 aliens with 
traffic offenses, 3,081 have only traffic offenses in their criminal 
history. Furthermore, these 3,081 aliens may have one or multiple 
traffic offense charges or convictions, but they do not have any non-
traffic related charges or convictions in their criminal history. This 
data only includes arrests or convictions for traffic-related criminal 
offenses; it does not include mere civil traffic violations.
    Question. In its fiscal year 2018 Enforcement and Removal 
Operations Report, ICE disclosed that of individuals administratively 
arrested by ERO, the top four criminal charge categories were ``traffic 
offenses--DUI,'' ``dangerous drugs,'' ``traffic offenses'' and 
``immigration.''
    Please provide the same breakdown of criminal charge and conviction 
data for ERO administrative arrests to date in fiscal year 19.
    Answer. Please see the below chart. ICE tracks and reports on 
criminal history using the National Crime Information Center (NCIC) 
Uniform Offense Codes. NCIC is the United States' central database for 
tracking crime-related information, is maintained by the Federal Bureau 
of Investigation, and is interlinked with Federal, tribal, state, and 
local law enforcement entities.

    Fiscal Year 2019 Year-to-Date U.S. Immigration and Customs EnforcementEnforcement and Removal Operations
                           Administrative Arrests by Nature of Criminal Background \9\
----------------------------------------------------------------------------------------------------------------
       Criminal Charge Category            Criminal Charges       Criminal Convictions            Total
----------------------------------------------------------------------------------------------------------------
Traffic Offenses--DUI................                   18,699                   35,545                   54,244
Traffic Offenses.....................                   21,498                   29,427                   50,925
Dangerous Drugs......................                   15,040                   34,540                   49,580
Immigration..........................                    7,579                   33,320                   40,899
Assault..............................                   14,536                   19,099                   33,635
Obstructing Judiciary, Congress,                         7,646                    7,572                   15,218
 Legislature, etc....................
General Crimes.......................                    5,939                    7,137                   13,076
Larceny..............................                    3,408                    9,280                   12,688
Obstructing the Police...............                    4,139                    6,311                   10,450
Fraudulent Activities................                    3,034                    5,700                    8,734
Burglary.............................                    1,883                    5,784                    7,667
Weapon Offenses......................                    2,418                    5,099                    7,517
Public Peace.........................                    2,709                    4,317                    7,026
Sex Offenses (not involving Assault                      1,462                    3,280                    4,742
 or Commercialized Sex)..............
Invasion of Privacy..................                    1,556                    3,154                    4,710
Family Offenses......................                    1,680                    2,370                    4,050
Stolen Vehicle.......................                    1,174                    2,731                    3,905
Sexual Assault.......................                    1,193                    2,384                    3,577
Robbery..............................                      845                    2,627                    3,472
Forgery..............................                    1,188                    2,180                    3,368
Damage Property......................                    1,259                    1,675                    2,934
Stolen Property......................                      880                    1,926                    2,806
Liquor...............................                    1,453                    1,281                    2,734
Flight/Escape........................                      819                    1,419                    2,238
Homicide.............................                      269                    1,156                    1,425
Kidnapping...........................                      524                      826                    1,350
Health/Safety........................                      357                      794                    1,151
Commercialized Sexual Offenses.......                      459                      556                    1,015
----------------------------------------------------------------------------------------------------------------
\9\ ERO Administrative Arrest data are updated through 06/23/2019 (run date 06/25/2019).

    Question. TRAC Immigration, a nonpartisan, nonprofit data research 
center at Syracuse University, used a review of case-by-case records to 
analyze the criminal history of all individuals held in ICE detention 
on a single day last year, June 30, 2018. That analysis showed that 58 
percent of those detained had no criminal record, and 21 percent had 
only committed a minor offense such as a traffic violation. TRAC's data 
does not differentiate between individuals detained through interior 
enforcement and those arrested at the border or ports of entry. While 
this is just a snapshot of ICE detention on one day, nearly a year ago, 
it would appear to reflect a very different population than one where 
``nine out of ten people coming into ICE custody from the interior have 
a criminal record.''
    Acknowledging those limitations, can you explain how the current 
detainee population compares to that reported by TRAC in terms of 
criminal history?
    Answer. U.S. Immigration and Customs Enforcement (ICE) is not able 
to verify independent analysis conducted outside of the agency. 
Therefore, ICE is unable to provide detainee population data 
comparisons.
    ICE's Currently Detained Population by Arresting Agency and 
Criminality is available at www.ice.gov/detention-management. Based on 
the data as of July 6, 2019, nearly 91 percent of aliens in ICE custody 
who were arrested by ICE were a convicted criminal (approximately 67 
percent) or had pending criminal charges (approximately 24 percent).
    Question. In response to a question I posed during the hearing on 
Alternatives to Detention, you testified that the rates of individuals 
absconding from ATD programs at ``25 to 30%''.
    Please elaborate on your use of the term ``absconding.'' Does this 
entail an individual losing all contact with the program, such as 
permanently removing an electronic tracking device or discontinuing all 
contact with a case manager?
    Do you consider an individual who has missed a single call or other 
contact with an ATD program, but subsequently resumes compliance, to 
have ``absconded'' from that program?
    Answer. An absconder is an alien who has failed to report, who has 
been unresponsive to contact attempts by the U.S. government, and whom 
the U.S. government has been unable to locate. U.S. Immigration and 
Customs Enforcement (ICE) considers an absconder from its Alternatives 
to Detention (ATD) program to be an absconder when the participant cuts 
off the GPS unit, fails to return phone calls, ignores contact 
attempts, and the U.S. government is unable to locate him or her 
physically.
    Question. How many individuals participating in an ATD program who 
you characterize as ``absconding'' nevertheless were present at their 
appearances in immigration court?
    Answer. In fiscal year 2019 (through May 31, 2019), there were 
13,121 absconders on ICE's ATD program. Of these, 1,467 (11.2 percent) 
absconders attended at least one court hearing before they absconded. 
Once an ATD participant has absconded, a termination notice is issued 
and monitoring and tracking services are discontinued in order to focus 
existing resources on participants who are currently compliant with the 
terms of their enrollment. ICE notes that the ATD program does not 
define all program violators as ``absconders''--only those with whom 
ICE has lost contact and ICE is unable to locate are included in this 
category.
    Therefore, because the ATD program only collects information on 
actively enrolled participants, it cannot report on whether those who 
have been terminated from the program for absconding may have 
subsequently resumed attendance at court hearings.
    Question. In ICE's fiscal year 2020 Budget Justification, 
Operations & Support provided data on average ATD program participation 
which was 79,595 in fiscal year 2018. O&S also provides a table 
outlining absconder rates for fiscal year 2018. It indicates that 8,299 
family units and 3,182 individuals absconded in fiscal year 2018, 
reflecting a 27.4 percent absconder rate among family units and a 16 
percent absconder rates among individuals. However, those are in fact 
the percentage of individuals who were terminated from ATD due to 
absconding. With an average ATD program participation of 79,595, a 
total of 11,481 absconders would appear to constitute a 14.4 percent 
absconder rate for the program.
    Please provide the total absconder rates, as well as those for both 
family units and individuals, out of the total number of individuals 
enrolled in the ATD program in fiscal year 2018 and fiscal year 2019, 
disaggregated by month.
    Answer. In fiscal year 2018, the absconder rate for family unit 
participants was 27.4 percent, while the absconder rate for non-family 
unit participants was 16.0 percent. In fiscal year 2019 (as of May 31, 
2019), the absconder rate for family unit participants was 26.2 
percent, while the absconder rate for non-family unit participants was 
12.0 percent.
    The tables below provide the total absconder rates, as well as 
those for family units and individuals, disaggregated by month.

                       ATD Family Unit \10\ Absconder Rates by Month Fiscal year 2018 \11\
----------------------------------------------------------------------------------------------------------------
                         Month                                             Absconder Rate \12\
----------------------------------------------------------------------------------------------------------------
Oct-17................................................                                                     33.4%
Nov-17................................................                                                     32.2%
Dec-17................................................                                                     29.1%
Jan-18................................................                                                     28.0%
Feb-18................................................                                                     34.4%
Mar-18................................................                                                     31.5%
Apr-18................................................                                                     26.6%
May-18................................................                                                     23.8%
Jun-18................................................                                                     24.3%
Jul-18................................................                                                     24.0%
Aug-18................................................                                                     25.9%
Sep-18................................................                                                     26.5%
Fiscal year 2018 Total................................                                                     27.4%
----------------------------------------------------------------------------------------------------------------
\10\ Family unit apprehensions represent all U.S. Border Patrol (USBP) apprehensions of adults (18 years old and
  over) with a family unit classification who were subsequently enrolled into ATD.
\11\ Data from BI Inc. Participants Report, 9/30/2018. USBP data 10/1/2013--9/30/2018.
\12\ *Absconder Rate = Count of Absconders/Count of Terminations.


                          ATD Non-Family Unit Absconder Rates by Month fiscal year 2018
----------------------------------------------------------------------------------------------------------------
                         Month                                               Absconder Rate*
----------------------------------------------------------------------------------------------------------------
Oct-17................................................                                                     16.8%
Nov-17................................................                                                     17.2%
Dec-17................................................                                                     18.9%
Jan-18................................................                                                     16.0%
Feb-18................................................                                                     21.4%
Mar-18................................................                                                     21.5%
Apr-18................................................                                                      2.9%
May-18................................................                                                     14.6%
Jun-18................................................                                                     14.7%
Jul-18................................................                                                     14.3%
Aug-18................................................                                                     13.7%
Sep-18................................................                                                     14.6%
Fiscal year 2018 Total................................                                                     16.0%
----------------------------------------------------------------------------------------------------------------


                      ATD Family Unit Absconder Rates by Month Fiscal year 2019 through May
----------------------------------------------------------------------------------------------------------------
                         Month                                               Absconder Rate*
----------------------------------------------------------------------------------------------------------------
Oct-18................................................                                                     27.0%
Nov-18................................................                                                     24.2%
Dec-18................................................                                                     23.4%
Jan-19................................................                                                     29.6%
Feb-19................................................                                                     23.4%
Mar-19................................................                                                     26.6%
Apr-19................................................                                                     27.0%
May-19................................................                                                     27.9%
Fiscal year 2019 through May Total....................                                                     26.2%
----------------------------------------------------------------------------------------------------------------


                ATD Non-Family Unit\13\ Absconder Rates by Month fiscal year 2019 through May\14\
----------------------------------------------------------------------------------------------------------------
                         Month                                             Absconder Rate\15\
----------------------------------------------------------------------------------------------------------------
Oct-18................................................                                                     12.6%
Nov-18................................................                                                     12.2%
Dec-18................................................                                                     11.4%
Jan-19................................................                                                     14.0%
Feb-19................................................                                                     12.3%
Mar-19................................................                                                     11.0%
Apr-19................................................                                                     11.4%
May-19................................................                                                     10.7%
Fiscal year 2019 through May Total....................                                                     12.0%
----------------------------------------------------------------------------------------------------------------
\13\ Family unit apprehensions represent all USBP apprehensions of adults (18 years old and over) with a family
  unit classification who were subsequently enrolled into ATD.
\14\ Data from BI Inc. Participants Report, 5/31/2019. USBP data 10/1/2013--5/31/2019.
\15\ *Absconder Rate = Count of Absconders/Count of Terminations.

    Question. According to ICE's fiscal year 2020 Budget Justification, 
one of aspect of ATD, the Intensive Supervision Appearance Program III 
(ISAP III), ``enhances ICE's operational effectiveness'' and ICE's own 
procedures ``have maintained significant program success rates while 
operating at a low average daily cost.'' In response to my question 
about the Department's lower budget request for ATD compared to 
detention beds, you indicated that it is more difficult to effectuate 
orders of removal for individuals in ATD, that the asylum process takes 
longer in ATD, and that there is a significant absconder rate.
    In light of those purported serious problems with the program, why 
does ICE represent that it ``enhances operational effectiveness'' and 
note its ``significant success rates'' and cost-effectiveness?
    Answer. Alternatives to Detention (ATD) uses case management and 
technology to more closely monitor a small segment of those assigned to 
the non-detained docket. Through ATD, U.S. Immigration and Customs 
Enforcement (ICE) can more closely monitor court appearances and 
compliance with office visits, home visits, and other appointments of 
those on the non-detained docket while an individual is enrolled in the 
program.
    The ATD program is not a substitute for detention. The only 
effective means for ICE to ensure an individual's departure from the 
United States upon issuance of a final order of removal is through the 
use of detention. Any individual not detained is a potential flight 
risk, and while the use of ATD may help mitigate some of the risk, or 
rather provide useful/critical information to assist with locating an 
individual if they abscond, ATD cannot provide any assurances that the 
alien will be located and ultimately removed. In short, detention is 
the only method that may ensure a 100 percent compliance rate with an 
immigration judge's (IJ) decision.
    Given the cost associated with detention, congressionally-mandated 
funding limitations, and other limitations imposed by courts, ICE is 
only able to detain a fraction of those with cases pending before the 
immigration courts. As of June 2019, there are more than 100,000 aliens 
enrolled in ATD and over 51,000 in detention. Additionally, there are 
more than 3 million aliens on ICE's non-detained docket, of which more 
than 1 million aliens have already been issued a final order of removal 
by an IJ. Funding will only allow for approximately 3 percent of those 
assigned to the non-detained docket to be enrolled in the ATD program.
    To improve compliance with immigration law, ICE needs sufficient 
detention and ATD resources to better manage aliens throughout their 
removal proceedings. Under current ICE deployment of ATD, participants 
are frequently removed from the program before their first immigration 
hearing. Although this policy provides ICE with the ability to track 
more individuals, having participants cycle through the program prior 
to any significant developments in an individual's immigration case 
makes it extremely difficult to assess the real effectiveness of the 
ATD program. Of note, in fiscal year 2019 through July 2019, 173,091 
individuals participated in the ATD program, yet only 46,908 hearings 
were attended (thru April 2019). Indeed, while enrolled in the ATD 
program, a large number of participants comply with the requirements, 
attend scheduled hearings, office visits, and submit to home visits, 
etc. However, since there are so few hearings scheduled during this 
time, there is very little possibility of reaching a final disposition 
during the normal term of enrollment. Thus, the compliance rates during 
this very early stage of the process are high but may not be reflective 
of participation through the full process.
    ICE has significantly expanded its use of ATD from approximately 
23,000 participants in fiscal year 2014 to more than 100,000 in fiscal 
year 2019. This expansion has come with a number of challenges, 
including particularly high levels of absconders among recently 
enrolled family units. In fiscal year 2019, as of April 30, 2019, the 
absconder rate for family units stands at 26 percent, significantly 
higher than the 12.2 percent absconder rate for non-family unit 
participants.
    Any individual not detained, whether they are assigned to ATD or 
simply released with no formal monitoring at all, can abscond at any 
time. This can occur immediately upon release or 5 years later once the 
IJ makes a final decision in their case. Given that there is no 
additional penalty for individuals who abscond, and no reward or 
benefit for those who elect to comply with the IJ decision, there is 
very little incentive for individuals assigned to the non-detained 
docket to ever comply with the judge's order. Finally, detained cases 
receive much greater priority and generally take about 30 days to 
complete, compared to several years to complete for those aliens who 
are not detained. As a result of these vastly differing case processing 
timelines, as well as the additional costs associated with locating ATD 
absconders, the costs of ATD could be more expensive than detention, 
notwithstanding the significant differences in effectiveness and 
efficiency the two options present.

                                 ______
                                 

            Questions Submitted by Senator Joe Manchin, III
    Question. I have always supported and voted for a border wall, but 
I believe we need additional border security measures to properly 
secure our borders from the influx of illegal immigration and drugs. We 
need more border patrol agents, drones, grounds sensors, thermal 
imaging and Blackhawk helicopters at the border to ensure there is 
complete surveillance and security. All of these were part of the 2013 
bipartisan immigration deal that both Democrats and Republicans 
supported. I also believe that we have to find a path forward for the 
DREAMers and DACA recipients that came here as children illegally, but 
have been productive citizens by getting an education, starting a 
business or joining the military. However, I know the Administration 
has been recently calling for sweeping immigrations revisions.
    Do you believe that an immigration compromise, like the one done in 
2013, would remedy some of the immigration problems we face today?
    Answer. DHS has consistently requested that Congress address the 
outdated laws that are driving the current security and humanitarian 
crisis at the Southwest Border. Any legislation will need to address 
the following:

  --DHS needs the authority to keep families together in detention 
        during their immigration proceedings while promoting a uniform 
        standard of care and accommodation of family units, including--
        but not limited to--medical attention, nutrition, education, 
        activity, and religious services.

  --Congress must also modify our legal framework to allow DHS to 
        ensure the safe and prompt voluntary return of UAC, regardless 
        of their country of origin, who are not victims of trafficking 
        and do not have a fear of return.

  --Congress should update the laws to require an applicant for Special 
        Immigrant Juvenile status to prove that reunification with both 
        parents is not viable due to abuse, neglect, or abandonment, 
        rather than being able to receive this status despite being 
        able to reunite with one of his or her parents in the United 
        States.

  --Congress must raise the ``credible fear of persecution'' standard 
        to ensure that only aliens who are more likely than not to 
        succeed on their asylum claim are promptly placed into 
        immigration proceedings while those who do not meet the 
        standard are expeditiously removed.

  --Furthermore, any immigration legislation should allow certain 
        Central Americans to seek refugee status closer to home or in a 
        bordering country, thus obviating the need for these aliens to 
        make the dangerous journey to the United States and preventing 
        them from falling victim to transnational criminal 
        organizations and smugglers.

    Without addressing these key statutory deficiencies and legal 
loopholes, any immigration compromise will fall short solving the 
immigration problems we face today.
    Question. What is the most rampant illegality in our immigration 
system?
    Answer. The fiscal year 2018 ICE Enforcement and Removal Operations 
Report (https://www.ice.gov/doclib/about/offices/ero/pdf/
erofiscalyear2018Report.pdf) provides a breakdown of the most serious 
criminal offenses for aliens convicted of crimes.
    Question. What do you believe we should do with the DREAMers and 
DACA recipients?
    Answer. DHS has provided technical support to legislative efforts 
when requested. However, it respectfully declines to respond to this 
question, as the matter is in litigation.
    Question. The opioid epidemic is devastating too many American 
communities, especially in West Virginia. West Virginia has had to deal 
with the devastating consequences of the opioid epidemic longer and 
more directly than nearly any other state. It's now well known that a 
single pharmacy in the West Virginia town of Kermit, with a population 
of less than 400 people, received shipments of roughly 9 million pain 
pills in just 2 years. Last year, CBP, ICE, and DHS seized almost 5,000 
lbs of fentanyl. That is approximately 1.2 billion lethal doses--enough 
to supply a lethal dose to every American.
    What is the best approach to stopping fentanyl and heroin from 
entering into the United States?
    Answer. U.S. Immigration and Customs Enforcement (ICE) continues to 
strengthen public safety across our mission sets with intelligence and 
investigations to support the disruption and dismantlement of illicit 
criminal activities that harm our citizen's safety. No single agency 
can combat this issue alone, which is why ICE leverages its 
partnerships with other law enforcement organizations, industry 
partners, and international organizations to enhance its capabilities 
in addressing operational priorities. These partnerships have increased 
actionable data for decisionmaking, analysis, and law enforcement 
operations.
    In 2012, the Jaime Zapata Border Enforcement Security Task Force 
(BEST) Act was signed into law. This law authorizes the Department of 
Homeland Security (DHS) to establish a BEST program, direct the 
assignment of Federal personnel to the program, and take actions to aid 
participating agencies. The BEST program bridges the gap between DHS, 
the Department of Justice, the Department of Defense, the Department of 
State, and state, local, and tribal law enforcement agencies. As of May 
2019, BEST units are in 65 locations throughout the United States and 
consist of multiple agencies utilizing both Federal and state 
authorities to combat the opioid epidemic. As of May 2019, BEST has 
over 2,467 task force officers assigned to the teams. This number 
includes 18 foreign task force officers participating in 5 different 
ICE offices across the nation.
    On April 1, 2019, ICE established the Mountain and Old Dominion 
(MOD) BEST unit within West Virginia operating in West Virginia and 
Roanoke and Harrisonburg, Virginia, targeting Transnational Criminal 
Organizations (TCOs) exploiting global commerce and critical 
infrastructure located in the MOD BEST area of responsibility. MOD BEST 
pursues complex criminal investigations involving narcotic smuggling, 
with an emphasis on illicit distribution of opioids (including 
fentanyl) through shipping services, mail facilities, and other 
methods, to include online narcotic trafficking facilitated by the 
intranet and dark web sites.
    MOD BEST consists of law enforcement agents and officers from: ICE; 
U.S. Customs and Border Protection (CBP); the Bureau of Alcohol, 
Tobacco, Firearms, and Explosives; Virginia State Police; Charleston 
Police; West Virginia State Police; Kanawha County Sheriffs; Putnam 
County Sheriffs; Waynesboro Police; Washington County Sheriffs; and 
Franklin County Sheriffs. MOD BEST also leverages partnerships with 
private industries, as well as with the Marshall University Digital 
Forensics Programs and ICE's Cyber Crimes Center to assist with 
Internet and dark web leads and investigations of online opioid 
trafficking.
    Since April 1, 2019, MOD BEST has executed 45 enforcement 
operations seizing approximately 2.93 pounds of fentanyl, 11 pounds of 
methamphetamines, over 103 pounds of prescription opioids illicitly 
imported into the United States, and executed 6 criminal arrests.
    ICE has also partnered with CBP at the CBP-led National Targeting 
Center (NTC) in Sterling, Virginia, in a collaborative effort to 
interdict, seize, and investigate people and contraband entering and 
leaving the United States. As a result of this partnership, the 
National Targeting Center Investigations (NTC-I) was created. The 
mission of the NTC-I is to embed ICE Special Agents with CBP NTC 
targeting units to maximize both ICE and CBP capabilities in an effort 
to disrupt and dismantle TCOs. NTC-I approaches this goal with a multi-
prong approach, utilizing the Cargo/Passenger Operations Section, Trade 
Transparency Unit, and Financial Crime Investigations Unit.
    NTC-I Operations (Cargo/Passenger) Section specifically focuses on 
the targeting of fentanyl, opioids, and their precursors. This 
partnership has resulted in the successful targeting and interdiction 
of large amounts of fentanyl and opioids at International Mail 
Facilities (IMF), Express Consignment Facilities (ECF), and Ports of 
Entry. The combined efforts of ICE and CBP at the NTC has generated and 
provided support for multiple ongoing Federal and state criminal 
investigations across the country, and has led to dozens of criminal 
arrests of fentanyl and opioid traffickers and the dismantling of drug 
trafficking organizations.
    Question. How does DHS plan to combat the sale of opioids online?
    Answer. ICE's Homeland Security Investigations (HSI), the largest 
investigative arm of DHS and the second largest Federal criminal 
investigative agency in the United States, leads the Department's 
efforts to combat the sale of opioids online. ICE HSI's Cyber Crimes 
Center provides support and assistance to worldwide cyber 
investigations targeting dark web illicit marketplaces, where fentanyl 
and opioid sales proliferate. Today, ICE HSI has more than 700 open 
cybercrime investigations and more than 200 investigations specifically 
targeting dark web illicit organizations.
    ICE HSI works with private industry, academia, and international 
partners to expand and enhance emerging computer technology and 
proactively uses these new technologies to investigate criminal 
activity in dark web markets. Furthermore, ICE HSI is at the forefront 
of cyber investigations to combat dark web marketplaces, which are 
underground online safe havens for criminal activity such as opioid 
trafficking. ICE HSI has been very successful in developing methods to 
track and trace digital crypto currency, often used as the payment 
system for online opioid transactions, through several means, such as 
exploiting choke points like bitcoin exchanges and block chain 
analysis.
    In fiscal year 2018, ICE HSI delivered its Online International 
Opioid Smuggling training course in over 25 locations worldwide to more 
than 4,000 Federal, state, local, and international law enforcement 
personnel. This course provides law enforcement with the technical 
knowledge and in-depth case briefings to assist criminal investigations 
involving the dark web and crypto currency related crimes, which 
facilitate the international distribution channels related to opioid 
smuggling.
    The ICE HSI Innovation Lab will assist in combating the sale of 
opioids online via a multi-step approach. This approach includes the 
directed scraping of the Internet for sites and publications where 
opioids are being sold. The ICE HSI Innovation Lab will then utilize 
information gathered as a result of ICE HSI's subpoena and summons 
authority to identify individuals engaged in the advertisement and sale 
of opioids online. The ICE HSI Innovation Lab will cross reference this 
data against import data and utilize machine learning algorithms to 
build models of behavior to illuminate bad actors from previously 
unexamined data. Additionally, the ICE HSI Innovation Lab will utilize 
an in-house developed lead tracking and dissemination tool to capture 
data at ECF and IMF associated with opioid shipments and opioid related 
paraphernalia in a centralized data store to be cross referenced 
against investigative holdings.
    Additionally, the ICE HSI National Intellectual Property Rights 
Coordination Center's (IPR Center) Operation Apothecary is a program 
that began in 2004 and targets the smuggling and illegal importation of 
unapproved, counterfeit, or adulterated pharmaceuticals into the United 
States. In addition, it targets the websites through which sales are 
conducted. In just the past 2 years alone (fiscal years 2017 and 2018), 
Operation Apothecary resulted in 124 cases initiated, 130 criminal 
arrests, 71 indictments, 79 convictions, and the seizure of over $88 
million Manufacturer's Suggested Retail Price in counterfeit drugs.
    The IPR Center and ICE HSI's Investigative Programs Division, 
Contraband Smuggling Unit, co-launched a pilot surge ``Operation Purple 
Rain'' to target and investigate the manufacture, importation, and/or 
distribution of counterfeit pharmaceutical drugs, as well as purchases 
of bonding agents, pill presses, dyes, and other related materials for 
illicit purposes. ICE HSI is working closely with the pharmaceutical 
industry to target violators who are importing, manufacturing, and 
distributing counterfeit opioids.
    Question. What can Congress do to best support DHS's efforts to 
combat the flow of opioids and illegal drugs across our border?
    Answer. Congress can approve the President's budget request so that 
ICE can find ways to increase the BEST program's national coverage, as 
well as redirect resources to increase and modernize technology and 
equipment utilized in identifying, interdicting, and investigating 
transnational criminal organizations that smuggle illicit narcotics 
into the United States.
    Question. Harpers Ferry, West Virginia is home to the U.S. Customs 
and Border Protection's Advanced Training Center (ATC). Among other 
things, ATC trains the CBP officers, who then train the field 
employees. In fiscal year 2019, they are looking at training more than 
6,900 students which pushes the current facility to capacity. In order 
to accommodate for their predicted growth they've expressed the needed 
for the following: Law Enforcement Safety and Compliance Facility, 
because they are using old FEMA trailers which have been repurposed for 
staff and training classes to support all firearms and less-than-lethal 
instructors throughout the Agency; Intel and Targeting Training 
Facility; Instructional Design Center (IDC) and Distance Learning 
Center (DLC) Facility; and Parking Garage for additional parking 
spaces.
    Would you be willing to work with me to find a way to get the ATC 
the resources they need, such as an improved law enforcement safety and 
compliance facility?
    Answer. CBP's Office of Training and Development would certainly 
welcome and work with Congress to support the training needs of CBP 
employees, as reflected in the President's Budget.
    Question. As criminal networks become more advanced and globalized, 
we must continually improve our methods of stopping illegal commerce at 
the border. That's why I applaud DHS's efforts to form a Global Trade 
Taskforce to combat illegal commercial activities. I know these efforts 
are working because CBP and Homeland Security Investigations seized 
more than $1 million in counterfeit goods and prescription drugs, which 
included counterfeit Xanax pills, Botox, e-cigarettes, and iPhone, 
among other items.
    What illegal commercial activities pose the greatest threat to 
America's economic and national security?
    Answer. CBP has designated Priority Trade Issues (PTIs) to focus 
its limited resources on the greatest illicit commercial trade threats. 
PTIs represent high-risk areas that can cause significant revenue loss, 
harm the U.S. economy, or threaten the health and safety of the 
American people. CBP focuses its actions and resources around PTIs to 
better direct an effective trade facilitation and enforcement approach. 
Many PTIs are aimed at protecting the revenue by ensuring the 
collection of lawfully owed duties. Revenue management/controls, and 
antidumping and countervailing duty (AD/CVD), textile, and Trade 
Agreement enforcement are all key to revenue protection. PTIs such as 
Intellectual Property Rights (IPR) protection, agriculture, and import 
safety help to protect the American public and America's economy by 
safeguarding the trademarks of U.S. businesses and ensuring that 
imported goods are safe. Illicit actors use a variety of schemes to 
circumvent paying duties, introduce harmful products, or infringe upon 
intellectual property, which at times may fund additional criminal 
activity.
    Beyond CBP's PTIs, emerging threats include the increased use of 
forced labor in supply-chains, illicit actors seeking to exploit small 
package import volumes in light of the rise in e-commerce, and the 
enforcement of Section 201, 232, and 301 trade remedy duties provide 
additional focus for CBP's trade mission in protecting America's 
economic and national security.
    Question. How is DHS planning to deal with these threats in the 
future?
    Answer. The National Targeting Center--Cargo Division (NTC-CD), 
Tactical Trade Targeting Unit (T3U), in close cooperation with the CBP 
ports of entry and Centers of Excellence & Expertise, focuses on 
combating the threat of recidivism for intellectual property rights 
(IPR). The enforcement of IPR supports public health and safety, 
promotes economic prosperity, and preserves domestic and international 
security. NTC-CD T3U coordinates with the National Intellectual 
Property Rights Coordination Center to exchange enforcement, targeting, 
and intellectual data with other IPR Center partners. NTC-CD T3U works 
closely with Immigration and Customs Enforcement/Homeland Security 
Investigation (ICE HSI) to combat criminal organizations that exploit 
American trade, conduct joint IPR enforcement actions, share effective 
enforcement practices, and exchange information on violations to 
identify illicit trade trafficking. The NTC-CD T3U utilizes experienced 
targeters with the expertise to target and identify suspected IPR 
violators, provide instruction to the ports, and coordinate referrals 
to HSI case agents. The NTC-CD will continue to work with our CBP and 
DHS counterparts by leveraging data to target illicit activities and 
interdict counterfeit merchandise.
    CBP also initiates Trade Special Operations that include 
comprehensive and focused trade targeting actions to address specific 
trade enforcement risk, which includes IPR. These Trade Special 
Operations target high-risk shipments at seaports, airports, 
international mail facilities, and express carrier hubs across the 
United States. Often these operations are conducted in conjunction with 
ICE HSI and other partner government agencies. CBP will continue to 
utilize these operations to address IPR risks and detect illicit trade 
activities.
    Question. Has DHS considered bringing a similar taskforce to rural 
parts of the U.S., like West Virginia, to combat counterfeit 
prescription drugs?
    Answer. In March 2019, ICE HSI established the Mountain and Old 
Dominion (MOD) Border Enforcement Security Taskforce (BEST) within West 
Virginia. The MOD BEST targets transnational criminal organizations 
exploiting global commerce and critical infrastructure within the West 
Virginia; Roanoke, Virginia; and Harrisonburg, Virginia areas. MOD BEST 
pursues complex criminal investigations involving narcotics smuggling 
(including counterfeit prescriptions) with an emphasis on the illicit 
distribution of opioids (including fentanyl) and through shipping 
services, mail facilities, and other methods including online narcotics 
trafficking facilitated by the Internet and dark web sites. MOD BEST 
also leverages its Federal, state, and local law enforcement 
partnerships as well as the ICE HSI Cyber Crimes Center to assist with 
Internet and dark web leads and investigations of online opioid 
trafficking through international mail facilities and express 
consignment centers to rural parts of the United States.
    Within the first 90 days, MOD BEST executed 6 narcotics-related 
criminal arrests, seized 117 pounds of narcotics (including over 100 
pounds of prescription pharmaceuticals), 11 pounds of methamphetamine, 
3 pounds of fentanyl, and 6 firearms.
    MOD BEST consists of the following law enforcement agents, 
officers, departments, and offices: ICE HSI Special Agents; ICE 
Enforcement and Removal Officers; U.S. Customs and Border Protection 
Officers; Alcohol, Tobacco, Firearms, and Explosives Special Agents; 
Virginia State Police; Charleston Police Department; West Virginia 
State Police; Kanawha County Sheriff's Office; Putnam County Sheriff's 
Office; Waynesboro Police Department; Washington County Sheriff's 
Office; and Franklin County Sheriff's Office.
    ICE HSI continues to work with its law enforcement partners to 
identify high threat areas throughout the country that are being 
devastated by the opioid epidemic and expand its BEST platforms to 
proactively target transnational organized crime.
    Question. Yesterday, the Administration asked Congress for $4.5 
billion in emergency spending to address the crisis at the border. The 
request includes $3.3 billion for humanitarian assistance and $1.1 
billion for border operations. This is in addition to the $8 billion 
the President requested upon declaring a national emergency.
    Does the President's $1.1 billion emergency spending request for 
border operations, only include money for the wall?
    Answer. The President's $1.1 billion emergency spending request for 
border operations submitted to Congress on May 1, 2019, did not include 
any money for the border wall.
    Question. What kind of different technologies are being used to 
protect the U.S. southern border?
    Answer. CBP utilizes a variety of Non-Intrusive Inspection (NII) 
systems and Radiation Detection Equipment (RDE) at and between ports of 
entry to safely and effectively scan cargo conveyances (i.e., sea 
containers, commercial trucks, railcars), privately owned vehicles, and 
passenger belongings, for the presence of illicit goods and materials 
prior to entering the United States.

  --Large Scale (LS) NII systems are capable of imaging an entire 
        conveyance. These systems possess unique performance 
        characteristics that provide CBP with an enhanced capability to 
        image both laden cargo conveyances and passenger vehicles for 
        the presence of contraband (i.e. weapons, money, narcotics, 
        etc.). Systems types include fixed and mobile X-ray or gamma-
        ray imaging technology for cargo trucks, cargo containers, 
        trains, and palletized cargo. Fixed and mobile backscatter 
        technology for passenger vehicles and buses. CBP is the primary 
        DHS operator of LS NII and operates the systems in some 
        Container Security Initiative (CSI) foreign sea ports of 
        departure, and at domestic land, sea, and air ports of entry 
        and at border patrol checkpoints.

  --Small Scale (SS) NII systems are used to perform non-intrusive 
        inspections on passenger baggage and cargo, view inside of fuel 
        tanks and small compartments, identify density anomalies in the 
        shells of vehicles, behind walls of conveyances, propane tanks, 
        and identify false walls in containers. System types include X-
        ray vans, baggage X-ray systems, density meters, fiberscopes, 
        and tool trucks. SS NII is operated by CBP in some CSI foreign 
        sea ports of departure, and at domestic land, sea, and air 
        ports of entry and at border patrol checkpoints.

  --LS RDE systems (e.g. Radiation Portal Monitors) provide a passive, 
        non-intrusive means to scan cargo and conveyances for the 
        presence of radiological materials. System types include fixed 
        and mobile RPMs. CBP is the singular DHS operator of Radiation 
        Portal Monitors (RPMs) and operates the systems at land, sea, 
        and air ports of entry.

  --SS RDE, also known as Human Portable Radiation Detection Systems 
        (HPRDS), are relatively lightweight and easy to use. They 
        provide officers and agents the ability to detect, localize, or 
        identify radiological material. SS RDE also provides a key 
        capability to alert officers and agents to potential dangerous 
        levels of radiation. SS RDE operated by CBP, includes personal 
        radiation detectors (PRD), handheld radioisotope identification 
        devices (RIID), and human portable tripwire devices. SS RDE is 
        operated by CBP at land, sea, rail and air ports of entry, 
        between the ports of entry in U.S. Border Patrol operations, 
        and in Air and Marine operations.

    CBP Air and Marine Operations (AMO) guards the Nation's land and 
littoral borders and associated airspace to prevent illegal entry of 
people and goods into the United States. AMO accomplishes this mission 
using a network of aircraft, vessels, and fixed systems equipped with 
radars, day/night electro-optical/infrared (EO/IR) sensors, and 
communications technology to create situational and domain awareness, 
provide tactical airlift, and perform interdictions on the U.S. 
southern border.

  --Aircraft on the southern border range from light helicopters to 
        multi-role enforcement aircraft (MEAs) and unmanned aerial 
        systems. These aircraft are equipped with sensors ranging from 
        night-vision goggles and EO/IR to sophisticated multi-mode 
        radars capable of detecting vessels on the gulf and San Diego 
        coasts; low-flying air smugglers crossing the border and in the 
        interior, and people and vehicles crossing between ports of 
        entry. Communications technology enabling law enforcement 
        coordination includes radios, line of sight downlinks, and 
        beyond line of sight (BLOS) satellite communication for video, 
        data, and voice.

  --CBP AMO also operates medium lift helicopters that provide 
        additional specialized capability. These aircraft are equipped 
        with hoists and other specialized equipment to allow the 
        movement of tactical and rescue teams on short notice and to 
        rescue persons in distress.

  --Coastal Interceptor Vessels operate on the Gulf and San Diego 
        coasts primarily as interdiction platforms, but are also 
        equipped with navigation radars, EO/IR sensors, and radios to 
        support day/night operations and coordination with aircraft and 
        other vessels.

  --Fixed systems range from tethered aerostats to networked feeds from 
        FAA ground-based radars, capable of persistent wide-area 
        detection of air and maritime threats. Some CBP aerostats on 
        the southern border are also equipped with EO/IR sensors to 
        identify people and vehicles crossing between ports of entry. 
        The Air and Marine Operations Center (AMOC) is a state-of-the-
        art, multi-domain law enforcement and operations center that 
        integrates data from hundreds of domestic and internal radars 
        and optical sensors to manage the air and maritime domain 
        awareness of the Department.

    The Border Patrol leverages various forms of technology to gain 
situational awareness to better detect, identify, monitor, and respond 
to threats to the Nation's borders. Without technology, the Border 
Patrol cannot operate in an effective, efficient, and risk-based 
manner. Examples of technology now in use include:

  --Agent Portable Land Surveillance Technology: These platforms are 
        used to conduct surveillance in areas not covered by other 
        assets and determined too remote or rugged for mobile systems 
        to provide tactical situational awareness.

          --Agent Portable Land Surveillance capabilities include 
        handheld surveillance capabilities, hand-launched unmanned 
        aerial capabilities, tripod/pole based capabilities, and 
        unmanned ground vehicle/robotic capabilities.

  --Fixed and Re-Locatable Land Surveillance: These systems are used to 
        provide surveillance over a wide-area or point surveillance of 
        key terrain features. Some assets are capable of being removed 
        from one location, and transported to and installed at a 
        different location.

          --Fixed and Re-Locatable capabilities are typically 
        monitored/operated remotely from Command and Control Facilities 
        and include radar, electro optical and infra-red cameras, and 
        subterranean detection systems.

  --Mobile Land Surveillance: These platforms are used to conduct 
        surveillance in areas not covered by fixed or re-locatable 
        assets or to provide overlapping coverage in high-risk areas.

          --Mobile Land Surveillance capabilities include vehicle 
        mounted surveillance platforms, and vehicle transported small-
        unmanned aerial capabilities (not currently fielded beyond 
        pilot testing).

    Question.Has the Department worked with its counterparts in Mexico 
to secure the southern border of Mexico and Guatemala?
    Answer. Yes. U.S. Customs and Border Protection (CBP) has provided 
advisory assistance to the Government of Mexico to increase its 
capacity to secure and address migrant flows transiting its southern 
border with Guatemala. CBP Advisors liaise with and advise regional 
counterparts to share best practices and develop a common threat 
picture of migration and other possible criminal activity throughout 
Mexico, specifically its southern border. Additionally, Advisors assist 
in identifying, documenting, and targeting organizations that adversely 
impact security.
    Question. There is no doubt that Russia went to great lengths to 
meddle in our elections during the 2016 presidential election. It is 
still deeply concerning to know the depth of their meddling and that 
they will likely attempt similar disruptions in the 2020 presidential 
race. I realize that most of the security of voting processes falls to 
the state and county governments. However, asking already cash-strapped 
localities to protect against a highly sophisticated foreign country's 
cyber efforts is just not practical.
    What efforts are DHS taking to secure our election infrastructure 
on the state and Federal levels?
    Answer. DHS works in partnership with the National Association of 
Secretaries of State and National Association of State Election 
Directors to engage with all 50 states. With their help, since 2017, we 
have made significant strides in supporting states' efforts to secure 
their election infrastructure. Key accomplishments include: conducting 
National Election Virtual Tabletop Exercises, with participation from 
44 states in 2018 and 48 states in 2019; granting security clearances 
to election officials across the country; and partnering with the 
Intelligence Community to share classified information with election 
infrastructure stakeholders on multiple occasions.
    We continue to work with all 50 states to share information and 
promote our cybersecurity services, all of which are free, voluntary, 
and confidential. Our relationships with state election officials are 
also beneficial in our efforts to engage with more local election 
officials. This enables DHS to make services and capabilities available 
to more election infrastructure stakeholders.
    Question. Did a foreign government or its agents have an impact on 
our election infrastructure used in the 2018 midterm elections for the 
United States Congress?
    Answer. DHS remains in agreement with the finding in the classified 
report it issued jointly with the Department of Justice, delivered to 
the President pursuant to section 1(b) of Executive Order 13848 
Imposing Certain Sanctions in the Event of Foreign Influence in a 
United States Election, which concluded there was no evidence to date 
that any identified activities of a foreign government or foreign agent 
had a material impact on the integrity or security of election 
infrastructure or political/campaign infrastructure used in the 2018 
midterm elections. This finding was informed by a report prepared by 
the Office of the Director of National Intelligence pursuant to the 
same Executive Order and is consistent with what was indicated by the 
U.S. government after the 2018 elections.
    Question. What additional authorities or resources does the agency 
need to secure our election infrastructure?
    Answer. DHS has authorities to execute its responsibility to ensure 
the Election Infrastructure community has the necessary information to 
adequately assess risks and protect, detect, and recover from those 
risks.
    CISA will need to remain appropriately resourced to reach state and 
local officials around the country and assist them with managing risk. 
We are achieving this objective in the near term with the resources 
already appropriated by Congress and would continue to do so with those 
identified within the President's fiscal year 2020 Budget. In 2018, DHS 
was able to meet all requests from election stakeholders for support 
and services prior to the 2018 general election. Moving forward, thanks 
to the additional funding provided by Congress, CISA will establish 
additional teams to support election officials including risk and 
vulnerability assessments, and hunt and incident responses. In 
addition, based on feedback from the election community, CISA was able 
to develop a scalable, remote penetration testing service that is now 
available for all critical infrastructure partners. As our partnerships 
grow and demand for our support and services grows with them, CISA will 
continue to work with Congress to ensure our election security efforts 
remain adequately resourced.
    Question. In my state of West Virginia, steel and aluminum 
producers are struggling to survive because of foreign traders who 
circumvent our trade laws and evade duty payments by transshipping 
products through third party countries or changing Harmonized Tariff 
Schedule (HTS) codes. This evasion causes lasting damage to American 
companies who are forced to use significant resources to initiate trade 
cases while foreign companies continue to circumvent U.S. trade laws. 
This also negatively affects Customs and Border Protection, as they 
must chase after foreign traders who constantly change ownership, the 
address of incorporation, or HTS code.
    Do you believe that there are actions that CBP can take to stop 
transshipment and HTS code changing?
    Answer. CBP is committed to ensuring that AD/CVD laws are enforced, 
and all other duties are collected as required by law. CBP has 
partnerships with ICE, Department of Commerce, Department of the 
Treasury, USTR, and other partner government agencies (PGA) to provide 
comprehensive enforcement. With these collaborations in place, CBP has 
had success in identifying, penalizing, and disrupting efforts to evade 
the payment of AD/CVD and other required duties.
    With regard to AD/CVD, $19 billion of imported goods were subject 
to AD/CVD in fiscal year 2019. CBP collected approximately $1.9 billion 
in AD/CVD deposits and levied monetary penalties totaling over $80.5 
million on importers for fraud, gross negligence, and negligence of AD/
CVD violations under 19 U.S.C. Sec. 1592. CBP entry summary reviews 
during fiscal year 2019 also resulted in recovery of over $65.5 million 
in AD/CVD duties owed. CBP audits identified approximately $20.4 
million in owed AD/CVD duties with $4.8 million collected to date. In 
total, as of September 30, 2019, CBP was enforcing 502 AD/CVD orders, 
with Commerce having issued 45 new AD/CVD orders and initiated 58 new 
AD/CVD investigations in fiscal year 2019.
    CBP is also committed to enforcing the new trade remedy measures 
implemented pursuant to Section 201 of the Trade Act of 1974, Section 
232 of the Trade Expansion Act of 1962, and Section 301 of the Trade 
Act of 1974 to ensure the appropriate collection of duties, enforcement 
of absolute quota levels, and to detect circumvention when it occurs. 
CBP has established a Trade Remedy Unit in the Office of Trade (OT) to 
lead CBP's implementation, enforcement, and communication of trade 
remedy measures. To address the increased risk of evasion resulting 
from the new measures, CBP closely monitors imports for illegal 
transshipment and classification data, and targets anomalies in 
valuation trends to detect and disrupt evasion of the measures.
    Whether meeting the demands of increased AD/CVD orders or 
addressing evasion as a result of the new trade remedies, CBP 
prioritizes and targets high-risk imports and explores ways to make 
targeting more efficient and effective. CBP optimizes resources toward 
reviewing high-risk imports and facilitating legitimate imports. CBP's 
Centers of Excellence and Expertise (Centers) have centralized 
functions for industries and importers, and greatly increase 
uniformity, expertise, and enforcement across CBP. Further, 
investigating Enforce and Protect Act (EAPA) cases also serves an 
important function in deterring and detecting evasion. EAPA establishes 
formal procedures for submitting and investigating allegations of 
evasion of AD/CVD orders against U.S. importers. This relatively new 
statutory authority provides CBP with new tools to protect the revenue, 
while also providing an opportunity to collaborate with foreign 
governments to validate suspected evasion.
    Ultimately, providing the Office of Trade and Office of Field 
Operations with the requested resources in the President's Budget to 
carry out these existing trade enforcement functions and authorities 
will help CBP take needed action to stop evasion. The future of 
enforcement also continues to rely on partnerships with ICE, Commerce, 
and numerous other PGAs. Partnerships within the trade community are 
also critical in identifying unfair trade practices. These initiatives 
reinforce CBP's commitment to target the evasion of AD/CVD, protect the 
revenue of the U.S. Government, and ensure a level playing field for 
U.S. industry.
    Question. What additional authorities or resources do you believe 
the agency needs to effectively enforce and stop these acts of trade 
evasion?
    Answer. The fiscal year 2020 President's Budget includes an 
increase of $24.3M for CBP's `Intelligent Enforcement' program, which 
will fund enhanced efforts to stop these acts of evasion. The base for 
this program is $113.3M. Intelligent Enforcement is a key part of CBP's 
Trade Strategy 2020, a comprehensive approach to address several 
mandates and capability gaps for CBP trade operations identified by the 
Administration through EO 13785, Establishing Enhanced Collection and 
Enforcement of Antidumping and Countervailing Duties (AD/CVD) and 
Violations of Trade and Customs Laws. Intelligent Enforcement aims to 
protect U.S. economic viability and subvert trade networks that finance 
illicit activity. The approach is to better use data, systems and 
processes for network and link analysis to enhance targeting. This will 
allow the agency to more quickly identify not only the illicit 
transactions, but the network of parties involved and more rapidly 
respond to and deter fraud.
    Funding will enable the update of trade-specific targeting systems 
for advanced and risk-based analytical capabilities, as well as account 
targeting and enhanced bonding. CBP will pursue putting advanced data 
analytics technology into the hands of International Trade Specialists, 
program managers and staff at Headquarters (HQ) and Centers to provide 
them with new decisionmaking tools and information. This will be 
further enhanced by pursuing a new federated view capability that 
consolidates importer data and enforcement workflows, to ensure CBP 
operators and analysts have an integrated awareness of activities for 
an importer at all levels. These efforts will leverage all of the 
information that CBP collects, maintains, and analyzes with the goal of 
more effective and focused trade enforcement and facilitation. Funds 
will also support workforce modernization efforts, adapting the roles 
of trade staff to the changing trade environment, and building 
expertise to address the complexities of supply chains, risk 
management, and trade facilitation.
    This fiscal year 2020 funding will be used as follows:

  --$17.0M to address EO 13785 requirements to include AD/CVD enhanced 
        bonding and enforcement recommendations through:

          --$5.0M in system updates and automation of risk management 
        and bonding processes in ACE and the Automated Targeting System 
        (ATS).

          --$12.0M for developing analytics capability that compliments 
        ACE cargo processing and builds trade specific targeting in 
        ATS.

  --$3.0M to create federated view of importers.

  --$4.3M to establish staff model for modern trade environment.

                          SUBCOMMITTEE RECESS

    Senator Capito. This subcommittee stands in recess.
    [Whereupon, at 12:04 p.m., Thursday, May 2, the 
subcommittee was recessed, to reconvene at a time subject to 
the call of the Chair.]
</pre></body></html>
